<html>
<title> - IMPLEMENTATION OF THE NATIONAL WILDLIFE REFUGE IMPROVEMENT ACT: HAS THE PROMISE BEEN FULFILLED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         IMPLEMENTATION OF THE 
                        NATIONAL WILDLIFE REFUGE 
                       IMPROVEMENT ACT: HAS THE 
                        PROMISE BEEN FULFILLED? 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, October 9, 2007

                               __________

                           Serial No. 110-48

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-316 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









































                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Bobby Jindal, Louisiana
Solomon P. Ortiz, Texas              Tom Cole, Oklahoma
Frank Pallone, Jr., New Jersey       Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                





































                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 9, 2007.........................     1

Statement of Members:
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........    66
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     1
        Prepared statement of....................................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Babbitt, Hon. Bruce, Former Secretary of the Interior........     6
        Prepared statement of....................................     8
    Browner, Carol M., Chairwoman, Board of Directors, National 
      Audubon Society............................................    18
        Prepared statement of....................................    20
        Response to questions submitted for the record...........    26
    Frampton, John, Director, South Carolina Department of 
      Natural Resources..........................................    46
        Prepared statement of....................................    47
    Hall, H. Dale, Director, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................    31
        Prepared statement of....................................    33
    Hirsche, Evan, President, National Wildlife Refuge 
      Association................................................    39
        Prepared statement of....................................    41
    Horn, William P., Counsel, U.S. Sportsmen's Alliance.........    51
        Prepared statement of....................................    53
        Response to questions submitted for the record...........    55

Additional materials supplied:
    Bishop, Paul, Founder, Friends of the National Bison Range, 
      Letter submitted for the record............................    69
    Steele, James, Jr., Chairman, Tribal Council, The 
      Confederated Salish and Kootenai Tribes of the Flathead 
      Nation, Pablo, Montana, Statement submitted for the record.    70


  OVERSIGHT HEARING ON IMPLEMENTATION OF THE NATIONAL WILDLIFE REFUGE 
            IMPROVEMENT ACT: HAS THE PROMISE BEEN FULFILLED?

                              ----------                              


                        Tuesday, October 9, 2007

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1324, Longworth House Office Building, Hon. Ron Kind 
presiding.
    Present: Representatives Kind, Kildee, Faleomavaega, Brown, 
Saxton and Young (Ex Officio).

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Young, for joining us.
    I want to thank you all, and I want to apologize. We had a 
little mechanical problem with the plane coming in today, but 
we are here safe now and ready to kick off the hearing.
    I am honored to be able to chair this Subcommittee hearing 
today about the status of our Refuge System coinciding with the 
10-year anniversary of the Refuge Improvement Act. It is hard 
to believe it has been 10 years already. This not only gives us 
a chance to look back but also a chance to look forward to 
where we are going as a Nation and as an institution in our 
support of these tremendously valuable public lands called the 
National Wildlife Refuge System.
    I earlier in this session of Congress helped form a 
bipartisan caucus with our good friend, Jim Saxton, who is also 
on the committee, along with Mike Castle and Mike Thompson, to 
have the first-ever Congressional Wildlife Refuge Caucus in 
order to attract more attention and more focus on the status of 
refuges and what we need to be working on in a bipartisan 
fashion to support this very valuable system.
    I do have a written statement that I would like to, without 
objection, submit for the record, but I especially want to 
welcome our panel of guests today, starting with Secretary 
Babbitt. He was here and very instrumental in helping shepherd 
through the Improvement Act in 1997, the first real organic act 
for our Refuge System, and did a tremendous job in his 
stewardship as Secretary of the Interior during the Clinton 
Administration, along with the other guests who will be 
represented in the second panel.
    But let me just say there are some very, I think, positive 
things that are going on with the Refuge System. All too often 
we hear some of the reports and studies coming out talking 
about the shortfalls and the strapped resources and what is not 
getting done. But as someone who represents an area of western 
Wisconsin that has, I think--and I am biased--three of the most 
beautiful wildlife refuges in the Nation--the Upper Miss, the 
Trempealeau and also the Necedah--and having a chance to visit 
them and others in the country, I am always very impressed with 
the quality and professionalism of the managers, the officers, 
and the staff of the refuges. You can feel their passion and 
energy every time you step on those refuges and listen to the 
work that they are doing, and the impact they are having in the 
community and with the people--not to mention the wildlife that 
depend on those refuges.
    I think it is exciting seeing the refuge association and 
the friends group and the volunteers that come in to offer 
their help and assistance. Certainly there are valuable 
resources for the wildlife that depend on it, the quality of 
water supplies, which is essential for this Nation, and the 
educational opportunities that have really been ramped up, too, 
in recent years.
    I think the outreach campaign--and I am going to ask Mr. 
Hall for a little more information during your testimony--on 
how we are going to tap into the youth of our country to get 
them more involved in outdoor recreation generally, but also in 
educational opportunities in the Refuge System, more 
specifically.
    But, of course, we do have other very important reports: 
``Refuges at Risk'', the latest 2007 report, talking about some 
of the shortfalls in regard to the operation and maintenance 
budget, some of the staff reductions that have occurred, and 
the quasi-mothballing of some of the refuges that has taken 
place because of limited resources.
    We did have a nice ramp-up in funding, I felt, leading up 
to the 2003 centennial anniversary of the Refuge System, but 
since then it has been relatively flat-lined. I am happy that 
with this next fiscal year's Interior Appropriations bill, 
working closely with Norm Dicks on the Subcommittee, we have 
had the first significant increase in funding for the Refuge 
System for a number of years.
    We are just trying to play catch-up right now. Hopefully, 
we will be able to convince the President and the 
administration that this is the right type of investment that 
we have to make. I know there are some funding issues and 
threatened vetoes out there, but this is something I think we 
have to come together on.
    We also face a serious risk in regard to global warming and 
the impact that is going to have in the refuge, on the 
ecosystem, but also on the habitat and wildlife that depend on 
these refuges and how we are going to combat that.
    We have had a virtual freeze in new funding for new 
buildings recently. It has been very difficult to move forward; 
and, hopefully, we will have some perspective on the state of 
our infrastructure in the Refuge System and what we are facing 
there. So certainly we have had some big challenges that can't 
be ignored.
    Also, earlier this year, we had the report from the 
Cooperative Alliance for Refuge Enhancement, the CARE report, 
again, highlighting their survey and the issues that they think 
that we have to be engaged in.
    So I think the hearing is very important. It is timely. It 
is a 10-year anniversary. It also coincides nicely with 
National Refuge Week this year. And we are bringing back some 
former alums who have considerable expertise in dealing with 
refuge maintenance, along with those currently who are serving 
our country.
    So, with that, I would like to yield at this time to my 
distinguished friend and colleague from Alaska, Mr. Young, for 
any opening statements that he may have.
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                         the State of Wisconsin

    This afternoon's hearing will focus on the efforts of the U.S. Fish 
and Wildlife Service to implement the National Wildlife Refuge System 
Improvement Act since its passage in 1997.
    Ten years ago today, President Clinton signed the Improvement Act 
into law. Noting then that the Refuge System was the world's greatest 
system of lands devoted to wildlife conservation, President Clinton 
added:
    ``It is a system founded in faith; a belief that in a country as 
bountiful and diverse as ours, there ought to be special places that 
are set aside exclusively for the conservation of fish and wildlife 
resources. These special places are National Wildlife Refuges.''
    That statement remains true today. Our National Wildlife Refuge 
System--larger than our National Park System--contains the finest 
wildlife habitat on the North American continent, bar none. The System 
continues to provide sanctuary for many threatened and endangered 
species, resting habitat for millions of migratory birds, and abundant 
opportunities for virtually anyone, anywhere to rekindle a spirit for 
wildlife and wild places.
    Hailed at the time of its passage as the first true organic act for 
the Refuge System, the Improvement Act has ensured that the Refuge 
System will remain, first and foremost, now and forever, devoted to 
fish and wildlife conservation.
    Aside from the ``wildlife first'' mission established in the 
Improvement Act, important provisions establishing wildlife-dependent 
recreation as priority public uses, compatibility standards, 
comprehensive planning, and the maintenance of biological integrity and 
environmental health have all contributed to keep the Fish and Wildlife 
Service focused on this vital mission.
    But all is not well with the Refuge System. Only last week, 
Defenders of Wildlife released their most recent report, Refuges at 
Risk, detailing the plight of the Nation's 10 most threatened refuges 
ranging from Alaska to the Lower Rio Grande Valley.
    Certainly, as the co-chair of the House National Wildlife Refuge 
Caucus, I am painfully aware of ongoing problems created by 
insufficient funding for operations and maintenance, and of the Service 
falling woefully behind schedule in the completion of comprehensive 
conservation plans for every refuge or refuge complex. Climate change, 
invasive species, and water shortages are creating additional 
challenges.
    The point of today's hearing is not only to look back to see where 
we have come, but more important, to look forward to see where the 
Refuge System must go to meet the challenges ahead. The Improvement Act 
has provided a sure footing for the Refuge System. How we build on this 
foundation from here on out, however, will determine the wildlife 
legacy that we bequeath to our descendants.
    I look forward to hearing from former Secretary Babbitt, from Ms. 
Browner, and from our other distinguished witnesses assembled here this 
afternoon to discuss the hope and potential of this very special system 
of Federal lands.
                                 ______
                                 

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. I want to thank 
Chairwoman Bordallo and, of course, the Chairman of the full 
committee. At my request, this hearing is being held. I want to 
stress that, because this hearing is about the state of our 
refuges and where we are going under the Act that was passed 10 
years ago, signed into law by President Clinton. It was 
landmark legislation then and is today.
    Very humbly, when you think about the beginning of the 
Refuge System on Pelican Island, it has grown to 96 million 
acres. And I want to stress that 96 million acres is the total 
amount of acreage, which is a considerable amount of Federally 
owned land.
    In my State of Alaska, we have 16 National Wildlife 
Refuges, representing 76.2 million acres. So if you look at it, 
we have over 80 percent of the refuge lands in the State of 
Alaska, so I am quite interested in this issue.
    These units allow hunting, fishing and other forms of 
wildlife-dependent recreation. Prior to the Act, the individual 
refuge managers had little if any guidance as to what was 
compatible activity. There was no designated priority uses 
within the system, no ability to review existing activities 
prior to Federal land acquisition, no comprehensive inventory 
of the archeological natural resources or wildlife natural 
resources values within each unit.
    I was the proud sponsor of this legislation to remove these 
shortcomings. There was a fundamental need to revitalize the 
Refuge System, to end arbitrary or inconsistent compatibility 
determination, to establish priority uses and to respect 
historic activities occurring on private lands.
    Getting this legislation enacted was a long and difficult 
journey. It took more than 3 years and months of intense 
negotiations. I am pleased that some of these people are still 
here. The organizations that were partners in the process are 
testifying today. It is also remarkable this bill passed both 
the House, and I say this for your benefit, and the Senate with 
only one dissenting vote.
    It is now appropriate to reflect upon this Act and examine 
the current state of the Refuge System. I am frankly amazed 
that not a single provision of this law has been changed. 
Apparently, we got it right and the operation of the Refuge 
System has improved. In fact, in the past 10 years, the number 
of refuge units have grown from 514 to 548; the amount of 
refuge lands have been increased by more than 3 million acres; 
visitation has increased by more than 11 million people each 
year; and 317 of the 452 open refuges allow hunting. And this 
is a historic level. In addition, the Fish and Wildlife Service 
is working hard to complete the required comprehensive 
conservation plan.
    Why I stress the hunting aspect, Mr. Chairman, is the fact 
that it was the original idea of the refuge, and we are their 
biggest supporters, and to change that policy now or on a 
future date would be wrong.
    Before blowing out the birthday candles, however, we must 
acknowledge that funding for the Refuge System is currently 
inadequate, and I will be the first one to agree to that, but 
when you think you have 96 million acres of land, and I think 
we are generating $17 million, then that is not good 
management. We must figure out another way to help fund these 
systems that serve so many people.
    We also recognize a lot of the refuges because of other 
acts of law are being overgrown by foreign invasive species and 
the maintenance backlog continues to grow to a staggering 
level. It is my hope that this hearing will be just the first 
of a series ever to address these problems of true management 
in the refuge.
    Nevertheless, I do welcome my distinguished witnesses. My 
hope is that we continue to work together.
    And the only thing I would like to say is, when you bring 
and hold this up, Mr. Chairman, I think you also identify who 
wrote it, the Defenders of Wildlife. We have a group of people 
in this room that do not believe in the Refuge System as I 
envision it and do not want any hunting or really recreation 
other than looking and they want the government to control it. 
And when you do that you lose the support of the people, you 
lose the intent of what the Refuge System was set up for.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Young follows:]

   Statement of The Honorable Don Young, Ranking Republican Member, 
                     Committee on Natural Resources

    Mr. Chairman, I want to thank Chairwoman Bordallo and Chairman 
Rahall for agreeing to my request to schedule an oversight hearing on 
the National Wildlife Refuge System Improvement Act of 1997.
    Exactly ten years ago today, President Bill Clinton signed this 
landmark legislation into law thus creating for the first time in 
nearly 100 years a ``Mission'' and an organic framework for this unique 
system of federal lands.
    From its humble beginning on Pelican Island, Florida, the refuge 
system has grown to over 96 million acres of federal lands with refuge 
units in every state and U.S. territory. In my own State of Alaska, we 
have 16 national wildlife refuges representing 76.2 million acres and 
each of these units allows hunting, fishing and other forms of wildlife 
dependent recreation.
    Prior to this Act, individual refuge managers had little, if any, 
guidance as to what was a ``compatible'' activity, there were no 
designated priority uses within the system, no ability to review 
existing activities prior to federal land acquisition and no 
comprehensive inventory of the archaeological, natural resource or 
wildlife resources values within each unit.
    I was proud to sponsor this legislation to remove these 
shortcomings. There was a fundamental need to revitalize the refuge 
system, to end arbitrary or inconsistent compatibility determinations, 
to establish priority uses and to respect historic activities occurring 
on private lands.
    Getting this legislation enacted was a long and difficult journey. 
It took more than three years and months of intense negotiations. I am 
pleased that some of the same individuals, like former Secretary Bruce 
Babbitt, and organizations who were partners in this process are 
testifying today. It is also remarkable that this bill passed both the 
House and the Senate with only one dissenting vote.
    It is now appropriate to reflect upon this Act and to examine the 
current state of the refuge system. I am frankly amazed that not a 
single provision of this law has been changed. Apparently, we got it 
right and the operation of the refuge system has improved.
    In fact, in the past ten years, the number of refuge units has 
grown from 514 to 548, the amount of refuge land has increased by more 
than 3 million acres, visitation has increased by more than 11 million 
people each year and 317 of the 452 open refuges allow hunting. This is 
an historic level. In addition, the Fish and Wildlife Service is 
working hard to complete the required Comprehensive Conservation Plans.
    Before blowing out the birthday candles, however, we must 
acknowledge that funding for the refuge system is currently inadequate, 
an increasing number of refuges are being overgrown by foreign invasive 
species and the maintenance backlog continues to grow to a staggering 
level. It is my hope that this hearing will be just the first in a 
series of efforts to address these problems.
    Nevertheless, I want to welcome our distinguished witnesses and it 
is my hope that we will continue to work together to ensure that the 
American people do indeed have the finest refuge system in the world. 
After all, it is a system that sportsmen have paid for with the 
billions of dollars in excise taxes and federal duck stamp fees. Public 
Law 105-57 is a true legacy to the vision first articulated by 
President Theodore Roosevelt more than a century ago.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Kind. Thank you, Mr. Young.
    I want to thank you personally, too, for your concern and 
interest and support of the Refuge System. You have been a real 
champion on this issue.
    Now we are going to turn to our first witness today, former 
Secretary Bruce Babbitt. On a personal note, you may recall, or 
you may not, that you were the first public official in my 
congressional district in the 1996 campaign to help me 
campaign. We did an event called the Environmental Management 
Program, which, of course, is spearheaded by USGS. I enjoyed 
that thoroughly.
    Of course, you were the principal architect of the 
Improvement Act of 1997 and very fully engaged in helping 
shepherd that through the Congress. And now we sit here 10 
years later to look back and see what has worked and what 
hasn't and where we need to go from here. So it is a great 
honor to be able to welcome back to the committee here today 
Secretary Babbitt. Thank you.
    I think everyone is familiar with the lighting system that 
we have here in the committee, the 5-minute rule. Rest assured 
all your written statements will be fully submitted for the 
record.
    So thank you, Secretary Babbitt; and we will turn it over 
to you.

           STATEMENT OF THE HONORABLE BRUCE BABBITT, 
                FORMER SECRETARY OF THE INTERIOR

    Mr. Babbitt. Chairman, you have amply fulfilled my 
expectations. That resulted from that first visit and my 
clairvoyant judgment that you would rise to an outstanding role 
in this body.
    Mr. Young, I recall the hearing that gave rise to this 
legislation. I recall it as a somewhat contentious and 
unproductive hearing which was followed by a discussion that we 
had in your office which resulted in my recognition that I 
would have to deal with the forces of darkness led by my good 
friend Mr. Horn and get all of the stakeholders into this 
process. And as you yourself have said, it is quite 
extraordinary, the degree of consensus and the fact that 10 
years later there have been no amendments necessary for the 
bill.
    As I reread the legislation and the report last night, what 
comes back quite clearly is the three-cornered premise of this 
bill: First of all, a strong mission definition; second, a 
strong statement of compatibility that any use of the refuge 
had to be compatible with that primary mission; and, third, the 
mandate for comprehensive plans which would provide the public 
input and the analytical framework for making these 
compatibility decisions.
    I think it has all worked quite well. I think the most 
interesting example of that is a recent court decision on the 
Little Pend Oreille National Wildlife Refuge in eastern 
Washington in which Judge Stevens analyzes the Act, affirms 
this kind of triangular structure and strongly affirms 
compatibility, a decision made by the refuge manager.
    Mr. Chairman, you have alluded, both you and Mr. Young, to 
the budget shortfall issues; and I won't add anything to that. 
I have something to say in my testimony. It is getting pretty 
desperate out there. I think the staff reductions are ominous, 
and it is also slowing the completion of the comprehensive 
conservation plans.
    The compatibility decisions are not going to be well-made, 
and they may not survive judicial scrutiny unless they are made 
by managers in the context of the analytical framework of those 
plans. Only a third of the plans have been done in 10 years. 
The deadline is 5 years away. We still have two-thirds of the 
plans to go. It is important; and, as Mr. Young says, we must 
find some way to resolve that issue.
    I would like to devote my remaining 1 minute and 54 seconds 
to two minor topics: global warming and land use. Let me just 
say with respect to global warming, it is going to impact 
migratory species most ominously. That includes most of the 
waterfowl, which are at the base of this refuge, in the refuges 
in Alaska, on the Pacific, the Atlantic flyway, the gulf of the 
Mississippi Flyway.
    If you look at the sea level rise maps--get those maps. EPA 
has put them out. Overlay them on two places, Pamlico Sound in 
North Carolina and the Delta of the Mississippi River. You will 
see that by the middle to the end of this century on facts 
already in place, sea level rise is simply going to erase a 
number of the units in the Refuge System. We need to begin a 
process of systematically analyzing that, because the whole 
Refuge System is at enormous risk.
    Let me conclude with just one example that I happen to have 
been involved in very recently. It is the Pocosin Lakes 
National Wildlife Refuge and the wildlife complex on Pamlico 
Sound. If you look at the EPA maps and the current consensus 
estimates of sea level rise, half of that 100,000 acre refuge 
will be gone in this century. Pea Island is likely to perish, 
as are areas in the Outer Banks. Now, what that means is we are 
going to have to come to grips with how these refuges migrate 
along with the coastal ecosystems of which they are a part. I 
don't have a lot of answers, but we haven't even started asking 
the questions.
    Now, to make matters worse, as I conclude, in North 
Carolina, the Navy selected the western margin of that refuge 
for an outlying landing field. It was a decision not made with 
careful analysis. There are many alternatives. The landing 
field has been opposed by most of the North Carolina 
delegation, by the Governor and it has now come before this 
Congress in footnotes to the appropriations bill.
    The reason I cite that is because it is a perfect example 
of the land use conflicts that we are going to see as these 
refuge systems begin--or at least the wildlife begin either to 
migrate with the shifting coastlines or to perish or at least 
be at risk of extinction.
    That underlines my final point. Even as we expand them, as 
we must, most of the wildlife refuges outside of Alaska are 
postage stamps on large landscape ecosystems; and they are 
continually going to be threatened by growth, development, 
inconsistent uses unless we find some way of engaging States 
and local governments in comprehensive State-centered land use 
planning with the refuges in mind.
    I would leave for your consideration some other interesting 
Federal examples: the Coastal Zone Management Act, which has a 
State Federal process. You should look at the wildlife action 
plans, which have induced the States to begin that process.
    But I would conclude by saying we could do a much more 
robust statutory and budgetary job of looking beyond the 
borders of these refuges at the changes that are going to take 
place and finding inventive ways to engage States, local 
communities and the Fish and Wildlife Service in looking ahead 
for the next century.
    Thank you.
    Mr. Kind. Thank you very much, Mr. Secretary.
    [The prepared statement of Mr. Babbitt follows:]

               Statement of The Honorable Bruce Babbitt, 
                    Former Secretary of the Interior

    Madam Chairwoman and Members of the Subcommittee thank you for 
inviting me to testify at this important hearing. As Secretary of 
Interior I worked closely with this Subcommittee, Congress, and the 
President on crafting and passing the National Wildlife Refuge System 
Improvement Act in 1997. And I am keenly interested in how the 
administration, Congress, and the public can work together to ensure 
that the ideals exemplified in the Refuge Improvement Act are fully 
implemented in order to for the Refuge System, and the wildlife it 
supports, to thrive for the next century.
    Teddy Roosevelt once said, ``Wild beasts and birds are by right not 
the property merely of the people who are alive today, but the property 
of unknown generations, whose belongs we have no right to squander.'' 
By creating the first refuge at Pelican Island in 1903, President 
Roosevelt delivered on that statement. And thanks to the leadership of 
presidents who followed, of wildlife champions in Congress, of the 
unsung employees of the Fish and Wildlife Service, and of citizens 
banding together to protect wild places, the Refuge System has grown to 
encompass more than 500 units: a magnificent system of lands and 
waters, unique in the world, enjoyed by almost 40 million visitors a 
year.
    Upon taking office in 1993 I encountered a system in peril, its 
problems documented in innumerable GAO reports, Fish and Wildlife 
Service reports, lawsuits, and Congressional hearings. Then after 
several more congressional hearings, the clouds parted and we began a 
serious dialog with this Committee under the personal leadership of Mr. 
Young and with the active participation of several members here today.
    The result was the 1997 National Wildlife Refuge System Improvement 
Act. That title, however, belies the significance of the legislation, 
for it is much more than just another ``improvement''; it is the first 
ever organic act for the Refuge System, comparable to the celebrated 
1916 organic act of the National Park Service.
    For most of the time since the Act became law, I have been back in 
private life, most recently as Chairman of the Board of the World 
Wildlife Fund. During that time I have had many occasions to visit and 
enjoy the refuges, meandering quietly and reflectively, without the 
overhang of staff, security and press, spending time with dedicated 
refuge staff and the marvelous corps of citizen volunteers that you can 
encounter at most refuges.
    In the process I have observed first hand many positive 
improvements, notably the changes driven by the compatibility 
requirements of the Act. However, I have also seen that the promise of 
the Refuge Act, that we would elevate the Refuge System and administer 
it to the highest standards, has not been fulfilled.
    The Refuge Improvement Act, overwhelmingly passed by Congress, was 
a promise to the American people: that the system of lands and waters 
that had been set aside for wildlife for the benefit of the citizens of 
this country would be properly cared for. I fear this promise has not 
been fulfilled. Today we find a refuge system crumbling from the weight 
of an immense backlog of operational expenses. Today we find a refuge 
system hemorrhaging a fifth of its hardworking staff. Today we find a 
refuge system having to choose between restoring habitat or educating 
children about the wonders of the natural world. Today we find a refuge 
system that has been neglected, and, unhappily, in some cases, a refuge 
system where the sound management decisions of its professionals have 
been undermined by political meddling.
    In my testimony today I will attempt to document some of these 
unfulfilled promises--not to dwell on the past, but to move the refuge 
system forward. And I will conclude with several observations about 
what needs to be done in a broader context to involve our states and 
local governments in the protection and enhancement of wildlife and 
their habitat.
Unfulfilled Promise: Compatibility
    Of all the improvements mandated by the Act, the ``compatibility'' 
requirement is perhaps the most important. Refuges are where wildlife 
come first, they are closed to all other uses unless it can be 
demonstrated that such uses will not be harmful to the wildlife 
conservation purpose of the refuge system. In 1989, the GAO found that 
over half of all refuge managers reported harmful secondary uses 
occurring on their refuges. It was clear that comprehensive legislation 
was needed to fix this and other problems facing the refuge system.
    The Refuge Improvement Act strengthened the compatibility standard 
and process, requiring greater transparency and public input into Fish 
and Wildlife Service decisions. The Fish and Wildlife Service responded 
by promulgating strong regulations and policy to implement the new 
standards.
    To date, however, many compatibility determinations remain weak and 
lack strong scientific justification. More disturbing, cases are coming 
to light where correct compatibility decisions are being subverted by 
political directives from above. A particularly egregious example is 
occurring at Yukon Flats National Wildlife Refuge in Alaska where the 
Fish and Wildlife Service and the native Alaskan Doyon corporation are 
negotiating a land exchange within the refuge to get around a 
compatibility determination against oil and gas development within the 
refuge. By removing lands out of the refuge, compatibility will no 
longer apply. Drilling will have devastating consequences for the 
refuge, and this maneuver sets a terrible precedent for refuges 
throughout the country.
    At Pea Island National Wildlife Refuge in North Carolina, again 
with strong scientific evidence of the impacts of the road running 
through the refuge, the refuge manager determined that a number of 
proposed alternatives for bridge replacement and road maintenance would 
be incompatible with the refuge's purposes. Under intense political 
pressure, the Interior Department has acquiesced in a compatibility 
evaluation process that ignores the impacts of additional road building 
within the Refuge.
    There are more examples of this type of meddling in the sound 
professional judgment of dedicated refuge managers, reflecting 
administration policies contrary to the Congressional mandate embodied 
in the compatibility standard at the hear of the Refuge Improvement Act
Unfulfilled Promise: Planning
    The Refuge Improvement Act provided the public the opportunity to 
engage in refuge management for the first time. The comprehensive 
conservation planning requirement of the Improvement Act is the main 
avenue for implementing many of the provisions of the Act, and it is an 
opportunity for the Fish and Wildlife Service to inform the public 
about each refuge, gain support from the surrounding communities, and 
obtain valuable input into the management of these precious lands. Many 
refuges have been able to use the planning process to solve complex 
problems.
    The Refuge Improvement Act called for all refuges to have 
comprehensive conservation plans by 2012. Unfortunately, the Fish and 
Wildlife Service has only completed one third of the plans while two 
thirds of the time has elapsed. Yet, instead of proposing a strong 
investment in the planning process, the administration actually 
proposed cutting the planning budget in its Fiscal Year 2008 request.
Unfulfilled Promise: Maintaining Biological Integrity, Diversity, and 
        Environmental Health
    Twenty some years ago, selenium contamination from surrounding 
agricultural runoff had become so bad on Kesterson National Wildlife 
Refuge in California that the Fish and Wildlife Service had to harass 
waterfowl to keep them off the refuge's toxic ponds after more than 
1,000 ducks died from selenium poisoning. Almost all the fish had 
disappeared. The refuge had died. This episode raised important 
questions about the Fish and Wildlife Service's ability to address 
conservation issues beyond their refuge boundaries and whether the Fish 
and Wildlife Service had an affirmative duty to sustain wildlife on a 
national wildlife refuge.
    The Refuge Improvement Act addressed these questions, particularly 
its provision requiring the Secretary of Interior to maintain the 
biological integrity, diversity, and environmental health of the refuge 
system. Many external actions and threats impact the refuge system's 
biological integrity, diversity, and environmental health. Yet this 
core provision of the Act has never been adequately implemented.
    Water, essential for life, is an example. The vast majority of the 
refuge system contains important wetland and aquatic habitat, habitat 
that is vital to the millions of migratory birds and other species that 
depend on refuges. Congress recognized the importance of water to the 
refuge system, requiring the Secretary of the Interior to assist in the 
maintenance of adequate water quantity and quality to achieve the 
refuge system mission and the purposes of each refuge. Yet very little 
has been done to identify threats to refuge waters, secure adequate 
quantities of water to meet refuge objectives, or even maintain water 
quality, as exemplified at Hailstone National Wildlife Refuge in 
Montana where ducks are once again dying from selenium poisoning and 
toxic brine. Refuges in the Central Valley of California cannot compete 
on the open market for available water, leaving many of their lands 
dry. In Nevada, the Fish and Wildlife Service has virtually given away 
water rights at the Moapa Valley National Wildlife Refuge, succumbing 
to the largest groundwater development in the country's history 
threatening a refuge designed solely around the water and aquatic 
habitat it provides for an endangered fish.
    Equally alarming is virtual take-over of the refuge system by 
invasive exotic plants and animals, threatening the biological 
integrity of each and every refuge. Some refuges today are virtual 
monocultures of plants from Asia, or Australia, instead of the native 
plants and unique habitats of North America that have evolved with the 
wild beasts and birds the refuge system was set aside for. On top of 
this, due to budget shortfalls the Fish and Wildlife Service is being 
forced to completely de-staff entire refuges--refuges that may quickly 
succumb to damaging invasive species in the absence of adequate control 
efforts.
    Global warming is a serious threat to the System. Warming 
temperature and changing patterns of precipitation will require many 
species assemblages to migrate northward or upward in elevation, a 
process that is visibly underway in the West and in Alaska. Along the 
Atlantic and Gulf coastlines, rising sea levels will inundate large 
areas of existing refuges. Water will become even scarcer in many 
regions. The Fish and Wildlife Service must have the mandate and the 
resources to assess these changes and to analyze them in detail in the 
comprehensive plans for individual refuges. The National Park Service 
has already initiated such a process, and there is no time to be lost 
in getting this process underway in the Refuge system.
Unfulfilled Promise: Monitoring
    The Refuge Improvement Act recognized that you can't manage a 
refuge if you don't know what wildlife and habitat is present or how 
wildlife and habitat is responding to management and external threats. 
Congress required the Secretary to ``monitor the status and trends of 
fish, wildlife, and plants in each refuge'' and required the Fish and 
Wildlife Service to manage the system using modern scientific resource 
programs. Though some regions of the Fish and Wildlife Service are 
beginning to invest in monitoring programs; overall, monitoring, if it 
is occurring at all, has been poorly planned, lacks scientific rigor, 
and is not providing the Fish and Wildlife Service the information it 
needs to adequately manage the refuge system. Robust monitoring 
programs are especially important as climate change alters habitats, 
predator-prey relationships, and other ecological functions. The refuge 
system should be our early warning system for these types of effects, 
but today these effects remain largely undetected and misunderstood.
Unfulfilled Promise: Strategic Growth
    Amid an era of increasing population growth, virtually unchecked 
suburban sprawl, and rapid intensification of agriculture, it is 
critically important that we protect our increasingly isolated wildlife 
and last remaining wild places. Congress recognized this urgent need in 
the Improvement Act a decade ago, when it directed me and all future 
Interior Secretaries to strategically expand the refuge system in a 
manner that would protect and restore the unique wildlife and 
ecosystems of America. Never before has the need to prioritize such a 
visionary directive been so great.
    Barely a two hour drive south of Washington, D.C. lies a refuge 
that is practically begging for land acquisition funds before the clock 
runs out. Rappahannock River Valley refuge is one of those rare and 
special places in the East, where river otters still swim freely, where 
endangered fish and plants still thrive, and bald eagles still soar in 
tremendous numbers. But how long can this condition persist as 
commercial enterprise and housing developments begin to overtake the 
area, as they threaten to do in many parts of our country? It was 
Congress's intent to avoid situations such as this, where the very 
integrity and purpose of our treasured wildlife refuges are severely 
undermined. Because of years of funding neglect by the administration 
and Congress, private partners and land donors have done their best to 
pick up the slack, but even these noble efforts have barely managed to 
cobble together a few thousand acres, well short of this refuge's 
21,000 acre acquisition goal. As is, Rappahannock River Valley refuge 
exists as a handful of scattered parcels, and unless those tracts can 
be connected and expanded soon, America will have a few more housing 
developments and a lot less of its natural heritage.
    Rappahannock River Valley refuge is unfortunately not unique. All 
across America, our refuges are feeling the pressure from encroachment, 
fragmentation, and global warming. If America wishes to retain wild 
places well into the future, and I believe it does, it is now time for 
this administration and Congress to make a renewed commitment to the 
vision of 10 years ago. That vision saw a refuge system where not only 
wildlife thrive and find safe harbor, but also where our children learn 
of natural history, hunting, fishing, and to simply play in the woods. 
We owe it to our future generations to grant them the opportunity to 
see a bald eagle fly, or a river otter frolic, and to do so, full 
implementation of the strategic growth directives in the Improvement 
Act are vital to America's success in this important endeavor.
Unfulfilled Promise: Public Use and Enjoyment
    Fish and wildlife come first on national wildlife refuges so they 
will be sustained for the benefit of the American public. Ninety-eight 
percent of the refuge system is open to the public. The Refuge 
Improvement Act created a unique system of prioritized uses: wildlife 
refuges are places where compatible wildlife-dependent recreation is 
facilitated over other uses. This makes sense. National wildlife 
refuges should be places where the public can hunt, fish, observe and 
photograph wildlife, and most importantly, learn about wildlife. There 
is a refuge within an hour's drive of every major urban area in the 
country. What a fantastic opportunity to welcome the public, especially 
children, to learn and experience the wonders of the natural world. If 
we don't teach our children to appreciate and understand wildlife and 
our natural resources, who will be tomorrow's stewards of these 
precious resources? Environmental education programs and other visitor 
programs are being slashed due to budget shortfalls. One school in 
Washington state had been working hand in hand with the Nisqually 
National Wildlife Refuge on a reforestation project. Each year, the 
entire school of 750 students would take a trip to the refuge to learn 
about the wildlife and habitat, and assist staff in its restoration. 
But the Fish and Wildlife Service had to drop this tremendous 
experiential learning opportunity because of lack of funds. We can't 
let opportunities like these fade. National wildlife refuges should be 
the centers for combating what author Richard Louv calls ``nature 
deficit disorder'' in our children.
Unfulfilled Promise: Law Enforcement
    The protection of refuge wildlife, facilities, and public safety is 
the most basic function of the Fish and Wildlife Service. In 2006, 
there were over 95,000 law enforcement incidents ranging from stolen 
property to violent assaults. Every crime that occurs in America also 
occurs on national wildlife refuges. In 2005 an International 
Association of Chiefs of Police study of the Refuge System found that 
refuge law enforcement was woefully inadequate and recommended a 133% 
increase in law enforcement officers to respond to vandalism, poaching 
of wildlife, drug trafficking and myriad other crimes.
    In New Jersey, budget cuts have left just one law enforcement 
officer at Forsythe National Wildlife Refuge, covering 47,000 acres. 
The refuge manager there responded by saying, ``there's going to be 
more partying and more illegal ATV use on the refuge. There's going to 
be more illegal trash dumping.'' In some areas of the West, huge swaths 
of land are left to lone law enforcement officers. This is no way to 
treat this great system of lands or the public.
Unfulfilled Promise: Funding
    While refuges continue to operate under the tight constraints of a 
federal appropriation that has declined or remained flat in recent 
years, their expenses continue to increase. Each year, refuge expenses 
must grow by $15 million just to meet ever-escalating fixed costs for 
salary adjustments, fuel, utilities, facilities rent and maintenance, 
and more. But because the refuge system cannot even keep pace with 
inflationary costs, the System is in serious financial trouble.
    Let us not equivocate. The refuge system is reeling from years of 
fiscal starvation. The Fish and Wildlife Service has made public its 
intent to slash 20 percent of its refuge workforce, resulting in the 
permanent loss of more than 560 employees at a time when most refuges 
are short-staffed to begin with. In fact, a third of our nation's 
refuges already have no staff whatsoever. The refuge system is losing 
its biologists, its maintenance workers, its educational outreach 
staff, even its refuge managers. Years of inadequate budgets have 
forced FWS not only to shed staff, but as I've already testified, to 
cut education for school groups, to scale back on biological monitoring 
and strategic planning, and to shelve scores of important conservation 
and restoration activities. Maintenance projects are backlogged, 
visitor centers are closing, and invasive species are, in some cases, 
literally taking over.
    There is, of course, a remedy for these deficiencies. The Refuge 
Improvement Act established robust standards that would have ensured 
the health of the Refuge System for generations to come. It's now time 
to empower the Fish and Wildlife Service and the refuge system with the 
fiscal resources they need to provide another century of wildlife 
protection and education to current and future Americans. To live up to 
the standards of the Refuge Improvement Act, to address the $2.5 
billion operations and maintenance backlog, to stop the hemorrhaging of 
staff, to strategically grow the System, and to ensure adequate law 
enforcement, ecosystem health and a positive visitor experience for 
generations to come, I call upon the administration and this Congress 
to fund refuges at a level that is commensurate with the enormous 
ecological and economic value they return to the American people.
Moving the Refuge System Forward
    Several months ago, after speaking at a refuge event, I was asked 
``could you identify the single most important issue facing the refuge 
system in the coming century? And what legislation you would propose to 
address it?
    It did not take me long to identify the issue. Most of our wildlife 
refuges are relatively small, amounting to postage stamps affixed on 
large landscapes that are rapidly filling with development. Our 
population, now about 300 million will increase by a third, by another 
hundred million by the year 2040. Now take a look at the map of our 
refuge system. Most refuges are located along or near the Atlantic, 
Gulf and Pacific coasts, and on river flyways, precisely the areas 
where most of the population growth and development is occurring.. 
Which in turn poses the question; can our refuges and their animal and 
plant communities survive in the next century as isolated plots in a 
sea of encroaching development?
    Refuge lands must be expanded to insure an adequate future for our 
wildlife. There are, to be sure, limits, both fiscal and practical, to 
boundary expansion as the answer to refuge protection. In the longer 
term, the only way to insure the viability of our refuge system to 
encourage proper land use and sustainable development on the landscapes 
of which the refuges are only a tiny part.
    Land use is and will remain a primary responsibility of state and 
local governments. Yet there is no reason why the federal government 
should not provide incentives to state and local governments to join 
more actively in the management of the landscapes surrounding our 
refuges.
    What kind of incentives? One precedent that deserves consideration 
is our experience with the Coastal Zone Management Act of 1972. CZMA 
offers federal assistance to coastal states willing to establish land 
use plans for their coastal areas, and since enactment of the 
legislation 29 of the 30 eligible states have joined in this program, 
administered by the National Oceanic and Atmospheric Administration in 
the Department of Commerce.
    The statutory mission statement of the Coastal Zone Management Act 
might well be applied to a comparable program for refuges: to ``protect 
and enhance fragile natural resources by reducing conflict between 
competing land and water uses while representing a comprehensive 
approach to managing the impacts of development and other 
activities....''
    Whatever the exact approach, I can say with confidence that the 
refuge system remains in need of a strong program of state and local 
participation in the management of lands surrounding the refuges. And 
there other Federal programs that could be targeted to provide 
incentives for federal, state, local and private partnerships to 
encourage sustainable use of adjacent lands, such as the Conservation 
Reserve Program administered by the Department of Agriculture, and the 
various private land stewardship programs administered by the 
Departments of Agriculture and Interior.
    In conclusion, the Refuge Improvement Act remains, ten years after 
enactment at the initiative of this Committee, a strong legal 
foundation for the administration of our refuge system. What is most 
needed is the leadership, vision and resources to ensure that its 
promise is fulfilled for the benefit of future generations.
    Thank you.
                                 ______
                                 
    Mr. Kind. I would be remiss if I also did not extend her 
greetings to you. Chairman Bordallo desperately wanted to be 
here. She is en route from Guam but wanted to express her 
welcome to you here today, too.
    Let me just follow up, if I may, on the whole phenomenon on 
global warming and the impact it is going to have on the Refuge 
System. And now as an outside observer with the service and the 
management of these refuges do you feel there are sufficient 
steps being taken in light of the science and the impact it is 
going to have on the refuge within the service itself, 
management plans, or does something structural have to change 
within the service itself in order to put together the planning 
and the comprehensive analysis that you were just talking 
about?
    Mr. Babbitt. Mr. Chairman, I think there has to be a 
structural change. The pervasive nature of these changes is 
such that they really can't be adequately addressed, although 
they should be analyzed in the comprehensive conservation 
plans. The service must have a mandate and the resources--for 
example, to look at the entire region of Pamlico Sound, Florida 
Bay, the Gulf Coast, the Atlantic Coast, they are all related; 
and we haven't even begun to comprehend that.
    There are some extraordinary examples in Alaska. The 
retreat of the Arctic ice cap has now moved sufficiently far 
off the Beaufort Sea shoreline. There is every reason to 
believe that the polar bear population will, in fact, diminish 
and that the only possibility for maintaining that population 
on some semblance of a land ice bridge is going to be in the 
ANWR, the Arctic National Wildlife Refuge, and we need serious 
attention to those issues.
    Mr. Kind. Mr. Secretary, the structural changes that you 
would like to see, is that something that can be done 
internally or is it something that Congress needs to be engaged 
in, in order to provide the statutory authority or the mandate 
to do so?
    Mr. Babbitt. Well, Mr. Chairman, I spent the better part of 
8 years up here answering that question by saying, leave it to 
the bureaucrats, of which I am one. I return now as a private 
citizen and an environmentally concerned private citizen to say 
that a congressional mandate would be much the preferable way. 
This is a large issue, it is a systemic issue with catastrophic 
potential consequences that it should not be left to Mr. Hall, 
his successor, Secretary Kempthorne or his successor, whoever 
they might be.
    Mr. Kind. Thank you. Before coming out here this morning to 
catch the flight, I was out observing the great migration that 
is taking place in the Upper Miss right now, and it is 
spectacular, and it is beautiful, but it is also daunting in 
regard to the management and the multiple uses of that vast 
area. And we have especially dealt with the difficulty of 
putting together a comprehensive conservation plan in light of 
the multiple uses for the Upper Miss, `which has proven quite 
controversial, at least in the State of Wisconsin, when it 
comes to certain access issues and what type of access that you 
are talking about.
    Now, we are obviously behind the time line when it comes to 
the development of all the comprehensive plans throughout the 
Nation. Do you have any specific recommendations of what we 
need to do to try to streamline this process in order to get 
these plans done and up and going at a much quicker pace than 
what we have seen so far?
    Mr. Babbitt. Mr. Chairman, I believe the baseline issue is 
funding. I don't think there are any significant shortcuts. I 
would be very skeptical of any response which says we will 
simply accelerate our effort and start cranking them out. They 
take time and resources, and they can't be done on a refuge 
which has at most one or two personnel, where the visitor 
center isn't open most of the time, where trash is piling up, 
invasive species are running wild, where there is not a 
semblance of the resources necessary to do their day jobs, much 
less undertake this kind of planning regime.
    The plans are good. They work. They are worth doing. The 
court decision in the Little Pend Oreille ought to be a 
reminder of the importance of this.
    Mr. Kind. It is mentioned in your testimony about some of 
the land use conflicts and how that might slow the process down 
a little bit. But, ultimately, at the end of the day, in order 
for the CCPs to work you got to have maximum buy-in not only 
from those in charge of putting the plans in place but the 
input from the community at large. Because a lot of this is 
going to be self-enforcing. We just won't have the resources in 
order to go out there unless you have that buy-in from a larger 
community and the multiple uses of the refuge.
    Do you have anything in particular that you would recommend 
in order to deal with the land-use conflicts or the multiple-
use conflicts that pop up from time to time without 
jeopardizing the consensus building that has to take place at 
the end of the day?
    Mr. Babbitt. Mr. Chairman, I think the service has done a 
good job on the public involvement that is mandated by the Act. 
I think that what we ought to be working on is statutory ways 
to give incentives to State, county and municipal governments, 
not mandates.
    But there are a number of interesting examples--coastal 
zone management is one that I referred to--in which we look out 
across those boundaries and invite the State governments and 
the local governments.
    Another way that could be done would be to put some 
language into the wildlife action plans. It has been an 
enormously successful program. It has brought--I forget the 
exact name of it--it is a State grants program that has brought 
the States into--most all States into very high-quality 
wildlife analysis and mapping across the States. I think it 
would be perfectly logical to revisit that and say here is an 
extra add-on to the extent that you want to get into looking at 
land use in connection with the refuge managers. Just set up 
the process and give the incentives.
    Mr. Kind. Great. Thank you, Mr. Secretary.
    My time is expired. We will turn it over to Mr. Young for 
any questions.
    Mr. Young. Thank you, Mr. Kind.
    Mr. Secretary, you hit upon the funding and cooperation and 
suggested that Congress come forth with possibly the solutions 
of the bureaucrats. I might agree with that, but, knowing this 
Congress, we haven't been able to do a whole lot in the last 
year and a half, and I don't know how much more we are going to 
be doing, and this is realistic. And I don't know whether we 
can solve the funding.
    I mentioned in my statement, Mr. Secretary, we have 96 
million acres in refuges; and it is my understanding we raise 
$75 million a year off the 96 million acres. Is there any way 
we can use the 96 million acres to raise more money for the 
Refuge System?
    Mr. Babbitt. Mr. Young, I have always been an advocate of 
visiting and revisiting the issue of fees. I wouldn't advocate 
fees for the Alaska refuges. It would cost more to collect them 
than they would be worth.
    If you go down to Sanibel Island during the winter season 
down there, I don't know whether they are charging admission 
fees. It is not a total solution, but it has been helpful in my 
judgment in the National Park System, and I think it should be 
carefully examined here.
    Mr. Young. Well, going along those lines, though, if we 
have a refuge, just raising by fees, that is just a minor 
amount of money. If we have 11 million more visitors a year, 
you have to be charging something like a $100 fee or better for 
those that visit to raise the money. We are at about a $2.4 
billion backlog, if I am not mistaken.
    What I am looking for, and I am not a pessimist, but I 
don't see, other than this hearing, much enthusiasm for the 
Refuge System in the U.S. Congress. A little talk, a little bit 
of a discussion, but not much enthusiasm.
    As I mentioned, invasive species and everything else, and 
if we buy your concept of rising tide and we have to adjust the 
borders of the refuge to make sure they have enough space for 
the migratory birds and stuff, that is going to take money. And 
somehow we have to figure out how we are going to raise that 
money or raise the interest level higher to get it.
    I still think--what happens as far as duck stamp money? 
Where does that go? What does it go for? Does anybody know?
    Mr. Babbitt. It goes largely, in my understanding, for 
habitat acquisition in the Duck Factory.
    Mr. Young. But not management of the refuge front. And we 
have increased like 96 million acres. We probably could get 
more. I would not support that, but say somebody else would. 
Because I believe if you have the inability to manage the 
property you have, then you shouldn't be purchasing another 
house. You should take and make sure your house is being run 
correctly.
    So I have to figure out a way we can get the monies, other 
than direct appropriation. You can forget that. There is just 
not going to be $2.4 billion additional dollars for the 
backlog. So we have to figure out a way to raise those dollars. 
If anybody has any suggestions, and for those that are going to 
testify later on you better think about it, because I will 
probably ask the same question if I am here. Mr. Secretary, you 
are at a disadvantage now because no one has come to me with 
how we are going to raise those dollars.
    Mr. Babbitt. Mr. Young, I would only suggest that you might 
talk with I think the two most creative sort of indirect fund-
raisers in or from the U.S. Congress, John Barrow and Mary 
Landrieu, who have in aid of coastal issues in Louisiana come 
up with imaginative proposals tapping everything that stands or 
moves within the jurisdiction of not just Louisiana but the 
entire United States.
    Mr. Young. Well, I will be supportive, because that is oil 
and gas. I didn't want to bring that subject up, but that is 
exactly where it is coming from. And if you remember the CARE 
Act, which I was a sponsor with Mr. Miller, that is what we 
were going to do to make sure those monies were permanently 
appropriated and not at the discretion of the appropriators for 
the Conservation Reinvestment Act. And of course it got over 
the Senate and died.
    By the way, we had 328 votes I believe for that Act; and 
that does show some imagination. But unless we see the 
interest, then I can't get your side to even think about 
offshore drilling other than Louisiana. And we might want to 
start thinking about--maybe we think about, oh, God help us, 
oil and gas development, that a set portion of that money would 
go directly to the refuge improvement and maintenance of and 
the future development of supposedly global warming. You might 
want to think about that. That may be a little farfetched.
    Mr. Chairman, every time I mention that, you can't do that. 
Those dirty old fossil fuels, we can't develop it. But if we 
want to solve this problem of refuge which does exist today and 
if we are really interested in fish and wildlife and 
recreational purposes and touching nature, we better damn well 
accept that challenge.
    I am out of time.
    Mr. Babbitt. Mr. Young, may I offer a brief rejoinder and 
suggestion in the spirit of our earlier collaboration?
    Mr. Young. Yes.
    Mr. Babbitt. I believe were those concepts detached from 
all of the raging debates about where development should take 
place and that were cut adrift and you were just examining the 
issue of revenues as they may come under law, whatever that law 
may be, that would be an opportunity for you and me to go back 
to your office and write a bill. Unfortunately, I am no longer 
in power to do that.
    Mr. Young. Mr. Chairman, in response to Mr. Babbitt's--
Secretary Babbitt's little story--and he may deny this--but 
when he was Secretary he came to my office again and asked for 
assistance to help rewrite the Endangered Species Act, and we 
were working on that and making progress. And, lo and behold, 
in 1994 we took over control of the Congress, and I tried to 
rewrite the Act, and all of a sudden I was a bad guy. No 
politics involved. But I just want to tell you what can happen 
in this business we are in.
    I would be willing to sit down and talk to anybody if we 
can find a way to find a permanent source of income so it 
doesn't go through the appropriation process for the 
improvement and the management of our refuges, and I think that 
is what we ought to be doing.
    Mr. Kind. Well, thank you, Mr. Young.
    If it is OK with you, I would like to just follow up with a 
couple more questions, mainly on that line of thought. Because 
I have been talking to a lot of individuals, a lot of groups on 
this very point and try to see what creative minds exist out 
there to have this steady, dedicated source of income.
    You raised the duck stamp money that is raised every year, 
yet you are talking about a very limited universe there of duck 
hunters that are actually contributing to it, and there are a 
very small percentage of those who are actually going into the 
refuges to enjoy that hunting sport. I am one of them. And yet 
we have a lot of birders going in, bird watchers, photographers 
going into our Refuge System that aren't buying duck stamps at 
the same time. And the duck stamp money is mainly for wetlands 
preservation programs, both on public and private lands. So we 
do have to, I think, come up with a different funding source 
user fee.
    But this is also a question maybe the second panel, anyone 
on the second panel, might have some ideas or thoughts on, too, 
is how can we raise some additional revenue from a dedicated 
fee or source in order to deal with this backlog problem that 
we have right now in financing the Refuge System.
    I am glad to hear that your office is open, as mine is for 
you, Mr. Babbitt, or anyone else who has some ideas or thoughts 
on this very topic. But I would just disagree with you 
slightly, Mr. Young, in regard to a level of interest in the 
Refuge System in the Congress. With the bipartisan caucus that 
we formed, we do have 138 members, so we are able to get out 
information into the offices. We just haven't had your 
leadership on the caucus yet that we desperately need.
    Mr. Young. A lot of time these caucuses, people get on it, 
because I am the head of the sportsmen's caucus, or was. As you 
know, people get on and say they are on it, but they are really 
not there to do anything. And that frustrates me.
    Mr. Kind. Granted. But it is a truism in this place that 
there is virtually a refuge in every congressional district, or 
at least one within hiking distance of every congressional 
district. So it does affect us all, and I think we have to 
figure out a way of tapping into the interest that does exist 
in the Congress.
    But let me also ask you, Mr. Babbitt, another very 
important issue. We have had a hearing on this already, and 
that is the spread of invasive species. And obviously, global 
warming is going to bring a whole new dynamic to that. I have 
pending before this committee, and we hope to go to full 
committee markup H.R. 767 called the Repair Act, which will 
provide Federal grants and in a partnership on the public and 
private level in order to deal with the spread of invasive 
species in and also in the surrounding area of our Refuge 
System.
    How big a threat is that? And do we need a statutory 
response to authorize the service in order to form these 
partnerships with the local entities in order to have a good 
comprehensive plan and also, hopefully, the funding to deal 
with the invasive problem that we have?
    Mr. Babbitt. Mr. Chairman, I think a statutory directive 
would be really useful. This is a new and again vast, poorly 
understood and hugely destructive problem that cannot be 
addressed just inside the boundaries of the refuge. And it is 
yet another example of how it is driven by all these forces. We 
need to find ways to sign up the surrounding jurisdictions, and 
I believe it would be really important to flag that as a 
statutory effort.
    Mr. Kind. I appreciate that, because we have received a lot 
of good advice from Mr. Hall and Mr. Haskett, the chief here, 
in regard to the spread of invasive species. And while they do 
have programs in place, it just seems to be out here rather 
than at a real focal point that I think we need and that is 
necessary. Of course, we do get back into the funding issue, 
and all roads seem to head back to that poignant fact.
    But, again, I want to thank you for your insight and for 
your involvement and for the history that you bring to the 
Refuge System and to this committee. It has been a joy to have 
you here.
    Mr. Young.
    Mr. Young. Mr. Secretary, put your mind to work and maybe 
we can arrive at some solution to a problem. Again, the 
finances are the hardest problem. Although we have 130 on this 
deal, I would be extremely surprised if we had more than a 10 
percent increase in the refuge dollars directly appropriated. 
And that is where CARE came in where it was automatic and came 
of off of offshore drilling, and instead of where it goes now 
into the general Treasury to be spent on some other crazy 
program that never gets any results at all. And I am not 
casting dispersions on anybody, but in reality if we don't do 
that, if we don't take a resource and use it to develop and 
protect another resource, we are going to lose this battle 
eventually.
    Mr. Babbitt. Mr. Young, I suppose that means I ought to go 
start talking to Mr. Horn again.
    Mr. Young. Mr. Horn is not impossible. He is not.
    Mr. Babbitt. Thank you very much.
    Mr. Young. Thank you.
    Mr. Kind. Thank you, Mr. Secretary.
    Now I would like to welcome our second panel up to the 
microphones. While they are finding their seats, let me quickly 
introduce them here this afternoon.
    Our second panel consists of The Honorable Carol Browner, 
Chairwoman of the Board of Directors for the National Audubon 
Society and former Administrator of the U.S. EPA during the 
Clinton Administration; The Honorable Dale Hall, Director of 
U.S. Fish and Wildlife Service, U.S. Department of Interior; 
Mr. Evan Hirsche, Executive Director, National Wildlife Refuge 
Association; Mr. John Frampton, Director of the South Carolina 
Department of Natural Resources--welcome. glad to have you--and 
also The Honorable William Horn, General Counsel of the U.S. 
Sportsmen's Alliance, former Chairman of the National Wildlife 
Refuge Centennial Commission, and former Interior Assistant 
Secretary for Fish and Wildlife and Parks.
    I would also, since I see him sitting in the audience, too, 
Chief Geoff Haskett of the Refuge System. Delighted to have him 
here this afternoon as well.
    So, Ms. Browner, we will turn it over to you. Thank you 
again for being here.

     STATEMENT OF HON. CAROL BROWNER, CHAIRWOMAN, BOARD OF 
DIRECTORS, NATIONAL AUDUBON SOCIETY, AND FORMER ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Browner. Thank you very much, Mr. Chairman, and 
Congressman Young, for the opportunity to be with you today.
    While I am the former administrator of the EPA, I appear 
today as Chair of the Board of Directors of the National 
Audubon Society. My testimony is offered not just on behalf of 
the National Audubon Society; it is also endorsed by the 
National Wildlife Federation, the Wilderness Society, and 
Defenders of Wildlife. Together, our organizations represent 
more than 6 million members and supporters across the country 
dedicated to wildlife and habitat conservation. You may be 
aware of this, but National Audubon has an extensive history 
working to protect America's wildlife refuges, including from 
the very beginning, our members actually urged President Teddy 
Roosevelt to create the Refuge System and at the turn of the 
last century, helped to provide some of the first wardens to 
protect the refuge from the plume hunters. Audubon's 24 State 
offices and more than 500 local chapters across the country 
continue to provide volunteer support to the refuges 
nationwide.
    Mr. Chairman, I want to begin by thanking you for your 
leadership of the Congressional Wildlife Refuge Caucus and all 
of the members of that caucus. The question that you asked 
today, and I think the point of this hearing is, quite simply, 
has the promise of the act been fulfilled? And I think, 
unfortunately, and you noted there has been some progress, but 
on balance the answer is: No, the promise has not been 
fulfilled.
    Ten years after passage of this landmark legislation, we 
find that there are implementation of several key requirements 
that have really not been fully realized, and that the result 
is that we are not living up sort of the hope and the intent of 
the legislation.
    We are particularly concerned with the low priority that 
has been given to implementing two of the key provisions. 
First, the mandate to direct strategic growth of the system to 
conserve the ecosystems of the United States. And, second, the 
mandate to maintain adequate water quantity and water quality 
to fulfill the mission of the system and the purposes of each 
refuge.
    We share the concern that you spoke about with Secretary 
Babbitt as to the funding crisis, I think we would call it. We 
believe that this funding crisis has slowed conservation 
planning, limited even the most basic monitoring of refuge 
resources, and severely limited the system's response to the 
highest priority threat to habitat, which are invasive species. 
And we certainly agree, Mr. Chairman, with your observation 
that sooner rather than later we are going to need to begin to 
account for the realities of climate change and the 
consequences that the refuge will experience.
    A few thoughts as you go forward. First, Audubon strongly 
encourages further oversight from this committee. Now, that may 
sound a little odd from someone who spent 8 years subject to 
the oversight of Congress, but I would encourage you to use 
that oversight. It can be a real, I think, help to the agency 
when the Congress can engage in that sort of way. I think 
looking at the strategic growth of the system, efforts to 
maintain adequate water for the refuge, and efforts to complete 
comprehensive conservation plans in a manner consistent with 
the Act mandates would be particularly useful.
    We would also recommend that the committee consider passing 
legislation that would help the system to address the invasive 
species issues and the borderland conflicts. And in particular, 
Mr. Chairman, I want to thank you as well as Congressman Saxton 
for your leadership in introducing the Repair Act, which we 
think would be extremely helpful in terms of answering the 
invasive species challenge. And I understand that the committee 
will look at that bill later this week, and we lend our support 
to the passage of that.
    Let me just say in closing how important we think your work 
is in looking at where we are and what the 10 years have 
wrought, and how much we are available to work with you as you 
move forward to address these concerns.
    On a personal note, I come from Florida; as many of you 
know, I served as Secretary of the environment in Florida and 
was part of an effort to expand the Big Cypress National 
Wildlife Refuge. It is an amazing place, and it meets a need of 
the public that sometimes our national parks don't. And I think 
it is that uniqueness that we want to make sure we preserve 
going forward, but at the same time, on the same hand recognize 
that there are real challenges to preserving those 
opportunities that the refuge provide to people across this 
country.
    Thank you.
    [The prepared statement of Ms. Browner follows:]

   Statement of Carol Browner, Chairwoman of the Board of Directors, 
                        National Audubon Society

    Madam Chairwoman and Members of the Subcommittee:
    Thank you for the opportunity to testify regarding implementation 
of the National Wildlife Refuge System Improvement Act of 1997. I 
commend you for holding this important hearing. I speak to you today as 
both a former Administrator of the Environmental Protection Agency and 
as the Chair of the Board of Directors of the National Audubon Society.
    My testimony today is offered on behalf not only of National 
Audubon Society but also National Wildlife Federation, The Wilderness 
Society, and Defenders of Wildlife. Together, our organizations 
represent more than six million members and supporters across the 
country.
    Audubon's mission is to conserve and restore natural ecosystems, 
focusing on birds, other wildlife, and their habitats for the benefit 
of humanity and the earth's biological diversity. Our national network 
of community-based nature centers and chapters, scientific and 
educational programs, and advocacy on behalf of areas sustaining 
important bird populations, engage millions of people of all ages and 
backgrounds in positive conservation experiences.
    The dedication of National Audubon Society to the protection of the 
National Wildlife Refuge System can be traced to its earliest history. 
At the urging of early Audubon societies, President Teddy Roosevelt, in 
one of America's great acts on behalf of conservation, established 6-
acre Pelican Island in Florida as the first federal wildlife refuge. 
Audubon and the federal government jointly financed the work of the 
first Refuge System's first employee, a warden who guarded the birds of 
Pelican Island from plume hunters. Audubon continues to be a stalwart 
defender of wildlife refuges, with a deep appreciation and respect for 
the system's value to the country as a national treasure, as well as 
its importance as a tool for bird and wildlife conservation and for 
protection of the ecosystems of the United States.
    Unfortunately, despite its value and importance, for decades the 
Refuge System has been under-appreciated, under-funded, and under-
prioritized. Its tremendous potential, to be the bedrock of ecosystem 
protection in the country, and to be a driver of habitat protection in 
the larger landscape surrounding the refuges, has gone largely 
unrealized. In many ways, refuges have been passive recipients of a 
wide range of environmental threats, places where destructive 
activities were too often permitted, and where ecosystems were too 
often degraded by broader landscape-level threats such as invasive 
species, limited water supplies, and pollution.
    In 1997, the Congress sent a strong signal that the era of under-
appreciation, rampant unaddressed threats, and unrealized potential was 
coming to an end. The passage of the National Wildlife Refuge System 
Improvement Act, with unanimous bipartisan support in the House and 
Senate, for the first time gave the Refuge System a clear mandate to 
promote wildlife conservation above other uses, widely known as the 
``wildlife first'' mission of the system. The Improvement Act also gave 
refuges powerful tools to begin to tackle unaddressed threats and to 
manage the system with an ecosystem approach.
    Ten years after passage of this landmark legislation, however, 
implementation of several key requirements is grossly inadequate.
 The Refuge Improvement Act is a Powerful Tool for Putting Wildlife 
        First, but Many Conflicts are Still Unresolved
    The basic framework of the Refuge Improvement Act was very 
important. It established the ``wildlife first'' mission of the Refuge 
System and clearly prioritized wildlife-oriented recreation over 
commercial activities and other non-wildlife-oriented uses. The Fish 
and Wildlife Service has developed strong policies for compatibility 
``ensuring that uses are compatible with wildlife conservation before 
they can be permitted--and appropriateness--ensuring that uses are 
wildlife-oriented and appropriate for a wildlife refuge.
    According to refuge staff with whom we spoke, the appropriate use 
policy is used every day on wildlife refuges across the country to 
implement the ``wildlife first'' mission. When refuge managers receive 
calls requesting use of refuges for auto shows, weddings, and other 
non-wildlife oriented uses, the appropriate use policy makes it easier 
for refuge managers to refuse authorization for such activities. The 
appropriate use policy already has been used to exclude inappropriate 
helicopter use on a refuge, and is applicable to borderlands conflicts 
affecting refuges like Lower Rio Grande Valley.
    The strength of the Improvement Act as a tool for putting wildlife 
first also has been verified in court. For example, Little Pend Oreille 
is a small oasis of protected wildlife habitat in northeastern 
Washington that provides hunting, fishing and wildlife recreation 
opportunities. An attempt to reopen much of this fragile refuge to 
harmful cattle grazing was blocked by a federal district judge. The 
judge found that restricting grazing in the Little Pend Oreille under 
the Refuge Improvement Act was appropriate.
    This was an important decision for the future of the National 
Wildlife Refuge System. The Improvement Act has helped this refuge to 
prioritize its fundamental mission to protect ``wildlife first,'' an 
encouraging sign that refuges across the country can be defended from 
incompatible and inappropriate uses that compromise wildlife 
protection.
    However, much more work remains to be done to eliminate destructive 
uses of wildlife refuges. In 2002, the Refuge System issued a data 
collection effort to identify threats and conflicts within wildlife 
refuges. This effort identified more than 2,376 threats nationwide. The 
degree to which the Improvement Act has helped to address these threats 
in the past ten years is unclear. The last system-wide assessment of 
incompatible uses of the Refuge System through an independent 
investigation was completed by the Government Accountability Office 
(GAO) in 1989.
    Audubon recommends that the committee request a new assessment of 
incompatible activities in the Refuge System by the GAO, including an 
assessment of the role of the Refuge Improvement Act in eliminating 
incompatible and inappropriate uses and if additional authorities are 
needed.
 Diluting the Promise: The Service Has Selectively Ignored or Given 
        Very Low Priority to Key Provisions of the Improvement Act
    The Fish and Wildlife Service has accomplished very little in its 
implementation of the plain language and clear mandates of some of the 
key provisions in the Refuge Improvement Act. In particular, mandates 
to plan and direct the continued growth of the System to conserve the 
ecosystems of the United States (strategic growth) and to advocate for 
water rights and the protection of natural hydrological systems (water 
quantity and quality), largely have not been implemented.
 Strategic Growth
    The Improvement Act calls upon the Service to ``plan and direct the 
continued growth of the System in a manner that is best designed to 
accomplish the mission of the System, to contribute to the conservation 
of the ecosystems of the United States, to complement the efforts of 
States and other Federal agencies to conserve fish and wildlife and 
their habitats, and to increase support for the System and 
participation from conservation partners and the public.''
    In an era of rampant population growth, intensification of 
agriculture, and sprawling development, the ``continued growth of the 
system'' as Congress directed, is of utmost importance to ``contribute 
to the conservation of the ecosystems of the United States.'' Yet, 
there are essentially no official national priorities to guide the 
creation of new refuges or the expansion of existing refuges.
    The Service has considered a Strategic Growth policy internally but 
never finalized it. At the same time, the Service has operated under an 
informal policy that guided new acquisitions solely to inholdings, a 
strategic growth policy that includes neither strategy nor growth.
    This ``inholdings only'' policy is particularly shortsighted in 
light of the ongoing and intensifying threat of climate change. As 
wildlife habitats shift in response to climate change, the Fish and 
Wildlife Service will need to plan for strategic growth in a manner 
that allows the Refuge System to adapt to climate change. Under current 
policy, when planning the future of a refuge, it is virtually 
impossible to plan for climate change without considering the buffer 
areas, habitat connections, and redundancies in habitat areas that will 
be necessary to give wildlife a fighting chance to adapt to climate 
change.
    The Service is currently exploring a partnership with the U.S. 
Geological Survey regarding the use of a strategic, science-based 
process for habitat conservation at appropriate landscape scales. The 
system begins with assessments of species life histories and habitat 
requirements, then extends that to condition assessments of the needed 
habitat areas and identifies appropriate places for habitat acquisition 
and restoration. Such a strategic approach will be absolutely necessary 
to meet the mandate of the Improvement Act and to meet the challenge of 
climate change.
    Audubon recommends that the committee encourage the Service to 
implement a strategic habitat conservation system in partnership with 
USGS and to promulgate a formal policy directing the System to 
``contribute to the conservation of the ecosystems of the United 
States'' through strategic growth in a manner consistent with the 
Improvement Act.
 Water Quantity and Quality
    The refuge improvement act was firm and clear regarding water usage 
when it stated that ``adequate water quantity and water quality'' must 
be maintained to ``fulfill the mission of the system and the purposes 
of each refuge.'' To quote the Fish and Wildlife Service from 
Fulfilling the Promise, its 1999 strategy document for implementing the 
National Wildlife Refuge System Improvement Act: ``The Service needs to 
be a strong advocate for fish, wildlife, and plants in the adjudication 
and allocation of water rights and the protection of natural 
hydrological systems. A comprehensive assessment of the availability of 
water supply, projected water needs, and status of existing and needed 
water rights should be completed for each refuge.'' The Service has 
made very little progress in implementing this key provision of the 
Improvement Act.
    While the Service has established ``Promises Teams'' to attempt to 
implement many of the recommendations in Fulfilling the Promise, no 
such team was ever formed to implement the water resources 
recommendations. Water needs are being identified at very few refuges. 
Water quality data are being collected in very few locations nationwide 
and little is being done to protect water quality on a landscape level.
    The effects are being felt on refuges across the country, but the 
effects are particularly acute in California. As Defenders of Wildlife 
has reported, increasing water demands from agricultural and urban 
development cause the San Luis National Wildlife Refuge in California 
to struggle to secure enough water to sustain its wetlands. The health 
of San Luis NWR, an anchor of habitat along the Pacific Flyway, depends 
on the availability of water, and in the 1997 law, Congress declared 
that refuge water quality and quantity must be protected.
    This problem will be exacerbated by climate change. The Refuge 
System should include assessments of the impacts of climate change on 
water availability in Comprehensive Conservation Plans for each refuge.
    Audubon recommends that the committee encourage the Service to 
develop policy guidance for refuge managers to advocate for their legal 
right to secure adequate water for refuge lands.
    Audubon further recommends that the committee encourage the Service 
to complete a comprehensive assessment of water needs at each refuge, 
to prioritize water needs when developing Land and Water Conservation 
Fund priorities, and to include an assessment of the impacts of climate 
change on water availability in all Comprehensive Conservation Plans.
 Killing the Promise: Refuge Funding Crisis Kills Opportunities to 
        Implement Core Requirements
    The Refuge System faces a crippling backlog of more than $3.75 
billion in operations and maintenance projects, killing opportunities 
to implement basic requirements of the Improvement Act such as 
inventorying and monitoring wildlife and completing Comprehensive 
Conservation Plans in a timely manner. The funding crisis also cripples 
the ability of the Service to tackle the primary threat to refuge 
habitat--invasive species--in a manner consistent with Improvement Act 
mandates to protect the biological diversity and ecological integrity 
of the system.
    As the Cooperative Alliance for Refuge Enhancement has reported, 
the nationwide impact of funding shortfalls includes: A crippling 20 
percent cut in national staffing levels, equivalent to a permanent loss 
of 565 essential staff positions; and more than 300 refuges operating 
at a loss by Fiscal Year 2013, assuming current funding and staffing 
trends.
    Implementing state-of-the-art ecosystem management in a manner 
consistent with the Improvement Act is daunting in the face of 
diminishing resources that strain the ability of refuges to keep their 
doors open or to maintain existing programs such as environmental 
education.
    Audubon recommends that the committee continue its oversight of the 
challenges facing the Service due to the crippling operations and 
maintenance backlog.
 Comprehensive Conservation Planning
    Comprehensive Conservation Plans are where the elements of the 
Improvement Act are brought together, where individual refuge units 
determine their highest and best use, plan appropriate public uses, and 
determine the compatibility of activities affecting refuge resources.
    The Refuge System is required by the Improvement Act to complete 
Comprehensive Conservation Plans for each of its refuges by 2012. As of 
early 2007, approximately 350 were unfinished or yet to be started. In 
the Pacific Islands Region of the Refuge System, home to Guam National 
Wildlife Refuge and 19 other refuges, only three CCPs have recently 
been released in draft form. That leaves 17 others, which contain much 
more daunting planning challenges, to be completed in the next five 
years in order to meet the statutory deadline.
    To date, each CCP has cost the System an average of $500,000, which 
does not include employee salaries to conduct the bulk of the work and 
research to write each CCP. Despite the significant cost and the 
Improvement Act's approaching deadline, the planning budget for refuges 
in recent years has been flat or going down.
    Audubon cautions that the speed with which plans are completed 
should not be the sole focus of oversight from the committee regarding 
conservation planning. Frantic worry within the Refuge System regarding 
meeting CCP deadlines can be a distraction from the need for high 
quality plans that meet the best needs of the resources and provide 
solid guidance for management to meet those needs. There can be a 
tradeoff between the speed of completion and the quality and long-term 
usefulness of the plan.
    Audubon recommends that the committee request that the GAO initiate 
a thorough study of Comprehensive Conservation Plans, to assess the 
resources truly needed to complete remaining plans, to assess the 
extent to which they are reflective of the requirements of the 
Improvement Act, and to make recommendations regarding improvements 
that can be made to ensure the plans are consistent with principles of 
ecosystem management and include strategies to cope with the impacts of 
climate change.
 Basic Inventorying and Monitoring of Refuge Resources
    Fulfilling the Promise makes it clear that ``Now and in the future, 
rigorous approaches to inventorying and monitoring wildlife resources 
are needed to provide the information critical to devise, evaluate, and 
refine refuge management strategies implemented to meet refuge goals 
and objectives.'' Unfortunately, the refuge funding crisis has 
prevented the Service from making acquisition of this information a 
priority.
    Basic inventory and monitoring requirements are still not 
accomplished on many refuges, and comprehensive knowledge is lacking 
even of species on refuges that are federally-listed under the 
Endangered Species Act as threatened or endangered.
    Current approaches to inventory and monitoring of the plants, fish, 
wildlife and habitat within the Refuge System are also very 
inconsistent. According to the Fish and Wildlife Service's Fulfilling 
the Promise Progress Report completed in 2004, the Refuge System has 
surveyed all refuges about current wildlife and habitat monitoring 
procedures and how the data are collected, stored, and managed. Refuges 
used more than 180 different procedures.
    Audubon recommends that the committee encourage the Service to give 
a high priority to completing consistent and comparable basic 
inventories of refuge resources that are essential to development of 
adequate Comprehensive Conservation Plans and to implementation of 
Improvement Act requirements.
 Invasive Species
    Invasive species are a top threat to refuges and a major cause of 
habitat loss throughout the country. More than 80 percent of refuges 
report problems with invasive species, and the problem now affects more 
than 8 million acres of refuge land.
    The refuge funding crisis is crippling the response to this primary 
threat to the biological diversity and ecological integrity of refuges. 
More than $360 million of the $1.25 billion operations backlog is 
accounted for by invasive species control projects. In recent years, 
only $9 million has been allocated to addressing this $360 million 
problem.
    The Refuge System prepared a National Invasive Species Management 
Strategy for the first time in May 2004. However, most refuges have no 
detailed inventory or maps of invasive distributions and no means to 
create either. Most refuges have no means to identify potential 
incipient infestations of invasive populations. Although invasive 
species control projects are one of the fastest growing components of 
the operations and maintenance backlog, funding priorities are usually 
dominated by other System needs.
    This lack of funding is particularly disheartening in the face of 
evidence that refuge infestations of invasive species are a solvable 
problem that is ripe for more attention. For example, in partnership 
with the State of Washington, the Service has successfully eradicated 
an invasive weed, Spartina alterniflora, that threatened to take over 
the sensitive wetland habitat of Willapa National Wildlife Refuge. At 
its peak in 2003, the infestation covered approximately 15,000 acres of 
tidelands, and was projected to occupy 56,000 of the 80,000 acres at 
Willapa Bay if left uncontrolled. After a substantial federal and state 
investment, the infestation has been controlled and Willapa Bay has 
been saved.
    Audubon recommends that the committee pass H.R. 767, the Refuge 
Ecology Protection, Assistance, and Immediate Response (REPAIR) Act, 
sponsored by Congressman Ron Kind and Congressman Jim Saxton. The bill 
encourages partnerships among the FWS, other federal agencies, states, 
and other interests to protect habitat within the Refuge System from 
invasive species and establish immediate response capability to combat 
incipient invasions. This legislation is needed to improve the Refuge 
System's ability to address the primary threat to refuge habitat.
 New Issues Facing the Refuge System: Climate Change and Borderland 
        Conflicts
 Climate Change
    Climate change is the greatest threat imperiling the National 
Wildlife Refuge System as a whole. The effects of global warming are 
already being seen on sensitive refuge habitats in Alaska and on 
hurricane-ravaged refuges along the Gulf Coast. Future threats from 
climate change, such as sea level rise, decreased water availability, 
rising sea temperatures, and ocean acidification, gravely jeopardize 
the ability of refuges to meet their conservation mission in the coming 
decades.
    More than 160 refuges sit in coastal areas sensitive to rising sea 
levels. Based on varying models of greenhouse gas emissions, scientific 
estimates range from 4 inches to 3 feet of expected sea level rise over 
the next century, with a mean estimated rise of 20 inches. The 
Environmental Protection Agency estimates that nationwide a two-foot 
rise in sea level could eliminate 17 to 43 percent of wetlands in the 
United States. Refuges such as Alligator River NWR in North Carolina, 
Blackwater NWR in Maryland, as well as various southeast and southwest 
Louisiana national wildlife refuges, are among the federal resources 
most vulnerable to sea level rise.
    Climate change impacts are potentially devastating in Hawaii, 
particularly for coral reefs protected by refuges such as Hawaiian 
Islands National Wildlife Refuge, due to rising sea temperatures and 
ocean acidification that could cause widespread coral bleaching.
    Despite the potentially devastating impacts to refuge resources, 
over the past ten years the Service has not made climate change a 
priority, and the agency's strategic plan does not specifically address 
climate change. Comprehensive Conservation Plans for individual refuge 
units include climate change considerations only sporadically.
    A recent report by the Government Accountability Office found that 
resource managers in the federal land management agencies have limited 
guidance about whether and how to address climate change and lack 
specific guidance for incorporating climate change into management 
actions and planning efforts. The GAO also found that resource managers 
tend to focus on near-term, required activities, leaving less time for 
addressing longer-term issues such as climate change. Resource managers 
told GAO that their agencies need an overall mandate and a coordinated 
approach to address the issue, and that it will take very strong 
direction from high-level officials to get agencies to address the 
effects of climate change. It also bears mentioning that the 
Administration has only recently made it clear that refuge staff can 
talk about climate change openly.
    Audubon applauds the recent action by the Committee on Natural 
Resources to pass H.R. 2337, a comprehensive energy and global warming 
bill sponsored by Chairman Nick Rahall. This legislation includes the 
language of the Global Warming Wildlife Survival Act, sponsored by 
Congressman Norm Dicks, Congressman Jay Inslee, and Congressman Jim 
Saxton, which creates a comprehensive framework for a coordinated 
national approach to address the impacts of climate change on wildlife. 
The Survival Act will ensure that federal agencies, including the 
Department of the Interior, develop and implement plans to reduce the 
impact of global warming on wildlife and habitat. The bill was 
subsequently included in the multi-committee New Direction for Energy 
Independence Act (HR 3221) passed by the House.
    Audubon recommends that the committee encourage the Service to 
provide more affirmative direction to refuge managers regarding their 
duty to include climate change in Comprehensive Conservation Plans.
 Borderland Conflicts
    Nearly one-quarter of the 1,950 mile U.S.-Mexico border lies within 
public lands, including valuable wildlife habitat within the Refuge 
System. Borderland conflicts have become the primary threat to refuge 
resources for several refuges along the border including Lower Rio 
Grande Valley, Cabeza Prieta, and Buenos Aires.
    Illegal border crossings, enforcement activities along the border, 
and the double-layer, reinforced wall authorized by the recently 
enacted Secure Fence Act all threaten to destroy or fragment many miles 
of refuge habitat, restrict access to refuges for tens of thousands of 
visitors, and block access to the Rio Grande River for wildlife. In 
short, the border wall gravely threatens the ecological integrity, 
biological diversity, and environmental health of refuges that is 
safeguarded by the Improvement Act.
    Although the Improvement Act may provide support through the 
appropriate use and compatible use policies, more support is needed for 
refuges facing border conflicts.
    Audubon recommends that the committee pass H.R. 2593, the 
Borderlands Conservation and Security Act, sponsored by Congressman 
Raul Grijalva, which would help alleviate the devastating impacts of 
illegal immigration and border enforcement activities on public lands, 
wildlife, and borderland communities, while providing the Department of 
Homeland Security with the flexibility it needs to effectively secure 
the borders. H.R. 2593 would require DHS to follow all laws intended to 
protect water, air, wildlife, and the health and safety of the people 
living in borderland communities
 Conclusion
    Ten years after passage of the National Wildlife Refuge System 
Improvement Act, implementation of several key requirements is grossly 
inadequate. To answer the question posed by the title of this hearing, 
the promise has not been fulfilled.
    The strength of the Improvement Act is the clear mission that it 
gives to the Refuge System to protect wildlife first, and the clear 
priority it gives to wildlife-oriented uses over incompatible and 
inappropriate uses that harm refuge resources. However, in implementing 
the Improvement Act, the Fish and Wildlife Service has failed to 
implement key provisions, including a mandate to direct strategic 
growth of the system to ``conserve the ecosystems of the United 
States'' and another to maintain adequate water quantity and water 
quality to fulfill the mission of the system and the purposes of each 
refuge. The refuge funding crisis, in the form of a crippling $3.75 
billion backlog of unmet operations and maintenance needs, has slowed 
conservation planning, limited even the most basic monitoring of refuge 
resources, and severely limited the system's response to the highest 
priority threat to habitat, invasive species.
    The Refuge System is the world's premiere network of lands for 
wildlife conservation, and holds the potential to be a cornerstone of 
ecosystem protection in America. Our wildlife refuges deserve much, 
much better. The American people deserve to have the promise made to 
them kept, the promise to protect this unique heritage and national 
treasure for future generations.
    Audubon, and the other organizations that have endorsed this 
testimony, have made several recommendations for committee actions 
including new oversight and legislative actions. I urge you to give 
these recommendations your full consideration, to ensure the era of 
under-appreciation, rampant unaddressed threats, and unrealized 
potential for our wildlife refuges truly comes to an end.
    Madam Chairwoman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have.
                                 ______
                                 

 Response to questions submitted for the record by Ms. Carol Browner, 
                        National Audubon Society

Questions from Mr. Kind (D-WI)
1.  Ms. Browner, you mention in your testimony that the current 
        strategic growth policy for the Refuge System includes neither 
        strategy nor growth. In particular, you are concerned that the 
        Service's current ``inholdings only'' acquisition policy is 
        shortsighted and may threaten the long-term ecological 
        integrity of the Refuge System, especially in the face of 
        climate change.
<bullet>  What are the main shortcomings of the Fish and Wildlife 
        Service's strategic growth policy for the refuges and what 
        should be done about it?
    The major shortcoming is that there is no strategic growth policy. 
The Service has considered one internally but never finalized it. In 
the meantime, the refuges have operated under an informal policy that 
prioritizes in holdings over all other new land acquisitions. As a 
result, the de-facto strategic growth policy does not consider refuge 
expansions or establishment of new refuges.
    The current approach to Strategic Growth within the Refuge System 
contradicts the Improvement Act, which says very clearly that the 
Service should plan and direct growth in a way that best accomplishes 
the conservation mission of the System and contributes to the 
conservation of the ecosystems of the United States.
    The Service should continue to develop a partnership with USGS 
regarding the use of a strategic, science-based process for developing 
habitat conservation priorities. This process is long overdue and will 
be extremely helpful to the Service as they work to improve their 
implementation of the strategic growth directives in the Improvement 
Act and also as they respond to climate change.
    A formal policy on strategic growth that reflects and implements 
the Improvement Act also is long overdue. The Committee should consider 
encouraging the Service to promulgate such a policy.
<bullet>  Have you and other colleagues in the conservation community 
        developed ideas on landscape principles that should guide that 
        planning process? Does the Improvement Act need to be amended 
        to provide more specific guidance?
    The process under development with USGS to arrive at habitat 
conservation priorities appears to be a sound one. The system begins 
with assessments of species life histories and habitat requirements, 
then assesses the needed habitat areas and identifies appropriate 
places for land acquisition and habitat restoration. A science-based, 
collaborative process for developing habitat priorities is needed, and 
the new system that is under development holds the potential to meet 
that need.
    However, the System still lacks clear, well-coordinated policies to 
guide future growth. There are no official priorities to guide the 
establishment of new refuges or expand existing ones, and no official 
policies for considering the implications of such growth for the 
operations and maintenance backlog. The Service's Land Acquisition 
Priority System (LAPS) ranks approved projects based on biological 
value, but projects are not ranked by LAPS until approved by the 
Service Director, and not all acquisitions go through LAPS.
    At this time, Audubon recommends that the Committee focus on 
developing policies that implement the clear directives of the 
Improvement Act, rather than amending the Improvement Act. The 
Improvement Act has clear mandates on strategic growth and we believe 
there is great potential to move forward in a positive direction if a 
strong policy can be put in place.
<bullet>  In regard to climate change, what are the highest planning 
        priorities to ensure the long-term ecological integrity, 
        biological diversity and environmental health of the Refuge 
        System?
    Any new Strategic Growth policy for the Refuge System must reflect 
the overwhelming importance of planning for climate change. Landscape 
scale adaptation strategies for the Refuge System should include: 
establishing and maintaining wildlife corridors; acquiring new refuges 
that are resistant to climate change effects and may provide more 
stable habitat for wildlife (e.g., they have lower probability of 
drastic change due to resistant vegetation types, resilient species, 
and other factors); eliminating barriers to dispersal of wildlife 
beyond refuge borders; improving the compatibility of neighboring lands 
through establishment of buffer zones, acquisitions, and other 
strategies; instituting an active ecosystem restoration program to 
repair wetlands damaged from sea level rise and other habitat impacts; 
improving water conservation in communities surrounding refuges; and 
installing levees, dikes, and other structures to defend refuge 
habitats from sea level rise, storms, and other threats.
2.  Ms. Browner, you state in your testimony that the $3 billion 
        funding backlog facing the Refuge System is crippling 
        implementation of the Improvement Act.
<bullet>  What do you think is the most important impact of the lack of 
        funding on implementation of the Act?
    The funding crisis is a pair of handcuffs on every refuge manager 
in the country. In particular, the lack of attention to the invasive 
species problem is disturbing. As I mentioned in my testimony, last 
year the Refuge System had a $9 million budget to address the problem 
nationwide, and this is a $360 million problem. Invasive species are 
broadly considered by refuge managers to be the number one threat to 
the resources they manage, and yet, with the backlog crippling their 
response, they have few resources with which to fight this threat.
3.  Judging from your statement, it would appear that the policies 
        developed by the Fish and Wildlife Service to make 
        compatibility determinations have worked well and have ensured 
        that proposed uses are both compatible and appropriate with the 
        ``wildlife first'' mission of the Refuge System?
<bullet>  Is there anything to be gained by prohibiting outright 
        certain activities at refuges or is it best left as a case-by-
        case determination?
    I think you raise an important question that deserves serious 
follow-up, certainly with a GAO request regarding incompatible uses and 
FWS authorities, and perhaps also with a hearing or series of hearings. 
As I mentioned in the testimony, Audubon would like to see a new 
request made for the GAO to assess incompatible activities in the 
Refuge System, defining the role of the Improvement Act in eliminating 
incompatible and inappropriate uses and determining whether additional 
authorities are needed. This request could set the stage for future 
hearings or oversight on this matter.
    As a general rule, we believe it is appropriate for each refuge to 
assess the compatibility and appropriateness of uses based on local 
conditions and considerations. However, it may prove useful to the 
Service to receive legal direction from the Congress regarding uses 
that are generally inappropriate and harmful and therefore should be 
banned. This may include certain non-wildlife-oriented recreational 
uses or commercial uses of refuges. Again, a GAO study would be useful 
in assessing the value of such an approach.
4.  When discussing the tardy schedule for the completion of 
        comprehensive conservation plans, or CCPs, you note that it is 
        important for the Service not to sacrifice quality in order to 
        try and meet the statutory deadline.
<bullet>  In general, is the conservation community satisfied with the 
        CCPs that have been completed to date? Are they solid 
        documents?
    I will not speak for the entire conservation community, but the 
CCPs reviewed by Audubon staff have been solid documents, with two 
notable exceptions: many of the documents do not adequately reflect the 
priorities of the biological integrity policy, and many do not 
adequately address climate change.
    The problem is that many of the refuges with the most complicated 
planning issues have been put off until the end of the planning 
process, leaving little time to complete them. Larger refuges with 
complex planning issues sometimes take as long as eight years to 
complete their CCPs, but many refuge managers have expressed that these 
CCPs are among the most valuable for changing their strategic direction 
to comply with the Improvement Act.
    I recommended in my testimony that the Committee request a thorough 
GAO study of the CCPs. The study should assess the extent to which the 
CCPs reflect the Improvement Act requirements and should make 
recommendations for improving the plans so that they are consistent 
with principles of ecosystem management and so that they include 
strategies to cope with climate change. I hope the Committee will move 
forward with that recommendation.
5.  Thank you for voicing the support of Audubon and other respected 
        conservation organizations for my legislation, H.R. 767, the 
        Refuge Ecology Protection and Immediate Response Act, or REPAIR 
        Act. I share you view that our failure to address invasive 
        species creates not only greater operating costs, but also 
        diminishes quality opportunities for wildlife-based recreation.
<bullet>  Our failure to address this threat would also seem to violate 
        the policies in the Improvement Act requiring the Service to 
        protect the ecological integrity and biological diversity of 
        refuges. Do you agree?
    Yes. The Improvement Act clearly directs the Secretary of the 
Interior to ensure that the ``biological integrity, diversity, and 
environmental health'' of the System is maintained. The Service's 
policy implementing this directive clearly emphasizes that refuge 
managers should manage toward ``historic conditions'' that are 
reflective of healthy ecosystem components, processes, and functioning. 
Invasive species rapidly drive ecosystems away from historic 
conditions, eliminate biodiversity, and compromise ecosystem 
functioning. Invasive plants, for example, often replace naturally 
functioning, biodiverse wetland systems with dense mats of invasive 
plants in a monoculture. Preventing invasions by nonnative species is 
one of the clearest ways the Fish and Wildlife Service could implement 
the Improvement Act mandate to protect ecological integrity.
Questions from Mr. Young (R-AK)
1.  Please provide the Subcommittee with a complete list of the 2,376 
        what you call in your testimony ``destructive uses of wildlife 
        refuges''?
    The 2,376 threats to the refuges I referenced in the testimony were 
identified from data gathered in 2002 by the Fish and Wildlife Service 
in an effort to create a nationwide Threats and Conflicts database for 
the National Wildlife Refuge System (United States Fish and Wildlife 
Service, Fulfilling the Promise Progress Report, October 1, 2004, pp 
4).
    It is my understanding that this database does not lend itself to 
descriptive summaries, nor can I provide a comprehensive list such as 
the one you requested. I would refer the Committee to the Fish and 
Wildlife Service for that information.
                                 ______
                                 
    Mr. Kind. Thank you, Ms. Browner. I have already spoken to 
Mr. Young and he is in agreement. But to accommodate your 
schedule, we will go with questions here and then allow you to 
take off.
    Ms. Browner. Thank you.
    Mr. Kind. Thank you for your testimony and for your service 
to our Nation as well and for your insight on these issues.
    You mentioned a few proposals; increased oversight, 
invasive species, dealing with that adequately; any borderland 
conflicts that might exist. Help us try to prioritize a little 
bit. There is just a swamp of issues and challenges that we are 
facing within the refuge. Have you had a chance to look at this 
and kind of delineate where the priorities or focus need to be?
    Ms. Browner. I think I would have to agree with Mr. 
Babbitt: Money. If we could find some more resources, I think 
that could be very, very helpful. I mean, I trust that the 
personnel and the Department is doing what they can with the 
resources they have. But certainly, and Mr. Young and Mr. 
Babbitt discussed some ideas; it doesn't seem unreasonable to 
me, and I speak here personally, that duck stamps, which I 
don't think the price has changed in a long time, could be 
increased. I think they are $15 now. Something like $30.
    Whenever I used to set an environmental standard at EPA and 
someone would say, well, what is it going to cost a family? And 
then you try and figure it out. And you then you would compare 
it to, well, that is less than going to the movies with your 
family. That is less than having pizza or a coke on Friday 
night with your family. And so the idea that we could charge a 
little more and see those resources brought to bear I think is 
well worth consideration.
    Mr. Kind. We were talking about the funding issue, too, 
with Mr. Babbitt. And we do have legislation pending that was 
started by Mark Kennedy and Mike Thompson in the last session 
that is carried over to actually increase the fees for the duck 
stamp. But, again, my concern is we are only talking about a 
very small percentage of the universe of users going into the 
Refuge System. And now in your position heading up the Audubon 
Society, and there are many members who constantly go in and 
enjoy the use of the Refuge System, do you have a sense within 
your own membership of what they would be supportive of in 
regard to new funding sources? That is one of the issues that I 
had raised, and I actually had conversations with, I think, Mr. 
Hall, with you and maybe some others, was the concept of a new 
refuge stamp.
    But I don't want to do something that is going to cut into 
the uniqueness or value of the duck stamp at the same time. But 
something that I think bird watchers could also participate and 
start their own collection and purchase those if they knew that 
the funding was going to be dedicated for this very purpose.
    Ms. Browner. I think from Audubon's perspective, we would 
be open to a conversation on that. It is a balance. You don't 
want to discourage people from taking advantage of the 
resource, and so you want to be mindful of sort of what their 
economics are. On the other hand, these are people who care 
passionately about their morning bird walks and the opportunity 
to do that in these places.
    So we have found that when you can make a case to our 
membership about the benefits that will be derived from some 
sort of increased fee, they can be supportive of it. And 
finally, I have to say, I like your idea of something they can 
collect. Most birders have a life list. These are people who 
like to collect things and keep track of what is going on, and 
I think they could find it very attractive. But we would be 
happy, the Audubon staff, to work with you all and think about 
what our membership, which is quite large and is all across the 
United States, what they would be willing to support.
    Mr. Kind. I certainly think it might be wise for us to 
start conducting some surveys or some polls out there with a 
variety of groups, and I would like to work with Mr. Young on 
this, just to get some feedback from the general public of what 
they would find acceptable and willing to participate in as far 
as new revenue sources. And we might even throw in a question 
as far as offshore drilling is concerned, too.
    Ms. Browner. There, I would have to put on my Florida hat. 
We have a particular feeling about that in my home State.
    Mr. Kind. Exactly.
    Getting back to the strategic growth policy for the Refuge 
System that the Service is in charge of now as far as 
implementation of the Act. Do you see any shortcomings as far 
as the implementation, things that can be done better?
    Ms. Browner. I think it is important for any of these type 
efforts to sort of keep pace with the science and to keep pace 
with the times. So I think your comments about climate change 
are particularly relevant. As the system thinks about what has 
to happen today to protect the system and to meet the 
commitment and the mission of the system to preserve wildlife 
and wildlife habitat, we are going to have to bring in the 
climate change issue. Because you could think of everything 
that has already been on the books and do a splendid job, only 
to discover 10, 15, 25 years from now it didn't mean a lot.
    Mr. Kind. I think you are right. And I think this is where 
it gets particularly complicated or cumbersome, when you talk 
about climate change, is that when original refuges were 
established with certain habitat that supported certain species 
or wildlife, maybe undergoing great transformation and change 
may not support it now because of global warming and climate 
change. And what is this going to do to the boundaries of these 
refuges? Where it may have made sense 50 years ago, but may not 
make sense in the next 50 years.
    Ms. Browner. I think you are exactly right. I know of your 
particular interest in invasive species. Climate change is 
going to do probably very little to help us solve the invasive 
species problem. In fact, it is probably going to make in most 
areas of the problem even more acute. So as we start to think 
about in the short term the invasive species issues, we just 
need to be mindful of what is coming at us down the road.
    Mr. Kind. Thank you.
    Mr. Young.
    Mr. Young. I thank you, Mr. Chairman. If you would like to 
get on H.R. 2735, it will be very helpful. This is a bill that 
raises money. And also, I don't think just duck stamps are the 
solution to the problem, because the duck hunter is the one 
that created the fund to purchase the land. And I believe you 
may have 6 million in the Audubon Society, they ought to pay. 
Anybody who uses any refuge land ought to pay if they want to 
keep the refuge. And anybody that doesn't want to pay, they are 
being outright selfish. Anybody who watches birds has got as 
much money as the duck hunters have. That is just a little 
comment.
    But I have one request, Ms. Browner. In your testimony you 
made a statement of, would you provide for me a complete list 
of the 2,376 what you call destructive uses of the wildlife 
refuges?
    Ms. Browner. We would be happy to.
    Mr. Young. Good. Because I have talked to my refuge people 
themselves, and they don't know what you are talking about. So 
I would like to find out what it is.
    Ms. Browner. Certainly.
    Mr. Young. Thank you.
    Ms. Browner. Thank you.
    Mr. Kind. Thank you, Ms. Browner. I appreciate it. Thank 
you again for your testimony and for your time here today.
    Next, we will hear from Director Hall. Thank you, sir, for 
coming. And it has been a delight to be able to work with you 
on a variety of issues, and we look forward to your testimony. 
Thank you for being here.

   STATEMENT OF DALE HALL, DIRECTOR, U.S. FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Mr. Chairman. It is good to see you 
again. And Chairman Young, good to see you as well.
    I would like to thank you for having this hearing, but 
mostly I would like to start off thanking all of you for the 
Act. Many of you were really involved in this years ago, and 
Members of Congress really helped us get this sort of 
legislation. But we did it with friends as well. Members of the 
administration, members of the nongovernment organizations, et 
cetera. And on behalf of everyone in the Fish and Wildlife 
Service, I would just like to say thank you.
    You know, starting from our great president, Theodore 
Roosevelt, when he created Pelican Island in 1903, to where we 
are today with 548 National Wildlife Refuges encompassing over 
96 million acres of land that perform a myriad of services to 
Fish and Wildlife and to nature, as well as over 280 endangered 
and threatened species, the system is a really good system. It 
is really important and it is unique in the world, and I think 
that we need to recognize that. I believe you do. But we need 
to keep reminding ourselves that nowhere else in the world is 
there anything like the National Wildlife Refuge System.
    But the Act helped us to understand that it is a system. It 
is not 548 independent entities, but one system trying to have 
a system of lands and waters that help with the conservation of 
fish and wildlife resources.
    The Act envisions a collaborative approach, and I believe 
that we have tried to do that with over 250 friends groups and 
38,000 volunteers every year working with our friends in the 
States and in the nongovernment organizations as well as other 
Federal agencies. And it also understood the importance of 
water. Carol Browner just mentioned water, and I will tell you 
that I believe that water is the issue of the 21st century for 
everyone, not just Fish and Wildlife resources. But if we don't 
understand that Fish and Wildlife resources need a place at the 
table where water is being discussed, they won't have one and 
they will be the losers.
    With our State agency partners, we have involved the public 
in CCPs. And in working together, State agencies are co-
managers of Fish and Wildlife Resources in every State, and 
they have been tremendous partners. And I am sure you are going 
to hear from John Frampton in a few minutes on that.
    We have developed new policies in compliance with the Act, 
missions and goals of purposes, comprehensive conservation 
planning, appropriate uses, wildlife dependent recreation, 
habitat management planning and biological diversity integrity 
and environmental health are completed now, and we are 
continuing to work on the remaining policies that are left to 
be done. And what these policies do is provide a refuge manager 
with a consistent approach, whether you are in Chesapeake Bay 
or San Francisco Bay. And I think that is what we are after, is 
consistency in a true system of lands and waters. We have 
completed 254 CCPs, and we are well underway in completing, and 
I believe we will complete, all CCPs by the 2012 deadline.
    As the Refuge System, though, has grown, so have the 
challenges. Climate change is real. It is something that is 
affecting our refuges already, and it is something that we need 
to step up the pace in feeding the considerations into CCPs as 
we move forward. Invasive species. A decade ago when this law 
was being passed, I doubt that avian influenza was even on 
anybody's mind as something that could affect the health of a 
refuge, but we have West Nile Virus, purple loosestrife, and a 
myriad of other invasive species that we need to work with. And 
climate change, again, may help speed that along and create a 
harder problem for us to deal with if we are not ready for it.
    Population growth has been on everyone's mind, but for the 
National Wildlife Refuge System in particular along the 
southwest border it is a real issue, where illegal immigration 
is coming across the border and on our National Wildlife 
Refuges in one year we apprehended 100,000 people. That is 
apprehension. That is not the total number that went across; 
that is the number we caught. And the trashing of the 
environment that is taking place is something we have to 
address. And a lot of this is in designated wilderness area.
    The last thing I will say about future challenges is our 
own children. We have too many children that sit in front of 
the computers and play Game Boys and use iPods and believe that 
real nature is watching the Animal Channel, and we need to get 
them outside. We need to connect them with nature. And we 
believe that the National Wildlife Refuge System is a premier 
place to do that.
    The way that we look at strategic growth in the Service, we 
have developed a tool that we call strategic habitat 
conservation. It builds on the principles of ecological 
planning, management, and development, and it looks at the 
objectives we want to achieve, a design to achieve those 
objectives, then the implementation of those objectives, and 
then the monitoring and evaluation to see if we met those 
objectives and if we were correct, and make the adjustments. It 
is a very formal form of adaptive management, but it is an 
excellent tool using structured decision making as well to help 
us decide where the right places are. We are very good at 
creating wetlands and creating habitats. We are not very good 
at saying where and how much. And that is what strategic 
habitat conservation is going to try and help us do.
    We need to look at the entire Refuge System in the broader 
context of the landscape, especially in the lower 48. A refuge 
is not an island. It fits into the landscape ecology with State 
managed lands and with private lands. And if we are going to 
take care of the resources and fulfill the promise for the 
future, we need to leave more than just what is in public 
ownership. We are going to have to work with the private 
landowners who are very ready and willing but just need some 
incentives and need some help. And I believe that is just as 
important to the Refuge System as trying to understand what we 
need to do on our own lands, because we can't be hypocrites and 
say we won't do it but we want you to do it. So I think that we 
all need to be on the same page on what a landscape needs.
    With that, Mr. Chairman, I will conclude my comments and I 
look forward to the questions. And thank you very much for 
holding this hearing.
    Mr. Kind. Thank you, Director Hall. Thank you and also Mr. 
Haskett for your service and stewardship of our refuges in this 
country.
    [The prepared statement of Mr. Hall follows:]

 Statement of H. Dale Hall, Director, U.S. Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Madame Chairwoman and Members of the Subcommittee, I am H. Dale 
Hall, Director of the U.S. Fish and Wildlife Service (Service). I am 
here today to discuss implementation of the National Wildlife Refuge 
System Improvement Act (Improvement Act), which became law ten years 
ago today. The tenth anniversary of this historic and visionary 
conservation law provides us with an opportunity to reflect on the 
progress we have made in the stewardship of the National Wildlife 
Refuge System (Refuge System) and the challenges that remain before us.
    It is important to reflect on the history of America's National 
Wildlife Refuge System in order to fully understand why there was such 
a need for the Improvement Act, how this new law improved 
administration of the Refuge System, and what the remaining challenges 
are as we continue to work together to realize the full potential of 
the greatest system of lands in the world dedicated to wildlife 
conservation.
The Early Years
    Our great conservationist President Theodore Roosevelt established 
the first national wildlife refuge by Executive Order on March 14, 
1903, setting aside Pelican Island as a preserve and breeding ground 
for native birds.
    Although Yellowstone had been established in 1872 as a national 
park, and the first national forest reservation was made in Wyoming in 
1891, Roosevelt's action in setting aside Pelican Island was a new kind 
of conservation undertaking. Pelican Island was small--only five 
acres--and was set aside as an inviolate sanctuary for birds. It was 
not protected for human use and enjoyment, nor for timber or other 
natural resource production. Pelican Island was home to bird species 
threatened by market shooters seeking plumes for women's fashion, 
reducing populations of many bird species to alarming levels. In 
protecting the small area of Pelican Island, Roosevelt recognized that 
a small refuge for wildlife could have benefits far beyond its 
boundaries by serving as a safe haven for nesting and feeding.
    President Roosevelt went on to establish 53 other refuges, from Key 
West, Florida's mangrove islands and sand flats to Flattery Rocks along 
the Washington Coast, where 150,000 pelagic birds nest and migrating 
birds sometimes swell the population to over one million. He included 
the Pribilof Islands in Alaska in 1909. Roosevelt established our 
nation's first waterfowl refuge, Lower Klamath, in 1908.
    As an avid hunter, Roosevelt also ensured that the early Refuge 
System provide habitat and management for big game animals that had 
been depleted on public lands. From an estimated 60 million bison, no 
more than a thousand could be found on the Great Plains in 1900. Elk 
populations had also been greatly depleted across the country. Wichita 
Mountains in Oklahoma, originally established as a forest reserve in 
1901, became a refuge in 1905. Work began there to restore bison, elk, 
and turkey. The National Bison Range followed in 1909, and the National 
Elk Refuge was established in 1914.
    By the end of the fledgling system's first decade, many of the 
foundations of today's Refuge System were in place. The early Refuge 
System already included:
    <bullet>  Inviolate sanctuaries for nesting birds,
    <bullet>  Waterfowl refuges;
    <bullet>  Refuges for ``threatened'' species;
    <bullet>  Big game ranges withdrawn from the public domain; and
    <bullet>  The first large refuge in Alaska.
    A major milestone that occurred around this time was the Migratory 
Bird Treaty Act of 1918, which was first enacted to implement the 1916 
convention between the United States and Great Britain for the 
protection of birds migrating between the U.S. and Canada. This law 
offered much-needed protection to many bird species during a time when 
commercial trade in birds and their feathers was popular. The Migratory 
Bird Conservation Act of 1929 followed and established the Migratory 
Bird Conservation Commission to approve land acquisitions from the 
Migratory Bird Conservation Fund for the National Wildlife Refuge 
System that are considered important to waterfowl. Since its inception, 
the commission has approved more than 5.2 million acres of land 
acquisitions.
The ``Dust Bowl'' Years
    In 1929, there were 82 refuges and plans were being made to 
increase the number to 100-125. These plans were disrupted when the 
nation plunged into economic depression and was devastated by a 
gripping drought that turned much of the land into a ``dust bowl.'' 
Drought conditions severely impacted waterfowl populations and 
threatened other wildlife. Fortunately, the wildlife profession was 
beginning to emerge in concert with new scientific approaches to 
managing and restoring land for wildlife. Three individuals stand out 
in American history at this time: J. N. ``Ding'' Darling, Ira 
Gabrielson, and J. Clark Salyer. In addition, Aldo Leopold published 
Game Management (1933), the first textbook on wildlife management. With 
their leadership, a cadre of wildlife professionals and citizens began 
to advance the cause of wildlife conservation in unprecedented ways.
    Ding Darling, ``the man who saved ducks,'' was Chief of the Bureau 
of Biological Survey in 1934 and 1935. Three million acres of land were 
set aside as wildlife refuges during his tenure. When the Migratory 
Bird Hunting Stamp Act passed in 1934, he designed the first stamp, 
which then sold for one dollar toward the purchase of refuges. Today, 
the sale of Federal Duck Stamps has raised some $500 million for more 
than five million acres of our best waterfowl habitat in the Refuge 
System. At the end of the 1930's, there were 266 national wildlife 
refuges protecting 13.5 million acres of habitat.
    Ira Gabrielson, Darling's successor at the Bureau of Biological 
Survey and the first Director of the Fish and Wildlife Service, known 
during his time as ``Mr. Conservation,'' ranks as one of the most noted 
conservationists of the 20th century. He exerted great influence at a 
critical time in American history, when evolving wildlife management 
practices and policies were being merged into our society and 
government. Among his many accomplishments, he was particularly proud 
of the expanding National Wildlife Refuge system, establishment of the 
Federal Aid to Wildlife Restoration and Cooperative Wildlife Research 
Unit programs, creation of the Patuxent Wildlife Research Refuge, and 
organization of an impartial, highly successful wildlife law 
enforcement team. He assisted in planning the first North American 
Wildlife Conference, called by President Franklin D. Roosevelt in 1936. 
His wildlife philosophies are reflected in three major books written in 
the comparatively early years of the current conservation era: 
``Wildlife Conservation'' (1941), ``Wildlife Refuges'' (1943), and 
``Wildlife Management'' (1951).
    Finally, J. Clark Salyer was recruited by J.N. ``Ding'' Darling in 
June 1934 to oversee the management of national wildlife refuges in the 
Biological Survey's fledgling refuge program. Salyer was directed by 
Darling to develop a waterfowl management program using the 
conservation principles of wildlife management espoused by Aldo 
Leopold. Such a program, based on habitat needs of migratory bird 
species, had never before been attempted on a national scale. Shortly 
after coming to work for the Biological Survey in 1934, the government 
issued him a car to travel around the country visiting refuges. Salyer 
had a fear of flying, so this vehicle provided him with the means to 
visit refuges in far-flung locations. For his efforts as head of the 
Division of Wildlife Refuges, Salyer has become known as the ``Father 
of the National Wildlife Refuge System.'' Under his direction, the 
system rose in area from 1.5 million acres in the mid-1930's to nearly 
29 million acres upon his retirement in 1961. He was the principle 
architect of President Franklin Roosevelt's duck restoration program of 
1934-36.
Continuing Growth
    As the next decade unfolded, the nation's attention turned to war. 
The Department of the Interior turned its headquarters building over to 
the War Department and the Service relocated to the Merchandise Mart in 
Chicago, Illinois. Even during these trying times, the Refuge System 
continued to grow. Kenai and Kodiak Refuges in Alaska were added in 
1941, protecting their giant moose and brown bear populations. When 
Florida's Chassahowitzka Refuge was added in 1943, no one could have 
imagined that one day it would be the winter habitat for endangered 
whooping cranes, which today migrate ` Refuge in Wisconsin.
    During the 1950s, 24 new refuges were added, including Loxahatchee 
in Florida. This great refuge secured the northern most part of the 
remaining Everglades and today it is a cornerstone in broader efforts 
to restore the Everglades ecosystem.
    One of our successful wildlife and wetland protection programs is 
the Small Wetlands Acquisition Program, which began in 1958 with an 
amendment to the Migratory Bird Hunting and Conservation Stamp Act. 
This program added a new dimension to the Refuge System: Waterfowl 
Production Areas (WPAs). WPAs are tracts of land that are generally 
smaller than refuges, and are acquired in Wetland Management Districts, 
primarily in the prairie pothole region in North and South Dakota, 
Minnesota, and Montana, but with other acquisitions occurring in 
Nebraska, Wisconsin, Iowa, and Michigan. Today, in addition to the 
WPAs, wetland easements are taken on lands to prevent draining, 
burning, or filling of these lands. Nearly 700,000 acres have been 
acquired in fee title, and about 2.5 million acres of wetland and 
grassland easements have been purchased to date.
    In the late 1950s, the Service's Alaska Regional Director Clarence 
Rhode advocated adding to the Refuge System an entire watershed in a 
new refuge at Izembek, and a vast landscape as an Arctic Wildlife 
Range. Both areas were established as refuges in the closing days of 
the Eisenhower Administration in 1960. These two refuges added over 
nine million acres to the refuge system, essentially overnight. Across 
the country in New Jersey, local citizens were fighting hard to keep 
the Great Swamp from being drained and filled to build a jet port for 
New York City. Their treasure became a national wildlife refuge in 1960 
and the site of the first Wilderness area in the Refuge System in 1968.
The Modern Conservation Era
    The 1960s and the 1970s saw the enactment of many new laws aimed at 
protecting the nation's environment and conserving natural resources. 
In 1966, Congress enacted Public Law 89-669, which included the 
Endangered Species Preservation Act. It authorized the Service to 
develop a list of imperiled species, fund studies, and acquire refuge 
lands using the Land and Water Conservation Fund. Under this authority 
we added more than 50 national wildlife refuges. In addition, Section 4 
and 5 of that 1966 law included the National Wildlife Refuge System 
Administration Act, the precursor of the National Wildlife Refuge 
System Improvement Act.
    In December 1980, more than 53 million acres were added to the 
Refuge System with the enactment of the Alaska National Interest Lands 
Conservation Act (ANILCA), tripling the size of the refuge system. 
Today, sixteen refuges in Alaska protect 77 million acres of pristine 
habitat or roughly 80 percent of the total acreage in the Refuge 
System. Additionally, 18.7 million acres of refuge lands in Alaska are 
designated as Wilderness, roughly 90 percent of all wilderness lands in 
the system. The Alaska refuges also offer some of the best hunting and 
fishing in the world. ANILCA is also significant because it laid the 
ground work for important parts of the Refuge Improvement Act by 
identifying priority purposes and called for all Alaska refuges to 
develop comprehensive conservation plans.
    As the American population has grown, it has become increasingly 
important to protect wildlife in proximity to where people live. 
Refuges near urban areas, like Minnesota Valley in Minneapolis, San 
Francisco Bay, Tinicum in Philadelphia, Rocky Mountain Arsenal in 
Denver, and Bayou Sauvage in New Orleans provide city inhabitants and 
their children with an opportunity to experience and discover wildlife 
in close proximity to where they live.
    The 1985 Farm Bill conservation programs gave genesis to the 
Service's Partners for Fish and Wildlife program. These conservation 
programs encouraged refuge managers to work with partners in the 
context of the greater surrounding ecosystem.
    By 1991, the Refuge System had experienced extraordinarily growth 
from the five acre Pelican Island in 1903 to 472 units and 90.4 million 
acres. Beyond a single inviolate sanctuary for native birds, the Refuge 
System had expanded to include:
    <bullet>  A network of migratory bird habitats encompassing 
nesting, migration, and wintering habitats;
    <bullet>  A growing number of refuges dedicated to the recovery of 
endangered species;
    <bullet>  Big game ranges dedicated to a wide variety of large game 
mammals;
    <bullet>  Sixteen large refuges in Alaska; and
    <bullet>  A variety of unique ecosystems--barrier islands, 
bottomland hardwood forests, coral reefs--all protecting America's 
wildlife heritage
Becoming a ``System''
    The National Wildlife Refuge System Administration Act of 1966 
provided guidelines and directives for administration and management of 
all areas in the National Wildlife Refuge System, which it defined as 
including, ``wildlife refuges, areas for the protection and 
conservation of fish and wildlife that are threatened with extinction, 
wildlife ranges, game ranges, wildlife management areas, or waterfowl 
production areas.'' Under the 1966 law, the Secretary is authorized to 
permit by regulation the use of any area within the system provided 
``such uses are compatible with the major purposes for which such areas 
were established.''
    The 1966 law defined what the Refuge System was, but lacked the 
findings, purposes and other clarifying language that are usually found 
in organic legislation. Most importantly, it did not provide effective 
guidance as to how the Refuge System was to be administered as a 
system. A wide variety of reviews, reports and lawsuits highlighted 
that the Refuge System was not being managed effectively as a system. 
The most damning evidence came from the General Accounting Office in a 
1989 report entitled, ``Continuing Problems with Incompatible Uses Call 
for Bold Action''. The report found that 59% of refuges had harmful 
uses occurring on their land.
    Since GAO did not reference most of the ``harmful'' uses to 
specific refuges, and since that term had no legal or regulatory 
meaning, the Service conducted its own detailed, refuge-by-refuge 
survey in an effort to find, understand and correct these problems. We 
found that there were relatively few uses that violated the 
compatibility standard, and that many of the ``harmful uses'' cited by 
managers were the result of lack of authority, retained private rights, 
or were situations such the presence of debris or contaminants that 
were not actually ``uses'' of the refuge. While schedules were 
instituted to terminate the incompatible uses, the underlying findings 
of this survey further illustrated that existing regulations were not 
being consistently understood or interpreted, and that refuges were not 
being managed as a system.
    Around this time, efforts to enact organic legislation for the 
Refuge System were initiated by conservation organizations. The Service 
opposed this effort. At the time, concepts like refuge planning were 
believed to be an unnecessary burden for the agency. In addition, the 
Service was not entirely comfortable with the level of public 
involvement and partnership that is today recognized as required for 
effective conservation. Largely because of disagreement within the 
conservation community about what was needed to ``fix'' the Refuge 
System, organic legislation could not get any traction in Congress.
    In 1990, the Service began the process of writing an Environmental 
Impact Statement (EIS) that would guide the administration of the 
System. The draft EIS, entitled Refuges 2003, was never finalized. 
Absent clear Congressional guidance, the myriad of possible future 
directions for the Refuge System simply left too many options, 
complexities, and opinions for any consensus to be reached. While there 
were many questions about the future of the Refuge System, one central 
question needed an answer before any progress could be made: What was 
the role of wildlife dependent uses, including hunting and fishing, in 
the Refuge System?
    In 1996, Executive Order 12996 recognized wildlife dependent uses 
such as hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation as the priority public uses 
of the Refuge System. The Executive Order recognized both the 
importance of hunters and anglers to conservation and the growing 
importance of others who enjoy watching wildlife in wild places, while 
also making clear that all uses on refuges must first be compatible 
with the Refuge System's primary mission: wildlife conservation.
    The Executive Order showed that compromise was possible, and what 
was needed was bipartisan leadership from Congress, the Executive 
Branch, and the conservation community. Former Secretary of the 
Interior Bruce Babbitt, Congressional sponsors Don Young of Alaska and 
John Dingell of Michigan, and leaders of key sportsmen's and 
environmental organizations joined forces to draft legislation to 
address the varying concerns and interests on management and public use 
of the National Wildlife Refuge System. Other Congressmen who were 
instrumental in building overwhelming bipartisan support for the bill 
were George Miller from California, John Tanner of Tennessee, Jim 
Saxton from New Jersey, and Neil Abercrombie of Hawaii. In the Senate, 
Senators John Chafee from Rhode Island, Dirk Kempthorne of Idaho, Bob 
Graham from Florida, and Max Baucus from Montana provided the essential 
leadership that pushed the legislation through Congress.
    All of these conservation leaders, plus a number of hard working, 
innovative staff working behind the scenes, stayed dedicated to finding 
a consensus for the future of the Refuge System. On October 9, 1997, 
they succeeded, and the National Wildlife Refuge System Improvement Act 
was signed into law. The Improvement Act provides guidance to the 
Secretary of the Interior for the overall management of the Refuge 
System. The Improvement Act's primary components include:
    <bullet>  A strong and singular Refuge System mission for the 
conservation, management and restoration of fish, wildlife, and plant 
resources and their habitats for the benefit of present and future 
generations of Americans;
    <bullet>  A requirement that the Secretary maintain the biological 
integrity, diversity and environmental health of the Refuge System;
    <bullet>  A requirement to plan and direct the continued growth of 
the Refuge System to best accomplish the mission of the System and 
contribute to the conservation of the ecosystems of the United States, 
while complementing the efforts of States and other partners;
    <bullet>  A new process for determining compatible uses of refuges;
    <bullet>  A recognition that wildlife-dependent recreational uses 
involving hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation, when determined to be 
compatible, are legitimate and appropriate public uses of the Refuge 
System;
    <bullet>  That these compatible wildlife-dependent recreational 
uses are the priority general public uses of the Refuge System;
    <bullet>  A requirement for preparing comprehensive conservation 
plans (CCPs);
    <bullet>  A direction to ensure effective coordination and 
cooperation with adjacent land owners, State fish and wildlife 
agencies, and other Federal agencies; and,
    <bullet>  A responsibility to maintain adequate water quantity and 
water quality and acquire water rights that are needed.
    Many of the Improvement Act's provisions were new and remain 
innovative in public lands law. The Service has worked hard with our 
State fish and wildlife agency partners to involve the public in 
developing policies to guide the implementation of the Improvement Act. 
We have met the Improvement Act's requirements to develop implementing 
regulations on determining compatible uses. We have developed new 
policies on: the mission, goals, and purposes of the Refuge System; 
comprehensive conservation planning; appropriate refuge uses; wildlife 
dependent recreation; habitat management planning; and, the biological 
diversity, integrity, and environmental health of refuges. These 
policies are providing refuge managers with the consistent guidance 
needed to implement the Improvement Act and further the process of 
becoming a true system of lands that are managed in a consistent and 
coordinated manner. The Service has completed 254 CCPs and is well on 
its way to completing the required plans for all refuges by the 2012 
statutory deadline.
    The Refuge System has embraced partnerships with all who share a 
concern for the future of America's wildlife. Today, our over 38,000 
volunteers and 250 Refuge Friends groups are essential contributors to 
every aspect of refuge management. Twenty-two diverse national 
conservation organizations have formed the Cooperative Alliance for 
Refuge Enhancement (CARE), and they have worked together for a decade 
to provide support for the System.
    Finally, as the Refuge System has evolved it has provided 
increasing opportunity to link with other protected area systems in the 
marine environment as called for in the President's Ocean Action Plan. 
A good example is the Northwestern Hawaiian Islands Marine National 
Monument established by President Bush on June 15, 2006, under the 
authority of the Antiquities Act of 1906. The Hawaiian Islands National 
Wildlife Refuge and Midway Atoll National Wildlife Refuge are within 
this new monument. Also included in the monument are the Northwestern 
Hawaiian Islands Coral Reef Ecosystem Reserve, administered by National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Sanctuary Program, and the State of Hawaii's Northwestern Hawaiian 
Islands State Marine Refuge and Kure Atoll Wildlife Sanctuary.
Emerging Issues and Unseen Challenges
    The National Wildlife Refuge System Improvement Act is the most 
modern organic Act of any of the Federal land management agencies. It 
is forward looking and visionary in many respects. For example, its 
requirement to maintain biological diversity, integrity, and 
environmental health reflect a modern understanding of ecological 
principles. The Improvement Act envisions a collaborative approach to 
conservation, where partnerships with others are an essential 
ingredient in conservation success. It requires public involvement in 
conservation planning and compatibility determinations and recognized 
the growing critical importance of water quality and quantity in 
wildlife conservation.
    Recognizing water issues were perhaps the harbinger of an issue not 
well understood a decade ago: the effect of climate change on wildlife 
and their habitat. The Service is working hard to evaluate how climate 
change will affect the way refuges are managed as part of broader 
efforts to consider how climate change will affect wildlife 
conservation. Refuges will play important roles in monitoring wildlife, 
adapting management to changing conditions, restoring habitat that will 
sequester carbon, and reducing our own carbon footprint. We are just 
beginning our efforts to deal with what will likely be the largest 
conservation challenge of the century.
    The threat of invasive species was known a decade ago, yet it seems 
the problem grows more complex every day. We are making progress 
addressing invasive species on refuges, but not as quickly as is 
needed. The problem takes on an added dimension when we consider 
infectious diseases like West Nile virus, and their impact on wildlife 
populations. Avian influenza was not an issue that demanded attention 
ten years ago.
    Population growth and its effect on habitat were predictable a 
decade ago, but several aspects of that change have presented new 
challenges. Illegal immigration along the Southwest border has caused 
severe damage to border refuges and has taxed our law enforcement 
capabilities. At many refuges throughout the System, we see areas that 
were once rural being encroached upon by more and more development. 
This is changing the nature of refuge law enforcement by bringing more 
urban crimes to refuges, from methamphetamine labs to assaults on 
refuge officers. These pressures from beyond our boundaries also bring 
environmental challenges as some refuges become isolated islands in a 
sea of development.
    The growth in population, changing demographics, and the 
accelerating dominance of technology in everyday life is also changing 
they way people interact with wildlife. As our population increases by 
roughly 10% for each of the next five decades, achieving the System's 
mission will become more and more difficult. Census estimates indicate 
demographic subsets of our population will be growing at rates of up to 
more than 300%. To achieve our mission in the near future we need to 
start looking now at how to adapt the system to best benefit future 
generations, and especially these rapidly growing subsets. Hunters and 
anglers have always been a cornerstone of America conservation, but 
they represent a smaller percentage of the population every year. The 
latest National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation indicates that over the past decade that hunting has 
decreased by 10% and fishing has decreased by 15%. Wildlife watching, 
however, has increased by 13%. The Refuge System will have to change 
with the times to ensure it remains true to its mission to conserve 
fish, wildlife, and plant resources for present and future generations. 
Today, more children are living in urban areas and do not have the same 
outdoor experiences that were common with past generations. While the 
Refuge System continues to provide great hunting and fishing 
opportunities, the Service must recognize that digital cameras, iPods, 
and virtual geo-caching are tools that we can use to connect children 
with nature. Environmental education and interpretation are priority 
public uses of the Refuge System, and they need more emphasis now and 
in the future.
Strategic Habitat Conservation
    Since passage of the Improvement Act, the Refuge System has met 
with both great accomplishments and increasing challenges. Tried and 
true concepts, like providing wildlife with the essentials of food, 
water, and cover, have been augmented with enhanced understanding of 
ecological processes. The Service has adopted a visionary framework for 
strategic habitat conservation that will guide our land management and 
conservation efforts in the future.
    Strategic habitat conservation begins with biological planning that 
identifies measurable, landscape level, outcome goals. With these goals 
in mind, staff designs conservation activities and programs. With 
respect to the Refuge System, this means that the Service must look at 
refuge lands in relation to a broader network of protected areas and 
other conservation efforts on private land. In other words, we must 
take a landscape-level approach. We must use principles of conservation 
biology and protected area design, incorporating ecological 
considerations such as: are refuges large enough to accomplish their 
purpose, are they connected with other protected areas and is there 
enough redundancy in the System to assure wildlife sustainability as 
conditions change?
    The Service has long been a leader and preeminent practitioner of 
land management for wildlife. We can intensively manage land when 
needed, or use a light hand where appropriate. We have a proven track 
record in restoring degraded habitats, using fire to reduce fuel build 
ups and improve wildlife habitat, managing water levels to insure 
productive wetlands meet the needs of wildlife, and a wide variety of 
other habitat management practices.
    Our strategic habitat conservation framework will require effective 
inventory and monitoring, so that we can continue to adapt and improve 
our management practices. These monitoring efforts on national wildlife 
refuges are evolving to meet the challenges. Our new biological 
monitoring team is working on multiple refuges in several regions to 
experiment with new protocols that will evaluate the effectiveness of 
our management strategies and allow us to adapt our practices to meet 
changing future conditions. Finally, strategic habitat conservation 
must be informed by continuing research to ensure that we apply the 
best science available, and that is the foundation of all our work.
Conclusion
    In conclusion, I would like to thank you for holding this oversight 
hearing and for your interest in the future of the National Wildlife 
Refuge System. The challenges of our changing world will require the 
Refuge System and the Service to be innovative and adaptive.
    Our roots are in the past, today's challenges are new and vexing, 
and we all have some trepidation about an uncertain future. However, 
change is constant and managing it is always a challenge. What we need 
is the same open, honest, bipartisan collaboration that we all found 
when we worked together to craft the National Wildlife Refuge System 
Improvement Act. If we can continue with that type of leadership, we 
will be successful in meeting the challenges of the years ahead.
    Madame Chairwoman, I thank you for the opportunity to appear before 
you today, and I would be pleased to respond to any questions that you 
or other Members of the Subcommittee might have.
                                 ______
                                 
    Mr. Kind. Next, we are going to turn to Evan Hirsche, 
Executive Director of National Wildlife Refuge Association. 
Welcome.

    STATEMENT OF EVAN HIRSCHE, EXECUTIVE DIRECTOR, NATIONAL 
                  WILDLIFE REFUGE ASSOCIATION

    Mr. Hirsche. Mr. Chairman, thank you for the opportunity to 
testify before the committee today. On behalf of the Refuge 
Association and our membership comprised of current and former 
refuge professionals, more than 140 Refuge Friends affiliate 
organizations and thousands of refuge supporters around the 
United States, we really do appreciate the opportunity to 
discuss the Refuge Improvement Act. And I also wanted to thank 
you, Mr. Chairman, for your leadership on the caucus. I think 
this is one of the most tremendous events that we have 
witnessed for refuges, in support of refuges recently, and it 
is growing and it is an exciting movement that we are pleased 
to help support.
    The Refuge Association strongly supports the Refuge 
Improvement Act and the intent of its authors to ensure the 
Refuge System is prepared to address conservation challenges in 
a consistent and comprehensive matter. Nevertheless, we are 
alarmed both by the lack of adequate funding to achieve even 
the most minimal guidance in the Act and the failure to 
implement key provisions by the secretary.
    Mr. Chairman, today we face perhaps the greatest challenges 
ever to the conservation of wildlife in America. Urban and 
suburban encroachment, invasive species, the rush to develop 
energy on public and private conservation areas, competition 
for water, and a public that is increasingly removed from the 
natural world all represent enormous challenges as we seek to 
protect the diversity of habitats and wildlife that make up 
America's unique natural heritage.
    Added to these immediate threats is, of course, climate 
change, as we have discussed, which is projected to require a 
change in the way we think about sustaining species and 
managing habitat.
    In sum, the Refuge Improvement Act is an elegant and 
comprehensive tool with which to manage or respond to all these 
threats, including climate change. And we commend the authors 
for such a prescient piece of legislation. With the Act, the 
Fish and Wildlife Service is provided a clear set of management 
priorities that go beyond simply managing lands and waters 
within refuge boundaries. Instead, it makes it clear the 
Secretary of Interior has an obligation seek comprehensive 
conservation strategies with private land owners, the States, 
and other Federal land holders, in effect, looking beyond 
refuge boundaries. This, all in an effort to secure the 
biological integrity of refuges and achieve the mission and 
purposes of each refuge in the system.
    Along those lines, the value of integrating objectives in 
the refuge comprehensive conservation plans, which, of course, 
are mandated under the Improvement Act and State wildlife 
action plans can't be overstated, specifically as we are 
looking to conserve ecosystems, which we understand to be more 
and more important. Yet, while these mandates are complete and 
surprisingly prescient and provide a valuable tool for refuge 
professionals, particularly in the areas of compatibility and 
appropriate use, a fundamental obstacle remains, and that is 
funding. And I won't beat a dead horse here, but I think it is 
pretty clear that the Refuge System is in a state of crisis, 
and we need to figure out how refuges are going to be funded at 
a level that is going to allow them to achieve the guidance 
under the Refuge Improvement Act.
    As you know, Mr. Chairman, the cooperative lines for refuge 
enhancement has recommended $765 million in annual operations 
and maintenance funding as a minimum to get refuges on steady 
ground. We are grateful to the House for approving the record 
$451 million for Fiscal Year 2008, and we are certainly 
appreciative of the members of the Subcommittee for supporting 
that number. But let me put a fine tooth on the crisis and talk 
about a few specific examples.
    Now, the Act requires refuges to be managed in a way that 
ensures their biological integrity. Yet, you look at the 
Potomac River Refuges just across the street. They are having a 
refuge week event on Saturday; I hope everyone will choose to 
attend. It is always a great event. But there, there are no 
wildlife surveys being conducted, no active habitat management. 
And the refuge manager, in his word, is hoping for the best for 
the eagles, herons, and hundreds of birds species that utilize 
the three refuge complex. Hoping for the best isn't what the 
architects of the Refuge Improvement Act had intended. In fact, 
about half refuges in the system have no refuge biologists at 
all.
    The Act also mandates providing increased opportunities for 
wildlife dependent recreation. But if we go to Minnesota and 
the Minnesota Valley National Wildlife Refuge, an urban refuge 
adjacent to the Mall of America in the Twin Cities, I am sure 
you are familiar with, funding shortfalls have limited their 
ability to reach out to tens of thousands of inner city school 
children, and as a result, they have witnessed a 13 percent 
drop in environmental education programs over the past year.
    Given the loss of vital refuge buffer habitat and 
corridors, there is an urgent need for both acquisition and 
cooperative agreements with private landowners. The State 
Wildlife Action Plans, I think, make it clear that there is an 
enormous need here. In fact, the Act requires that the 
Secretary plan and direct the continued growth of the system in 
a manner that is best designed to accomplish the mission of the 
system and contribute to the conservation of ecosystems in the 
United States.
    Mr. Chairman, no question this is a big mandate. But in our 
view, a whole lot more needs to be done to achieve that 
mandate. And, for instance, at the Department of Interior, 
internal decisions to centralize the real estate appraisal 
system has made the process so cumbersome that we have learned 
from some partners that they have lost acquisition prospects 
from willing sellers because of the bureaucratic red tape. That 
is just an example.
    Looking at a stunning report by the GAO just released in 
September, they did an exhaustive study of the Prairie Pothole 
Region which provides breeding grounds for more than 60 percent 
of our Nation's migratory bird species. It found, at the 
current rate of acquisition, it will take the Service 150 years 
to acquire the recommended 12 million additional acres. And 
that is not just acquiring. We are talking about agreements, 
easements with private landowners, and willing sellers, of 
course.
    Now, the Act also says the Secretary shall acquire, under 
State law, water rights that are needed for refuge purposes. We 
agree with Secretary Browner, and of course Former 
Administrator and Secretary Babbitt that that is a real need. 
And what we found is that in many instances, the Service simply 
hasn't acquired the rights which are vital to achieving their 
mission. And, in fact, because of staffing shortages, water 
needs of refuges, particularly in the East, are unknown. In the 
words of one refuge professional, we are ``looking at a slow 
motion car crash as portions of refuges are drying up and they 
don't know why.''
    In the face of this, Mr. Chairman, we ask the committee to 
commission an independent evaluation of what is needed in terms 
of funding and actions by the Secretary to comply with the 
Refuge Improvement Act.
    Refuges are the cornerstone of conservation in America. If 
we are going to protect our Nations wildlife heritage for the 
benefit of future generations, then funding and political 
capital must be allocated to successfully carry out the 
Improvement Act of 1997.
    Mr. Chairman, this concludes my testimony.
    [The prepared statement of Mr. Hirsche follows:]

                 Statement of Evan Hirsche, President, 
                  National Wildlife Refuge Association

    Madame Chair and Members of the Subcommittee:
    My name is Evan Hirsche, President of the National Wildlife Refuge 
Association (NWRA). On behalf of the NWRA and its membership comprised 
of current and former refuge professionals, more than 140 refuge 
Friends organization affiliates and thousands of refuge supporters 
throughout the United States, thank you for the opportunity to offer 
comments about the implementation of the National Wildlife Refuge 
Improvement Act.
    The NWRA strongly supports the Refuge Improvement Act of 1997 and 
the intent of its authors to ensure that the Refuge System is prepared 
to address conservation challenges in a consistent and comprehensive 
manner. Nevertheless, we are alarmed both by the lack of adequate 
funding to achieve even the most minimal guidance in the Act, and the 
failure by the Secretary of the Interior and U.S. Fish and Wildlife 
Service (FWS) to implement key provisions.
Background
    In 1997 Congress sought to resolve ongoing challenges facing 
refuges that stemmed from a lack of comprehensive organic legislation 
that would provide overarching and consistent guidance for refuge 
management. Indeed, leading up to passage of the Act it could be said 
that the Refuge System was really not managed as a system, but instead 
as set of disparate lands and waters with differing purposes and 
priorities. By requiring that refuges adhere--to the extent 
practicable--to both their establishing purposes and an overarching 
Refuge System mission, a necessary level of consistency was 
established. While there remain management inconsistencies from one FWS 
region to the next, we are certainly better off today from a management 
perspective than prior to the Act.
    The Act also established valuable mandates and guidance, including:
    <bullet>  A clear standard for determining the compatibility of 
proposed and existing public and commercial uses;
    <bullet>  A requirement that the long-term integrity of refuges and 
the System be achieved through the strategic conservation of lands and 
waters, including securing adequate quantities of clean water, the 
lifeblood of refuges;
    <bullet>  A requirement that the Refuge System ought to conserve a 
diversity of species and ensure the biological integrity of refuges;
    <bullet>  Establishment of the ``big six'' priority public uses as 
a way of clarifying for refuge management and the public that other 
uses are considered secondary in developing and implementing management 
strategies;
    <bullet>  A requirement that refuge managers coordinate closely 
with private landowners and states in conserving wildlife;
    <bullet>  A mandate to monitor wildlife populations in an effort to 
better understand the habitat needs of wildlife; and
    <bullet>  The requirement that all non-Alaskan refuges complete a 
Comprehensive Conservation Plan (CCP) within 15 years of enactment.
    In the following pages we will discuss how refuge management has 
benefited from the Act, specifically with respect to compatibility and 
appropriate use determinations and Comprehensive Conservation Plans. 
And we will discuss how funding shortfalls are limiting implementation 
of the Act and how a failure to implement portions of this statute will 
have long term ramifications for the future.
How the Act has worked--Compatibility and Appropriate Use
    The Act itself has proven to be a valuable tool when it comes to 
establishing the compatibility and appropriateness of public and 
commercial uses on refuges. It gives refuge managers the ability to 
make a decision regarding actions or policies that have occurred on a 
refuge in the past, or are proposed to occur on a refuge in the future 
and deem them compatible or incompatible with the purpose of the refuge 
or the mission of the System, according to the manager's ``sound 
professional judgment.''
    An excellent recent example of how the Act has worked in this 
regard stems from a legal challenge to a Comprehensive Conservation 
Plan (CCP) completed by Little Pend Oreille National Wildlife Refuge 
(NWR) in Northeastern Washington. In August 2007, the Refuge 
Improvement Act was upheld in a strong decision regarding the 
determination within the CCP that livestock grazing for economic 
interests was incompatible with the refuge's mission. The final CCP 
concluded that the practice of granting grazing permits to ranchers was 
not a compatible use of the refuge. Because the permittees had grazed 
their cattle on the land for several decades, the refuge gave them five 
years to find alternative lands. When the time was up, the permittees 
filed a lawsuit arguing that the CCP process violated the National 
Environmental Policy Act and the Refuge Improvement Act.
    The plaintiffs argued that when the FWS made this decision, they 
did not use ``sound professional judgment'' as outlined in the Refuge 
Improvement Act when they determined that livestock grazing was largely 
incompatible with refuge purposes. In the court's decision, dated 
August 20, 2007, Judge Edward Shea clearly agreed that the FWS complied 
with all aspects of the Refuge Improvement Act and that the manager had 
indeed, used sound professional judgment.
    Yet another strong example of how the compatibility standard has 
successfully thwarted harmful uses occurred at Sabine NWR in Louisiana. 
In this case, commercial alligator egg harvesters sought access to the 
refuge. Refuge managers argued that under the act commercial uses must 
contribute to the mission of the System, and that approving such a 
harvest would violate the law. Despite strong political pressure to 
allow the activity, refuge managers, backed by the regional office, 
were able to use the act to shield them from what they viewed as a 
harmful activity.
    Because the law is only ten years old, there is little case law 
interpreting its provisions, most notably the compatibility standard. 
Yet these decisions send a strong signal to refuge managers nationwide 
that they are on powerful legal grounds when making compatibility 
determinations.
    Much can also be said for the Appropriate Use policy that stems 
from the Act. In some cases, there are proposed activities are clearly 
not compatible with a refuge's purpose and mission. In those cases, the 
Improvement Act allows that a manager to make a quick decision without 
having to conduct a compatibility determination. For instance, recently 
the refuge manager at the Minnesota Valley NWR was asked by a local 
minister to conduct Sunday services at the refuge's Visitors Center. 
Because of this policy, the manger was able to make a quick 
determination that this action would not further the goals or mission 
of the refuge and deemed in an inappropriate use.
Comprehensive Conservation Plans
    One of the most far-reaching mandates in the Refuge Improvement Act 
was the call for the preparation a Comprehensive Conservation Plan for 
every refuge within 15 years of the date of enactment. To date, more 
than 250 plans have been completed. This planning exercise identifies 
and defines the purposes for each refuge and gives a clear and concise 
plan as to how the refuge will be managed based on sound science and 
public input and review. Prior to the passage of the Improvement Act 
few refuges had plans on how they would manage their refuge. The few 
that did--fewer than 10%--created ``Master Plans'' that sought to 
establish a clear set of refuge objectives. However, because they were 
not bound by law to be followed by future managers, the succeeding 
refuge manager could reverse the decision and create their own master 
plan without consulting with the public or indeed other land managers.
    The Improvement Act does indeed allow for a plan to be changed or 
updated as needed, but it states that the ``Secretary shall manage the 
refuge or planning unit in a manner consistent with the plans and shall 
revise the plan at any time if the Secretary determines that conditions 
that affect the refuge or planning unit have changed significantly.'' 
The Act does not give a manager the latitude to alter the plan on a 
whim.
    The outline regarding how a CCP should be developed and what it 
should include is in itself a monumental piece of guidance. The Act 
clearly lays out what each refuge must have in its final plan including 
identifying and describing the following: the purposes of each refuge; 
the distribution, migration patterns and abundance of fish, wildlife 
and plant populations; the archaeological and cultural values; the 
significant problems that may adversely affect the populations and 
habitats of fish, wildlife, and plants and the actions necessary to 
correct or mitigate such problems; and the opportunities for compatible 
wildlife ``dependent recreational uses. This outline ensures all CCPs 
contain the same information creating system-wide consistency in 
planning.
    A particularly valuable aspect of this process calls requires 
proactively reaching out to the public. Specifically, ``the Secretary 
shall develop and implement a process to ensure an opportunity for 
active public involvement in the preparation and revision of 
comprehensive conservation plans.'' While the purpose of this language 
is to ensure adjacent landowners and the general public is allowed an 
opportunity to comment on CCPs, it has an added benefit of simply 
connecting refuges to their communities and providing an opportunity to 
articulate to the public the value of these special places. These 
public forums give the opportunity for refuge managers to explain not 
only the mission and purpose of their individual refuge, but to talk 
about the much broader conservation picture of the entire National 
Wildlife Refuge System and how this system fits into the nation's land 
management complex.
    In some cases, these public forums are contentious and refuge 
managers face a difficult time explaining why certain uses are not 
compatible or able to continue on a refuge. For example, the CCP 
process at the Upper Mississippi River Wildlife and Fish Refuge 
represented an enormous challenge in terms of addressing the needs of 
countless interests. Refuge Project Leader Don Hultman and his team 
began outreach in 2002. Four years, 46 public meetings, 80 government 
get-togethers, one possible lawsuit and 800 pages later, the Upper 
Mississippi River National Wildlife and Fish Refuge CCP is complete. 
And while not everyone who uses this vast 261-mile refuge, where 3.7 
million people recreate annually, is happy with the result, everyone 
who wanted to voice their opinion was given the opportunity to do so, 
and the Act has been upheld. This is a far cry from an agency that 
could make decisions largely in a vacuum prior to the passage of the 
Improvement Act. In fact, the Act clearly stipulates that at a minimum, 
``the Secretary shall require that publication of any final plan shall 
include a summary of the comments made by States, owners of adjacent or 
potentially affected land, local governments, and any other affected 
persons, and a statement of the disposition of concerns expressed in 
those comments.''
    The Act also calls for the Director to ``coordinate the development 
of the conservation plan or revision with relevant State conservation 
plans for fish and wildlife and their habitats.'' Prior to 1997, there 
was some coordination between refuge managers and state agencies on 
management decisions; however, this was the exception, not the rule. 
Now, refuge mangers routinely consult with state wildlife agencies 
regarding management decisions, especially with the passage of the 
State Wildlife Action Plans in October of 2005. CCPs and these state 
plans are the basis for future management of the majority of America's 
wildlife heritage.
Funding Shortfalls Undermine Implementation
    Without question, the Refuge Improvement Act has provided 
innumerable benefits to the Refuge System. Yet, without adequate 
funding to implement the sweeping mandates, the Act in our view is 
being seriously undermined and many key provisions are not being 
implemented as a result.
    Specifically, it is impossible to expect that the ``biological 
integrity, diversity, and environmental health of the System are 
maintained,'' when many refuges go unstaffed, an alarming number go 
without a biologist, and the FWS is effectively projecting a 20% 
decline in staffing under current funding projections. The reality is 
that human beings are what make conservation possible on refuges and 
without them, and in the face of myriad threats such as climate change, 
refuges simply can't achieve their mission and purposes. A look at the 
recently released workforce management plans by each FWS region gives a 
glimpse of what biological programs are being lost simply because there 
are no funds available to maintain them.
    The threat of climate change means that every refuge in the nation 
should have at the least a wildlife biologist who can scientifically 
monitor trends and help establish adaptive regimes to ensure the long-
term conservation of species. In essence, we have 548 natural 
laboratories where inventory and monitoring could actually yield 
quantifiable data in helping manage Refuge System resources.
    Yet, at the Wallkill NWR in New Jersey, an intern who is assisted 
by volunteers--namely the President of the Friends group and her 11-
year-old daughter--does the only biological work on the refuge. While 
we are humbled by the commitment of volunteers at refuges, who 
currently contribute 20% of the System's workload, it's absurd to 
expect them to carry the water for refuges.
    Funding for the System did see gradual increases leading up to the 
Centennial of the system in 2003 ($391 million in FY2004) but since 
then has been flat or declining. In fact, the System needs at minimum 
an increase of $16 million annually just to keep pace with the rising 
costs of operations. To return to the levels appropriated in FY04, and 
give refuge managers a chance to actually implement some of the 
mandates in the Improvement Act, funding for FY08 would have to be $451 
million--the amount passed in the FY08 House Interior Appropriations 
bill. To fully fund the System and allow managers the ability to 
actually implement all or most the mandates in the Act, the System 
would need at least $765 million annually by estimates developed by the 
Cooperative Alliance for Refuge Enhancement. Given the scope of what 
was mandated in the Act under Section 5, the Administration of the 
System, the FWS is simply unable to comply with many important 
requirements.
Failure to Connect to People
    The current funding crisis further exacerbates the FWS' ability to 
provide ``increased opportunities for families to experience compatible 
wildlife-dependent recreation'' [Section (5)(a)(4)(K)] and 
opportunities to educate children and families about our natural world. 
At a time when people are becoming more urbanized and removed from 
natural ecosystems, the ability to give people meaningful experiences 
in nature must be made a higher priority. One of the most important 
ways FWS reaches out to families and local communities is through a 
dedicated Visitors Services staffer. Presently, these positions 
currently only account for about 5% of the overall workforce.
    Refuges are local, within an hour's drive of every major 
metropolitan city. And because they are local, communities identify 
themselves with their refuge. Support groups, or Friends, exist at 
approximately 250 refuges nationwide and with the support of FWS, are 
conducting Environmental Education programs and outreach to local 
communities, fulfilling yet another mandate of the Improvement Act. 
However, with staffing slashed at most refuges and some going 
completely unstaffed, the ability for FWS or even Friends to reach out 
to their community has diminished and in some cases gone away entirely.
Failure to Act
    Although funding shortfalls have limited the ability of the FWS to 
fully implement the Act, there has also been a failure on the part of 
the Department of the Interior and FWS to implement other aspects of 
the Refuge Improvement Act. Two of the most egregious examples relate 
to the mandates that call for strategic growth of the System and 
acquiring water rights.
    Under Section 5, the Administration of the System, the Act states 
that the Secretary shall, ``plan and direct the continued growth of the 
System in a manner that is best designed to accomplish the mission of 
the System, to contribute to the conservation of the ecosystems of the 
United State, to complement efforts of States and other Federal 
agencies to conserve fish and wildlife and their habitats, and to 
increase support for the System and participation from conservation 
partners and the public.'' Since the passage of the Act, 39 refuges 
have been added to the System, mostly directed by Congress. However, 
vital habitats all over our nation, many within acquisition boundaries 
of refuges, have been lost to developers and other buyers before FWS 
has been able to acquire the land.
    Several factors are to blame that do not rest solely on the FWS or 
Secretary of Interior's shoulders, including opposition to approving 
land acquisition dollars by previous Congressional leaders. 
Nevertheless, the Administration has failed to request adequate funding 
in recent years, and internal decisions to centralize the real estate 
appraisal system at the Interior Department has made the process so 
cumbersome, properties have been lost to bureaucratic red tape. This 
issue in itself could be the subject of an oversight hearing.
    And even though some could argue that the System has grown in 
recent years, we are only scratching at the surface of opportunity in 
terms of both purchasing lands from willing sellers and securing 
conservation easements through successful programs like Partners for 
Fish and Wildlife and the Duck Stamp. For instance, in September 2007, 
the Government Accountability Office (GAO) issued a new report showing 
that at the current pace of acquisitions, the FWS is unlikely to meet 
it's habitat protection goals for migratory birds. The GAO did an 
exhaustive study of the 64-million acre Prairie Pothole Region which 
provides breeding grounds for over 60% of migratory bird species in the 
United States. To sustain bird populations in the region, the FWS has a 
goal to protect an additional 12 million acres of ``high priority'' 
habitat--at risk lands which could support a high number of breeding 
duck pairs per square mile. At the current rate of acquisition, it will 
take the Service 150 years to acquire this additional 12 million acres.
    Adding to the challenge, the FWS's private lands programs, which 
are critical to the health of the System in terms of conserving 
important habitats beyond refuge boundaries, are managed by different 
divisions depending on the region. The National Wildlife Refuge 
Association (NWRA) launched its ``Beyond the Boundaries'' initiative in 
2005 having realized that most refuges outside Alaska face encroachment 
and loss of vital habitat on private lands proximate to refuges that 
jeopardize their conservation values. In order to secure the biological 
integrity of refuges, resources must be made available to work closely 
with private land-owners, the states and other federal agencies as we 
seek to conserve migratory wildlife and diverse habitat types.
    The Act also states the Secretary shall, ``acquire, under State 
law, water rights that are needed for refuge purposes.'' Unfortunately, 
in many instances the Service has not acquired these rights, which are 
vital to the mission of most National Wildlife Refuges. In fact, 
because of staffing shortages, water needs at many refuges, 
particularly in the East are unknown. In the words of one refuge 
professional, we are looking at a ``slow motion car crash'' as portions 
of refuges are drying up and they don't know why.
    At Desert NWR, outside Las Vegas, NV, the refuge and its springs 
are dependent upon the aquifer that lies beneath the ground that is 
being siphoned of to support the rapidly growing city. A small water 
monitoring structure is all that exists to tell the Service if outside 
influences are sucking the aquifer dry. Unfortunately, scientists 
predict that by the time effects are measured, it will be impossible to 
reverse them in time to save the biota those springs have been 
supporting for about the last 3 million years.
Conclusion
    The National Wildlife Refuge Association strongly supports the 
Refuge Improvement Act of 1997 and the intent of its authors to ensure 
that the Refuge System is prepared to address conservation challenges 
in a consistent and comprehensive manner. Nevertheless, as outlined in 
our testimony we are alarmed both by the lack of adequate funding to 
achieve even the most minimal guidance in the Act, and the failure by 
the Secretary of the Interior to implement key provisions.
    Accordingly, we ask this Committee to commission an independent 
evaluation of what is needed in terms of funding to comply with the 
Refuge Improvement Act. By the estimates of the Cooperative Alliance 
for Refuge Enhancement, based on information from the FWS, the National 
Wildlife Refuge System needs at minimum $765 annually to operate at 
full capacity. However, even this number may be too small. Refuges are 
a cornerstone of conservation in America; if we are to protect our 
nation's wildlife heritage, funding must be allocated to successfully 
carry out Refuge Improvement Act of 1997.
                                 ______
                                 
    Mr. Kind. Thank you, Mr. Hirsche. Thank you for your 
testimony, insight, and your leadership on this issue.
    Next, we are going to turn to John Frampton, Director of 
South Carolina DNR. And we are delighted we were able to find a 
spot in the panel for States' perspective. Thank you for being 
here.

             STATEMENT OF JOHN FRAMPTON, DIRECTOR, 
         SOUTH CAROLINA DEPARTMENT OF NATURAL RESOURCES

    Mr. Frampton. Thank you, Mr. Chairman, for the opportunity 
to share perspectives of the Association on the implementation 
of the Improvement Act. I am John Frampton, Director of the 
South Carolina Department of Natural Resources, and also 
Chairman of the Executive Committee Association of Fish and 
Wildlife Agencies. As you know, Mr. Chairman, all 50 States are 
members of the Association.
    In short, we conclude that, yes, the promise of the Act is 
well on the way to being fulfilled. The Act has truly met its 
goals as organic legislation for the Refuge System, directing 
the Fish and Wildlife Service to manage the system to ensure 
the sustainability of fish and wildlife and, where compatible, 
appropriately allow for the use and enjoyment of those 
resources by our citizens.
    While funding inadequacies constrain meeting the full 
potential of the Act, the Services' commitment to its statutory 
obligations under the Act remain solid and unwavering. The 
State Fish and Wildlife agencies sincerely appreciate the 
Services' engagement of our agencies in all aspects of the 
implementing the Act.
    The Association and the 50 individual State fish and 
wildlife agencies have a longstanding interest and involvement 
in the Refuge System and its contribution to fish, wildlife and 
habitat conservation. We were instrumental in deliberations 
leading to the passage of the Act and in assisting in the 
drafting of the implementing policies.
    Hunting, fishing, and other wildlife dependent recreational 
uses on National wildlife refuges are deeply valued by hunters, 
anglers, and outdoor enthusiasts because of the tremendous 
opportunities refuges provide, especially in areas where public 
lands are limited such as in South Carolina.
    As an example of the success on the ground, the Department 
and the Service have enjoyed a longstanding and successful 
relationship in managing wildlife resources and providing 
compatible wildlife dependent recreational programs that cross 
both State and Federal properties. This relationship began 
evolving decades ago, when both agencies realized that the 
management of wildlife resources needed to be addressed at an 
ecosystem level.
    An even stronger partnership developed in 1989 with the 
initiation of the ACE Basin Project, a cooperative habitat 
conservation project involving public, private, and corporate 
partners. This partnership quickly led to the establishment of 
the new National Wildlife Refuge in South Carolina, the ACE 
Basin. With the passage of the Improvement Act, the Department 
and the Service have worked cooperatively with nonprofit 
organizations in that project area to protect over 170,000 
acres of coastal habitat through fee simple acquisition and 
donated conservation easements. And, as a result of the passage 
of the Act, we have strengthened cooperative agreements that 
allowed for equipment exchange and staff assistance on State 
and Federal properties. We now coordinate many hunt schedules, 
particularly those that involve the mobility impaired and our 
youth.
    Department staff is actively participating in the 
development of the CCPs for all eight refuges in South 
Carolina, and we are extremely excited about the opportunity to 
partner with the Service on implementation of these plans to 
produce on-the-ground habitat improvements and enhance public 
recreation. We believe that by working cooperatively, sharing 
our resources and our talents, we can accomplish what no single 
entity could even envision. And it seems evident that the Fish 
and Wildlife Service has taken to heart Congress's direction 
regarding cooperation with State fish and wildlife agencies in 
implementing the Act. The Service has comprehensively engaged 
State fish and wildlife agencies in the development and review 
of regulations implementing the Act.
    While the State agencies and Service have not always agreed 
on certain implementing policies, we have been able to arrive 
at consensus in a vast majority of circumstances. This benefits 
not only fish, wildlife, and habitat resources supported by the 
refuges, but also the public that we all strife to serve.
    Let me reflect just a bit on the development of the CCPs. 
As we advocated during the legislative drafting and as the law 
reflects, the Service should take maximum advantage of State 
developed plans and strategies for species and habitats 
throughout the development of the CCPs. The utility of this 
approach is even more evident with the recent completion by 
every State fish and wildlife agency of the State and wildlife 
action plan for species in need of conservation, and the 
initiation of the National Fish Habitat initiative. In addition 
to these strategies, the States have all developed statewide 
goals, plans, and objectives for many additional species and 
for wildlife dependent recreational opportunities.
    Continued close and meaningful cooperation between the 
Service and the State fish and wildlife agencies will ensure 
that the development of a CCP is the most thorough, efficient 
and effective way. With respect to the system maintenance and 
growth, in light of budget shortfalls, cooperation with State 
fish and wildlife agencies can help budget shortfalls, but 
States need to be engaged at the early stage. A collective 
discussion between the Fish and Wildlife Service and the State 
agency can reflect on what respective agencies have what 
capability and resources to continue effective administration 
of the individual refuge to meet both its mission and its 
contribution to the conservation objectives of the State fish 
and wildlife agency.
    Mr. Chairman, in South Carolina, we value our partnership 
with the U.S. Fish and Wildlife Service very highly, and we 
believe that we have accomplished a tremendous amount of 
success through that cooperative partnership and we look 
forward to that in the future as do all the States that are 
members of the Association of Fish and Wildlife Agency. Thank 
you.
    Mr. Kind. Thank you, Mr. Frampton, for your testimony 
today.
    [The prepared statement of Mr. Frampton follows:]

                 Statement of John Frampton, Director, 
             South Carolina Department of Natural Resources

    Thank you, Mr. Chairman, for the opportunity to share the 
perspectives of the 50 State Fish and Wildlife agencies on the 
implementation of the National Wildlife Refuge System Improvement Act 
of 1997 (NWRSIA or Improvement Act). I am John Frampton, Director of 
the South Carolina Department of Natural Resources, and Chair of the 
Executive Committee of the Association of Fish and Wildlife Agencies. 
As you know, all 50 states are members of the Association.
    In short, Mr. Chairman, we conclude that, yes, the promise of the 
Act has significantly been fulfilled. The Act has truly met its goals 
as organic legislation for the National Wildlife Refuge System, 
directing the Fish and Wildlife Service to manage the System to ensure 
the sustainability of fish and wildlife, and where compatible, 
appropriately allow for the use and enjoyment of those resources by our 
citizens. While funding inadequacies constrain meeting the full 
potential of the Act, the U.S. Fish and Wildlife Service commitment to 
its statutory obligations under the Act remains solid and unwavering. 
The State Fish and Wildlife agencies sincerely appreciate the Services' 
engagement of our agencies in all aspects of implementing the Act and 
are committed to working with the Service to identify the role of the 
System in addressing new challenges such as climate change.
    The Association of Fish and Wildlife Agencies promotes and 
facilitates sound fish and wildlife management and conservation, and is 
the collective voice of North America's fish and wildlife agencies. The 
Association provides its member agencies and their senior staff with 
coordination services that range from migratory birds, fish, habitat, 
and invasive species, to conservation education, leadership 
development, and international relations. The Association represents 
its state fish and wildlife agency members on Capitol Hill and before 
the Administration on key conservation and management policies, and 
works to ensure that all fish and wildlife entities work 
collaboratively on the most important issues. The Association also 
provides management and technical assistance to both new and current 
fish and wildlife leaders.
    The Association and the 50 individual State fish and wildlife 
agencies have a long-standing interest and involvement in the National 
Wildlife Refuge System, and its contribution to fish, wildlife and 
habitat conservation. We were instrumental in deliberations leading to 
the passage of the Improvement Act and in assisting in the drafting of 
its implementing policies. Hunting, fishing and other wildlife 
dependent recreational uses on National Wildlife Refuges are deeply 
valued by hunters, anglers and outdoor enthusiasts because of the 
tremendous opportunities refuges provide, especially in areas where 
public lands are limited. As you are aware, the sale of duck stamps, 
purchased by sportsmen and sportswomen, has historically provided the 
bulk of the funding for acquisition of refuges across the nation.
    As you know, Mr. Chairman, the National Wildlife Refuge System has 
a long history of important contributions to the conservation of our 
nation's fish and wildlife. The Refuge System has grown enormously over 
the past century and, today, our National Wildlife Refuges support some 
of the best fish and wildlife habitats in the country, as well as 
outstanding hunting and fishing opportunities. Refuges are important to 
local communities for wildlife-dependent recreation. Through the 
Improvement Act, Congress recognized that these recreational activities 
promote effective refuge management and help the American public 
develop an appreciation for fish and wildlife. The Association and 
State fish and wildlife agencies are strongly committed to working 
cooperatively with the Service on managing the Refuge System.
    In my state, the South Carolina Department of Natural Resources 
(SCDNR) and the USFWS have enjoyed a long-standing and successful 
relationship in managing wildlife resources and providing compatible 
wildlife dependent recreational programs that cross both state and 
federal properties. This relationship began evolving decades ago when 
both agencies realized that the management of wildlife resources needed 
to be addressed at an ecosystem level. An even stronger partnership 
developed in 1989 with the initiation of the ACE Basin Focus Area 
Project, a cooperative habitat conservation project involving public, 
private and corporate partners. This partnership quickly led to the 
establishment of a new wildlife refuge in the ACE Basin Focus Area and 
is known today as the Ernest F. Hollings ACE Basin National Wildlife 
Refuge. With the passage of the Improvement Act, SCDNR and the USFWS 
have worked cooperatively with nonprofit organizations in the Focus 
Area to protect over 170,000 acres of coastal habitat through fee 
simple acquisition and donated conservation easements. And, as a result 
of the passage of the Improvement Act, we have strengthened cooperative 
agreements that allow for equipment exchange and staff assistance on 
management activities. We now coordinate many hunt schedules to prevent 
overlap of specialty hunts such as those conducted for the mobility 
impaired. Staff with the SCDNR is actively participating in the 
development of the Comprehensive Conservation Plans for all eight 
refuges in South Carolina and are extremely excited about the future 
opportunities to partner with the USFWS on implementation of these 
plans to produce on-the-ground habitat improvements and enhanced public 
recreation. We believe that working cooperatively, sharing our 
resources and talents, we can accomplish what no single entity could 
even envision.
    The Improvement Act, completed after years of bipartisan discussion 
and deliberation, truly represents a benchmark in the history of the 
Refuge System. It established a statutory mission of the Refuge System 
to administer a national network of lands and waters for the 
conservation, management and, where appropriate, restoration of fish 
and wildlife and their habitats. With the Improvement Act, Congress 
reaffirmed that National Wildlife Refuges are for fish and wildlife 
conservation first, clearly setting them apart from other federal 
public lands. In addition, Congress directed the Service that 
compatible wildlife dependent recreational uses are the priority 
general public uses of the Refuge System and shall receive priority 
consideration in refuge planning and management. No less important is 
Congress' direction to the Service to effectively coordinate management 
of fish and wildlife within the Refuge System with the states.
    Mr. Chairman, the Improvement Act, and its legislative history, is 
replete with explicit Congressional direction to the Secretary of the 
Interior ( and thus the USFWS) regarding management of the System, its 
mission, appropriate public use, and coordination with the State fish 
and wildlife agencies.
    The mission of the NWR System is articulated in law as:
        ``The mission of the System is to administer a national network 
        of lands and waters for the conservation, management, and where 
        appropriate, restoration of the fish, wildlife and plant 
        resources and their habitats within the United States for the 
        benefit of present and future generations of Americans''.
    The law goes on to further articulate that it is the policy of the 
United States that:
    (A)  each refuge shall be managed to fulfill the mission of the 
System, as well as the specific purposes for which that refuge was 
established;
    (B)  compatible wildlife-dependent recreation is a legitimate and 
appropriate general public use of the System, directly related to the 
mission of the System and the purposes of many refuges, and which 
generally fosters refuge management and through which the American 
public can develop an appreciation for fish and wildlife.
    (C)  compatible wildlife-dependent recreational uses are the 
priority general public uses of the System and shall receive priority 
consideration in refuge planning and management; and
    (D)  when the Secretary determines that a proposed wildlife-
dependent recreational use is a compatible use within a refuge, that 
activity should be facilitated, subject to such restrictions or 
regulations as may be necessary, reasonable, and appropriate.''
    The law defines ``wildlife dependent recreation'' and ``wildlife 
dependent recreational use'' to mean ``...a use of a refuge involving 
hunting, fishing, wildlife observation and photography, or 
environmental education and interpretation''. These activities have 
become popularly known in the jargon as ``the big 6''. Clearly Congress 
intended the Secretary to facilitate these ``big 6'' activities as long 
as they were compatible. As the Committee Report (House Report 105-106) 
further amplifies:
        ``The term `facilitated' was deliberately chosen to represent a 
        strong sense of encouragement, but not a requirement, that ways 
        be sought to permit wildlife-dependent uses to occur if they 
        are compatible. As Secretary Babbitt stated during the 
        negotiations leading to H.R. 1420: `The law will be whispering 
        in the manger's ear that she or he should look for ways to 
        permit the use if the compatibility requirement can be met.' By 
        the same token, however, the Committee recognizes that there 
        will be occasions when, based on sound professional judgment, 
        the manager will determine that such uses will be found to be 
        incompatible and cannot be authorized.''
And, with respect to the issue of budget shortfalls and facilitation of 
the ``big 6'' uses, the Committee Report contemplated this circumstance 
and provide this direction:
        ``New Section 5(3) defines the term ``sound professional 
        judgment'' as the collection of findings, determinations and 
        decisions that support compatibility determinations. Such 
        determinations are inherently complex and will require the 
        manager to consider principles of sound fish and wildlife 
        management and administration, available science and resources, 
        and compliance with applicable laws. Implicit within this 
        definition is that financial resources, personnel and 
        infrastructure be available to manage permitted activities. The 
        Committee expects the USFWS to be energetic and creative in 
        seeking such resources, including partnerships with the States, 
        local communities and private and nonprofit groups. The 
        Committee also expects the USFWS to make reasonable efforts to 
        ensure that lack of funding is not an obstacle to permitting 
        otherwise compatible wildlife-dependent recreational uses.''
    The law further directs that the Secretary shall, in administering 
the System, ``...ensure effective coordination, interaction, and 
cooperation with ``. the fish and wildlife agency of the State in which 
the units of the System are located.'' And, Congress further directed 
that the Secretary, in preparing a comprehensive conservation plan for 
each refuge, do so not only consistent with the NWRSIA, but--``to the 
extent practicable, consistent with fish and wildlife conservation 
plans of the state in which the refuge is located....'' Finally, 
Congress exempted coordination with State Fish and Wildlife Agency 
personnel pursuant to the NWRSIA from the application of the Federal 
Advisory Committee Act. We conclude that this is very clear statutory 
direction that management of the System be done is close cooperation 
with the state fish and wildlife agencies.
    Finally, I would direct your attention to USFWS Directors Order No. 
148 (issued Dec. 23, 2002 and extended until July 1, 2009 entitled 
``Coordination and Cooperative Work with State Fish and Wildlife Agency 
Representatives on Management of the National Wildlife Refuge System''. 
It says, in part:
    ``Sec. 4 What is the Services policy on coordination with the 
States?
    (a)  Effective conservation of fish, wildlife, plants and their 
habitats depends on the professional relationship between managers at 
the State and Federal level. The Service acknowledges the unique 
expertise and role of State fish and wildlife agencies in the 
management of fish and wildlife.
    (b)  Both the Service and the State fish and wildlife agencies have 
authorities and responsibilities for management of fish and wildlife on 
national wildlife refuges as described in 43 CFR 24. Consistent with 
the National Wildlife Refuge System Administration Act, as amended by 
the National Wildlife Refuge System Improvement Act, the Director of 
the Service will interact, coordinate, cooperate, and collaborate with 
the State fish and wildlife agencies in a timely and effective manner 
on the acquisition and management of national wildlife refuges. Under 
the Administration Act and 43 CFR 24, the Director as the Secretary's 
designee will ensure that National Wildlife Refuge System regulations 
and management plans are, to the extent practicable, consistent with 
State laws, regulations, and management plans. We charge refuge 
managers, as the designated representatives of the Director at the 
local level, with carrying out these directives. We will provide State 
fish and wildlife agencies timely and meaningful opportunities to 
participate in the development and implementation of programs conducted 
under this policy. This opportunity will most commonly occur through 
State fish and wildlife agency representation on the comprehensive 
conservation plan (CCP) planning teams; however, we will provide other 
opportunities for the State fish and wildlife agencies to participate 
in the development and implementation of program changes that would be 
made outside of the CCP process. Further, State fish and wildlife 
agencies will continue to be provided opportunities to discuss and, if 
necessary, elevate decisions within the hierarchy of the Service''.
    It seems evident that the FWS has taken to heart Congress' 
direction regarding this cooperation. The Service has comprehensively 
engaged the State fish and wildlife agencies in the development and 
review of regulations implementing the Improvement Act. While the state 
fish and wildlife agencies and the Service have not always agreed on 
certain implementing policy, we have been able to arrive at consensus 
in the majority of circumstances. This benefits not only the fish, 
wildlife and habitat resources supported by Refuges, but also the 
public that we all serve.
    Let me reflect a bit on the development of Comprehensive 
Conservation Plans (CCPs) for the refuge lands in the System. As we 
advocated during the legislative drafting, and as the law reflects, the 
Service should take maximum advantage of state developed plans and 
strategies for species and habitats to inform the development of CCPs. 
The utility of this approach is even more evident with the recent 
completion by every state fish and wildlife agency of its State 
Wildlife Action plan for species in need of conservation; and the 
initiation of Joint Partnerships under the National Fish Habitat 
Initiative. In addition to these strategies, the states have all 
developed state-wide goals, plans and objectives for many additional 
species, and for wildlife-dependent recreational opportunities. Refuges 
under the NWR System can and do play integral roles in meeting state-
wide goals and objectives for species, habitats, and wildlife-dependent 
recreational use opportunities. Continued close and meaningful 
cooperation between the Fish and Wildlife Service and the respective 
state fish and wildlife agency will ensure the development of a CCP in 
the most thorough, efficient and effective way.
    With respect to the System maintenance and growth in light of 
budget shortfalls, cooperation with the State fish and wildlife 
agencies can result in better ameliorating the results of budget 
shortfalls, but states need to be engaged early by the Service. Both 
the FWS and State fish and wildlife agencies have authorities and 
responsibilities for managing fish and wildlife on NWRs. A collective 
discussion between the FWS and the State fish and wildlife agency can 
reflect on which respective agencies have what capability and resources 
to continue effective administration of the individual refuge to meet 
both its mission and its contribution to the conservation objectives of 
the State fish and wildlife agency. State fish and wildlife agencies 
likely will want to assist (or continue to assist) in administration of 
certain programs as hunting and fishing but many will likely need some 
provision of federal funding or at least a cost-sharing of some type. 
Otherwise, this could become an unfunded mandate to the states.
    Second, we are concerned that the Service's practice (in response 
to budget shortfalls) of putting Refuges into ``preservation'' status 
mean no public activities, including the ``big 6'' mandated by 
Congress, will be allowed. There needs to be clear direction from the 
USFWS Director that the provision of these 6 activities are priority 
public uses and all other uses are secondary to them. Let me reiterate 
again that we have no argument that the conservation mission of the 
System is pre-eminent and that the FWS, in cooperation with the State 
fish and wildlife agencies, is obligated to fulfill that mission. But, 
it is eminently clear that the ``big 6'' are the priority public uses 
and Congress has directed the Service to facilitate those uses.
    You asked for our perspectives on the issue of climate change and 
border security vis-a-vis the Refuge System. We believe that response 
to climate change with respect to remediation of impacts to fish, 
wildlife and their habitats, needs to be applied comprehensively at the 
landscape level. The effects of climate change will obviously be 
pervasive across the landscape, and so must the response be 
comprehensive. The Refuge System, and all public lands, will be a key 
aspect of our response through their utility as habitat reservoirs and 
linkages, and should be incorporated into state adaptation strategies 
that are just now being developed by several states. It is clear that 
Congress will need to make significant additional funds available to 
both federal and state natural resource and land management agencies to 
respond to climate change.
    With respect to border security, the Association strongly suggests 
that funds be made available from the Department of Homeland Security 
to the U.S. Fish and Wildlife Service to support its role in national 
security endeavors. While we acknowledge the role that Refuge staff can 
play in interdicting illegal entry into the country, the USFWS cannot 
and should not be burdened with the cost supporting that national 
security task. Additionally, Congress should appropriate to the Fish 
and Wildlife Service additional funds to protect the integrity of the 
habitat in those border NWRs where physical security improvements may 
affect those habitats.
    Thank you for the opportunity to share our perspectives and I would 
be pleased to address any questions.
                                 ______
                                 
    Mr. Kind. And finally, we turn to The Honorable William 
Horn, general counsel of the United States Sportsmen's 
Alliance. Thank you for being here.

          STATEMENT OF WILLIAM HORN, GENERAL COUNSEL, 
                   U.S. SPORTSMEN'S ALLIANCE

    Mr. Horn. Mr. Chairman, thank you. My name is William Horn, 
and I appreciate the opportunity to appear today both on behalf 
of the U.S. Sportsmen's Alliance, and as a former Interior 
Department alum to discuss the landmark 1997 Refuge Improvement 
Act. Passage of that Act was a high priority of the Alliance 10 
years ago, and we have maintained a keen interest in the Act, 
and of course, the Refuge System. I think, as all recognize, 
that system is an incomparable array of wildlife habits that 
provide unparalleled conservation benefits and opportunities 
for public use, especially hunting and fishing. I would like to 
briefly talk about where the 1997 Act came from. Mr. Young and 
Mr. Babbitt made some references to it.
    Controversy surrounded the system in the early 1990s. 
Animal rights radicals were ratcheting up their campaigns, 
political and legal, to exclude hunters and anglers from the 
system. Another refuge lawsuit was just settled at that point 
that threatened to impose additional obstacles to hunting and 
other forms of wildlife dependent recreation. Funding for the 
system was being curtailed, impacting both conservation 
management as well as public access.
    And, finally, earlier versions of refuge organic 
legislation or bills had been introduced which would have made 
it for difficult for the Service to maintain traditional 
hunting and fishing opportunities on the system. And from the 
perspective of the sporting and conservation community, that 
was a pretty grim period.
    In early 1995, our community approached the Congressional 
Sportsmen's Caucus and the then new congressional leadership 
about comprehensive refuge legislation that would fix these 
problems, and the result was H.R. 1675 introduced in the 104th 
Congress. And its primary sponsors were Mr. Young, 
Representative John Dingell, and Representative Bill Brewster 
then from Oklahoma. Now, the effort didn't succeed that 
Congress, but carried over into the next year new legislation 
was introduced, and as Secretary Babbitt indicated, concerted 
good faith negotiations with Secretary Babbitt, and I would say 
some of us thought he was the Darth Vader in the process rather 
than me, yielded H.R. 1420 that was introduced and ultimately 
passed and signed into law 10 years ago today.
    Now, a critical feature of that Act is its expressed 
recognition that hunting and fishing were and are important 
legitimate activities on refuge units. In addition, once 
determined to be compatible, the Service under the law is under 
a clear statutory duty to facilitate those activities, not just 
merely allow them. And these were designed to stop once and for 
all repeated litigation by animal rights radicals seeking to 
bar hunters and other users from the Refuge System. 
Unfortunately, such litigation continues today under different 
and new procedural guises.
    The Sportsmen's Alliance considers the 1997 Act to be a 
success. Its focus on wildlife conservation and management is 
consistent with the principles articulated by President 
Roosevelt when he created the system in 1903, and this focus 
demonstrates that refuge are not mere sanctuaries to be set 
aside and left alone but to be actively managed, and that has 
resulted in hunters now having access to over 300 units of the 
system.
    In addition, the political unity forged during the 1995-
1997 period translated into renewed emphasis on the system and 
increased funding for operations and maintenance, and these 
beneficial trends peaked in 2003 coincident with the System's 
centennial.
    Unfortunately, there are a few skunks at the picnic. The 
animal rights interests, unwilling to accept the clear policies 
in the 1997 Act, have continued to mount legal challenges. 
Three years ago, they sued to stop hunting on 36 refuge units, 
arguing that the Fish and Wildlife Service was obligated to 
prepare comprehensive environmental impact statements in 
addition to the CCPs. The USSA and others joined the suit with 
the Service, tried to argue that the CCPs and all the migratory 
bird analysis that is done were all fully sufficient to cover 
the bases.
    Unfortunately, the court disagreed and has ordered the 
Service to prepare DISs which it is now doing, wasting finite 
dollars and wasting finite staff resources. And this is one 
issue where we think Congress needs to redress the matter to 
save the Service from all this useless paperwork to fulfill the 
purposes of the 1997 Act.
    Despite these types of problems and issues, I think the 
Alliance remains proud of its role in helping to enact the 1997 
Act, and believe that the funding issues can be resolved and 
the promise of this landmark legislation can truly be 
fulfilled. Thank you.
    Mr. Kind. Thank you very much, Mr. Horn.
    [The prepared statement of Mr. Horn follows:]

                Statement of William P. Horn, Counsel, 
                       U.S. Sportsmen's Alliance

    Madam Chair: My name is William Horn and I appreciate the 
opportunity to appear before the Subcommittee to discuss the purposes, 
history, and implementation of the landmark 1997 National Wildlife 
Refuge System Improvement Act (NWRSIA) (P.L. 105-57). Enactment of 
NWRSIA was a high priority of the U.S. Sportsmen's Alliance (USSA) 
(then the Wildlife Legislative Fund of America) and we have maintained 
a keen interest in the Act and the Refuge system since then. In 
addition, my comments reflect the perspectives from my prior tenure as 
Assistant Secretary of the Interior for Fish, Wildlife, and Parks under 
President Reagan and Chairman of the National Wildlife Refuge 
Centennial Commission.
    The National Wildlife Refuge System is an incomparable array of 
wildlife habitats that provide unparalleled conservation benefits and 
opportunities for public use, especially hunting and fishing. The 
sporting community was instrumental in founding the System in 1903 and 
has strongly supported it ever since. This support is not merely 
rhetorical. Hunters have contributed millions of dollars to growth of 
our Refuges through the Duck Stamp program and other forms of tangible 
financial support. No others have come close to matching this level of 
genuine commitment.
    Controversy, however, surrounded the Refuge System in the early 
1990's. Animal rights radicals and anti-hunting interest were 
ratcheting up their campaigns to exclude hunters from the System and 
only recently had the U.S. Fish and Wildlife Service (FWS) beaten back 
lawsuits to bar hunting on Refuge units. The Clinton Administration had 
settled another Refuge lawsuit and was threatening to close units to 
hunting and other forms of wildlife dependent recreation. Funding for 
the System was being curtailed and this was not only thwarting wildlife 
conservation objectives but threatened to curtail public access to 
Refuge units. Finally, earlier versions of Refuge ``organic'' 
legislation were being advanced that would make it more difficult for 
FWS to maintain hunting and fishing on the System. From the sporting 
and conservation community's perspective, these were grim times.
    In early 1995 key elements of the sporting/conservation community 
approached Congressional Sportsmen's Caucus the new Congressional 
leadership about Refuge legislation that would fix these problems and 
set forth a clear wildlife conservation mission for the System. The 
result was H.R. 1675 introduced in the 104th Congress primarily by Rep. 
Don Young (R-AK), Rep. John Dingell (D-MI) and Rep. Bill Brewster (D-
OK) and the House passed it by a lopsided bi-partisan margin of 287 to 
138 in April, 1996. The Senate, however, failed to take action.
    The effort to enact a Refuge bill carried over to the next Congress 
and early in 1997 its backers introduced it in the 105th Congress as 
H.R. 511 (reflecting the number of Refuge units in 1997). Concerted 
good-faith negotiations with Interior Secretary Bruce Babbitt yielded 
H.R. 1420 that was introduced in April, 1997, ultimately passed by 
Congress and signed into law on Oct. 9, 1997 as NWRSIA.
    A critical feature of the bill was its express recognition that 
hunting and fishing were, and are, important and legitimate activities 
on Refuge units. Moreover, once determined to be ``compatible'' with 
Refuge purposes, FWS is under a clear statutory duty to 
``facilitate''--not just allow--these uses. These provisions were 
designed to stop once and for all repeated litigation by animal rights/
anti-hunting radicals seeking to bar hunters from the Refuge system. 
Unfortunately, as discussed below, such litigation continues under new 
procedural guises.
    We note that clear public policy support for hunting in System 
units is not only reflected in the 1997 Act but in Executive Orders 
issued by both President Bush and President Clinton. President Bush 
recently issued an Executive Order to assure continued access for 
hunting to our public land systems. In 1997, President Clinton released 
an Executive Order for the Refuge System that recognized its value for 
hunting. We hope the radicals get the message.
    USSA considers the 1997 Act to be a success. Its focus on wildlife 
conservation and management is consistent with principles articulated 
by President Teddy Roosevelt when he created the system in 1903. This 
focus, codified in statute, demonstrates the Refuge units are not 
``sanctuaries'' to be set aside and left alone. Furthermore, the 
political unity forged during the 1995-1997 period translated into a 
renewed emphasis on the Refuge system mirrored by increased funding for 
operations and maintenance of the System. These beneficial trends 
peaked coincident with the 2003-04 centennial.
    We have also been very pleased with the on-the-ground of the 1997 
Act. Not only has the Refuge System grown to 548 units in the 
intervening decade, 317 units are now open to hunting. This compares to 
283 10 years ago. The public is able to enjoy this incomparable public 
land system which translates directly into continued support for the 
System. Such support is crucial if the Refuge system is to be sustained 
so that a bicentennial can be celebrated by our great-great 
grandchildren.
    Unfortunately there are a few skunks at the picnic. Animal rights 
interests, unwilling to accept the clear policies articulated in the 
1997 Act (and Executive Order), have mounted new legal challenges to 
hunting on Refuges. Three years ago the Fund for Animals, Humane 
Society of the United States and other ``usual suspects'' sued to stop 
hunting on 36 Refuge units. The argument was that FWS had not prepared 
comprehensive environmental impact statements (EISs) to justify the 
hunting. USSA and others joined the case with FWS and argued that full 
scale EISs were unnecessary because (1) FWS already prepares 
Comprehensive Conservation Plans for refuges per the 1997 Act and (2) 
as most of the hunting is for waterfowl, FWS already prepares 
comprehensive EISs as part of its comprehensive migratory bird 
management program. However, a federal judge ruled that new EISs are 
needed so FWS is in the process of spending money and finite staff 
resources to prepare the duplicative NEPA documents (and the animal 
rights plaintiffs are already complaining that these documents are not 
enough). Congress should redress this matter and make it clear that the 
CCPs, migratory bird EISs and other FWS documents are more than 
sufficient bases for opening refuge units to hunting per NWRSIA.
    This waste of finite dollars is made more acute by the funding 
crisis now afflicting the System. For a variety of reasons, Refuge 
funding is again shrinking with adverse consequences for wildlife and 
public users. Compared to National Parks, Refuges have always been the 
red-headed stepchild when it comes to funding. Even though the Park 
system is smaller, has fewer units, and is situated in fewer states, 
its funding outstrips that provided to the Refuges. Park operating 
budgets are nearing $1.5 billion while the Refuge system makes do on 
$382 million in Fiscal Year 2007. This gap is likely to grow now that a 
variety of bills propose hundreds of millions of extra dollars for 
Parks in anticipation of that system's centennial in 2016.
    Not all of the problems are external. FWS policies to implement the 
Act include restrictions not contemplated in 1997. For example, some 
parts of the Refuge system are also designated as Wilderness although 
the law specifies that wilderness purposes are merely ``supplemental.'' 
Courts have ruled that ``supplemental'' means secondary. Nonetheless 
FWS draft wilderness policies appear to allow ``Wilderness'' to trump 
wildlife conservation and impose undue restrictions on wildlife 
management practices. We are persuaded that the 1997 Act makes primary 
wildlife conservation, including management and use as expressly 
included in the law, and it takes priority over ``supplemental'' 
Wilderness purposes.
    Similar problems have been created by policies adopted at the end 
of 2000. A definition of ``wildlife first'' was added to these policies 
that fails to adequately recognize the use and enjoyment features of 
the 1997 Act. As referred to above, wildlife conservation is defined in 
the Act to include management and use yet these features are largely 
disregarded by the ``wildlife first'' definition. Other policies such 
as the ``biological integrity'' guidance has similar flaws and do not 
accurately reflect the active wildlife and habitat management 
provisions in NWRSIA.
    Despite these issues, USSA remains proud of its role in helping to 
enact the 1997 Act. We remain committed to enhancing this incomparable 
system of public lands to ensure conservation of our wildlife heritage 
and enabling public use and enjoyment of the System via wildlife 
dependent recreation. This will ensure continued public support 
necessary to sustain the health and vitality of our Refuge System.
                                 ______
                                 

     Response to questions submitted for the record by Bill Horn, 
                       U.S. Sportsmen's Alliance

Questions from Mr. Kind (D-WI)
1.  Thank you for your thoughtful comments. You noted in your statement 
        that the Improvement Act codified into statute a policy of 
        public use, and as you said, that ``Refuge units are not 
        `sanctuaries' to be set aside and left alone.''
<bullet>  Do you agree that all public use, even priority public uses 
        specified in the Act, are all subject to being found compatible 
        with the purpose of the refuge and mission of the Refuge 
        System?
ANSWER:
    I agree that all public uses, including priority public uses, are 
subject to being found compatible with refuge purposes. That 
requirement is stated plainly in the 1997 Act. To ensure, however, that 
this requirement did not become an unreasonable barrier to continued 
wildlife dependent recreation activities (including hunting) on refuge 
units, Congress made an express finding that these activities on 
refuges ``have been and are expected to be generally compatible uses.'' 
(P.L. 105-57, Sec. 2(6); 16 USC Sec. 668dd note). In addition, 
``compatible use'' was defined as a wildlife dependent recreational use 
that ``will not materially interfere with or detract'' from refuge 
purposes. In the majority of refuge units, and on a vast percentage of 
refuge system lands, the U.S. Fish and Wildlife Service (FWS) has 
determined that traditional activities such as fishing and hunting do 
not interfere or detract from refuge purposes. Lastly, I would note 
that Congress further recognized the value of these activities by 
finding that allowing and facilitating such activities on refuges has 
contributed importantly to the refuge system's conservation mission.
2.  You raised concerns about the establishment of wilderness areas in 
        refuges and assert that the policies of the Improvement Act 
        supersede the policies of the Wilderness Act.
<bullet>  On what legal basis to you base this opinion?
ANSWER:
    The 1964 Wilderness Act clearly and unambiguously states that 
wilderness purposes are ``supplemental to the purposes for 
which...national wildlife refuge systems are established and 
administered.'' P.L. 88-577; 16 USC Sec. 475. The term ``supplemental'' 
means secondary. In the case of the Refuge system, Congress spelled out 
its primary mission in the 1997 Act as ``conservation, management, and 
where appropriate restoration of the fish, wildlife, plant resources 
and their habitats.'' Sec. 4; 16 USC Sec. 668dd(a). The U.S. 
Sportsmen's Alliance (USSA) is concerned that supplemental/ secondary 
Wilderness Act purposes are used to impose restrictions on 
``conservation, management, and...restoration'' activities for the 
benefit of wildlife and associated habitats. Where Wilderness 
designations have been made on refuge lands, FWS has an obligation to 
try to harmonize its activities with both the 1997 Refuge Act and the 
1964 Wilderness Act. However, USSA maintains the agency's primary duty 
is to act consistent with its primary organic statute rather than the 
supplemental purposes of the 1964 Act.
3.  At present, wilderness areas are designated on other Federal lands, 
        such as National Parks and National Forests, each with their 
        own statutory mission. These wilderness areas are managed by 
        the standards required under the Wilderness Act.
<bullet>  Why should refuge lands be treated differently?
ANSWER:
    USSA submits that refuge lands are different than lands 
administered by the National Park Service and the Forest Service. 
Please note though that plain use of the term ``supplemental'' in the 
Wilderness Act also applies to both of these agencies so that the 1964 
Act is not a mandate to either of those agencies to disregard their 
more fundamental mandates from Congress (e.g., 1916 National Parks 
Organic Act). The distinction is that the 1997 Refuge Act is more 
recent in time and has a very clear statutory mission spelled out--
conserve, manage, and restore. This is a mandate for active management 
by FWS rather than a directive to treat refuge units as ``biospheres 
under glass'' to be set aside and left alone. Restrictions associated 
with the Wilderness Act cannot be disregarded but should not be used to 
bar FWS from fulfilling its primary mission as articulated by Congress.
                                 ______
                                 
    Mr. Kind. I want to thank all our witnesses today for your 
testimony and your time. I also want to thank my colleagues who 
have joined us recently on the panel. Starting with Ranking 
Member Brown, thank you, sir, for coming, Mr. Kildee and Mr. 
Faleomavaega for being here.
    Let me start the round of questions by getting back to what 
I alluded to in my opening comment. And maybe, Mr. Hall, you 
can take it first. But I appreciate your opening statement in 
regard to some of the youth activities involved, because we do 
face I think a real serious crisis and challenge. Mr. Young and 
I were just chatting about it. And I brought with me an article 
that appeared in The Washington Post on June 19 of this year 
titled, Getting Lost in the Great Indoors, how kids are getting 
addicted to the TV, the computers, the Game Boys, what have 
you, and we are not getting them out and not getting them 
outside experiencing nature, let alone visiting some of these 
great public lands of ours. And I know you have been actively 
involved in trying to ramp up the youth education programs. And 
I think you wrote a nice article on the July/August Refuge 
Update Newsletter that you sent out talking about that.
    But if you could maybe talk a little bit more about what 
programs specifically we are doing to reach our children. 
Because if we can't sustain this, and these public lands of 
ours, we are mere stewards of, we are to take care of them and 
pass them on to future generations. But if that future 
generation doesn't have the same love or passion or interest in 
the outdoors or in the Refuge System, it is going to be awfully 
tough to sustain anything that we are talking about today.
    Mr. Hall. Thank you, Mr. Chairman, and thank you for those 
comments. Because, as you and I have talked, this is really 
important. And I will start off by saying that none of what we 
are talking about today matters at all if we don't recruit new 
conservationists for two or three generations from now, no one 
will care. And while we are very dedicated, all of the people 
probably in this room are dedicated to that, we need to 
understand that we have to actively recruit conservationists. 
Now, that doesn't mean fish and wildlife biologists. That means 
getting conservation in the hearts of our citizenry. Because if 
conservation lives at all, it only lives in the hearts of the 
people.
    So what we have been trying to do is to understand that we 
missed a large gap in the system. Even people my age, and I 
grew up in the 1960s and I remember it, so I must have been 
square. But a lot of my age class people got accustomed to 
writing letters because these wonderful laws were passed, the 
Clean Water Act, the Clean Air Act, and began to think it is OK 
just to say go regulate it instead of go fix it. And the 
conservation mind is, if something is broken, go fix it. And we 
don't have enough connection in our children to nature today. 
It is frightening to me that if we don't get them connected, 
and it is part of their spirit they just don't know it yet. And 
the literature tells us if we get them connected, that we have 
them for life. Then we will have those future generations. And 
if we don't, we won't.
    And the literature is also indicating in other fields, in 
the medical field and psychiatric field, that children, the 
early onset of juvenile diabetes is taking on epidemic 
proportions. Why? It could be because children aren't 
physically playing anymore. They are sitting still. Their thumb 
is the strongest thing they have.
    We also have seen the literature talk about the child 
psychology and medical treatment area and ADD. And we had a 
professor talk to us, a teacher that said, I can take a 
classroom full of ADD children and I cannot keep their 
attention for more than 5 or 10 minutes. But I can take them 
out on a field trip and let them play for an hour, 
unstructured, let them go discover, and bring them back in the 
classroom and I can keep their attention for an hour.
    So there is really something there that a lot of the other 
fields are feeling. And so we are going to do our part, Mr. 
Chairman. I am going to make very sure that refuges are a 
welcoming place for all.
    Mr. Kind. Let me follow up. Last week, and the other hat I 
wear around this place, at least in this session, is co-
chairing the Congressional Sportsmen's Caucus. And we organized 
the first ever congressional sportsmen's week here in Congress 
last week with resolutions that we passed and some briefings, 
the annual banquet that we have every year. But we also had a 
breakfast briefing last week, and we brought in people from 
Matthews Bow to talk about the archery in the schools program 
and the Kicking Bear Archery Camp that Gander Mountain has been 
supporting nationwide. And it is true that unless we do a 
better job and think creatively on how to get these kids 
connected to the outdoors and appreciation for our natural 
resources, we are going to be in trouble.
    As someone who grew up and loved to hunt and fish in 
Western Wisconsin, some of the greatest conservationists I 
know, and those who are quickest to open up their wallets, are 
those out there participating in hunting, fishing, or just 
getting outdoors and understanding the beauty and what needs to 
be preserved. And now, with childhood obesity, Type II juvenile 
diabetes, this all meshes. But we have to think of ways to make 
it interesting for kids, and what is interesting today is 
technology. And I am wondering if the Service is tapping into 
some programs that utilize technology in order to get the kids 
interested.
    Mr. Hall. Yes, sir, we are. We have treasure hunts where 
they have to use GPS. They have to follow the instructions and 
a GPS program to reach the point where they can find the prize. 
We take them out, and let them do their own filming. We get 
cameras from Nikon and Kodak and they volunteer them, and we 
take kids out and let them take digital pictures, come back and 
put them on a screen and compare notes on how you took 
pictures.
    It is important not to leave their world behind but to use 
it as a bridge. So we are going to be trying that and a whole 
lot of other things to try and get them interested in the 
outdoors.
    Mr. Kind. Thank you very much, Mr. Hall.
    Mr. Young.
    Mr. Young. Thank you. And, Mr. Hall, I appreciate your 
statement. But I think to get everybody involved in 
conservation, there is so many different groups that have 
different interpretations. In this room we have probably PETA, 
we have Defenders of Wildlife. I can go on down the line. There 
is about 76 different organizations, and they don't want to see 
the big picture. They have their own little fiefdom that they 
can generate. I like to respect everybody's beliefs and have 
them enjoy it collectively together on our refuge. The hunting 
and fishing and trapping to me is extremely important. The bird 
watching identification and the flora and everything else is 
extremely important. But there is a division within the 
organization. And you can take preservationists and take and 
drown them all, as far as I am concerned. Conservation is 
different. But, unfortunately, the movement has been taken over 
by the preservation groups and makes your jobs very difficult.
    Mr. Hirsche, I was interested that you wanted to purchase 
more land, 12 million more acres of land. How do you go about 
doing that when you have a $2.5 billion backlog in maintenance 
and $1.25 billion in operation backlog and $361 million in 
invasive backlog? Do you remember my statement, how are you 
going to go out and buy a new house when the plumbing doesn't 
work in the one you have got?
    Mr. Hirsche. Mr. Young, that is an excellent question but I 
think there are a number of ways you need to look at the 
problem. First of all, there are the mandates in the 
Improvement Act. And I think fundamentally there is a pretty 
sweeping mandate to protect ecosystems as a way of ensuring the 
integrity of refuges. And within that, we recognize or the 
States recognize through the State wildlife action plans that 
there are enormous needs for conserving habitat. And we are not 
necessarily advocating for buying everything under the sun. We 
are talking about conserving.
    And the GAO report was looking, for instance, specifically 
at the fish and wildlife plans for the Prairie Pothole Region, 
and most of those were easements versus acquisition.
    Regardless, I couldn't agree with you more. We need more 
money to protect habitat. And that means involving private 
landowners, that means involving the States, that means Federal 
dollars as well.
    I mean, there is the ongoing question of why do you go 
conserving more habitat when you can't take care of what you 
already have, and that is a refrain we frequently hear. I think 
our response to that is, look, if lands are developed, for 
instance, there is a proposed subdivision adjacent to the 
Aransas National Wildlife Refuge down in Texas. All over the 
country you can see subdivisions cropping up on refuge 
boundaries, even remote refuges or reasonably remote refuges, 
like Tamarack in Minnesota. People want to live next to these 
conservation areas. And if we are going to respond to those 
things, we need to recognize what the values of these places 
are and act, take action proactively.
    Mr. Young. I don't disagree. I am just suggesting that we 
have to take care of the house. To purchase more will not take 
care of it. With invasive species, et cetera, we are just not 
gaining anything.
    I have another question, Mr. Hirsche, that somewhat 
concerns me because I am directly related to this. On page 5 of 
your testimony you state: ``human beings are what make 
conservation possible for refuges.'' And I agree with that. 
Would you agree that the current projection of reducing the 
refuge workforce by 20 percent will undermine the mission of 
the Refuge System?
    Mr. Hirsche. Absolutely.
    Mr. Young. If that is the case, why has your organization, 
I specifically say your organization, along with PEAR, has 
consistently opposed to letting Native American tribes operate 
various functions through annual funding agreements on wildlife 
refuges located within the boundaries of their reservations? In 
your judgment, are the tribes competent? Are they charging too 
much? Or do you not agree with the fundamental goals of the 
Tribal Self-Governance Act?
    Mr. Hirsche. The answer to that is our organization 
actually supports strongly the involvement of tribes in working 
with fish and wildlife to manage refuges. You are probably 
speaking specifically about the situation at National Bison 
Range.
    Mr. Young. If that is the case, why does your organization 
oppose the annual funding agreement for the Bison Range Refuge?
    Mr. Hirsche. The annual funding agreement that you are 
probably referring to there.
    Mr. Young. It is the only one.
    Mr. Hirsche. Well, and that funding agreement was 
terminated by Fish and Wildlife Service. Structurally we 
thought it was deficient and didn't work for a number of 
reasons. But that doesn't mean we don't support the tribes 
working closely with Fish and Wildlife Service. Indeed, I think 
they have to. If you read our column in our magazine a couple 
months ago, we talked about the need to engage diversity in 
this country, and this ties into the question of engaging a 
broader range of individuals in the Refuge System for 
conservation.
    Mr. Young. My interest is not only the Bison, because the 
American Natives were managing bison longer than any white man 
has ever been on this continent. And they may not manage them 
to your satisfaction, but they did manage them. I am 
interested, because if I find your organization opposing my 
intent to get management of refuged lands from in the State of 
Alaska where it is possible, not just because everybody is 
sitting in Washington, D.C. in a nice office means that they 
know everything about managing wildlife refuges. It is a way to 
employ people and to do the job correctly. You can sign 
contracts for working with the Park Service with covenants that 
allow this to occur.
    And if I even get the inkling that they can't do it or they 
are not competent, they are unprepared, and by the way that is 
racist, that is going to be a sad day for the agency and your 
organization also, because that is wrong. These are people that 
know the problems and can solve those problems. And I have sort 
of sensed that this is sort of creeping along through the 
agency itself, Mr. Hall, and Mr. Hirsche your program, too. So 
I just suggest be very, very careful. Just keep that in mind.
    I yield back.
    Mr. Kind. Thank you, Mr. Young.
    Mr. Kildee, thank you for joining us.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I am blessed with the Shiawassee Wildlife Refuge in the 
State of Michigan. It is a wonderful place. And whenever I go 
there, I myself feel that it is understaffed. So let me ask 
these questions, Mr. Hirsche. I appreciate your comment 
regarding the damaging and negative effect that the annual 
budget shortfalls reflect upon the ability of the Fish and 
Wildlife Service to fully implement the Improvement Act. The 
projected 20 percent decline in staffing levels is especially 
troubling to me. If these workforce management plans go into 
effect, is it possible for the Fish and Wildlife Service to 
fulfill its legal requirements under the Improvement Act?
    Mr. Hirsche. In our assessment, no. You have sweeping 
mandates in the Improvement Act. And the Act, again, we will 
reiterate, is a tremendously powerful and, I think, elegant 
piece of legislation that lays out a terrific set of guidelines 
for managing National Wildlife Refuges now and into the future. 
But without adequate funding, if we don't have staff at 
refuges, you know, we are seeing vandalism at refuges across 
the country because we don't have law enforcement.
    As an example, in the Selawik National Wildlife Refuge this 
past weekend, they were expecting 600 people to attend their 
refuge week event. They received 2,000 people. Were they 
staffed to handle this? No, they weren't. Half the refuges 
across the country have no biologists. Many have no staff at 
all.
    I don't understand how we are able to implement this Act 
fully unless we meet some of the fundamental funding needs for 
the Refuge System.
    Mr. Kildee. In my experience at the Shiawassee Refuge in 
Michigan, these people are really hardworking people and are 
sometimes doing a job and a half for one salary. They are not 
shirking their responsibility. And the Improvement Act is a 
very important Act, but the Improvement Act is something like, 
use this analogy, a get-well card. It kind of indicates what we 
would want and how we would evaluate how we value these. And if 
I have a friend who is ill, I will send a get-well card. But 
what my friend really needs is a Blue Cross card, and that is 
the appropriations. And I think Congress very often is good at 
sending the get-well cards, but doesn't send the Blue Cross 
card.
    Mr. Hirsche. I couldn't agree more. And I also want to make 
a point of discussing the role of volunteers and friends at 
refuges around the country. Currently, friends and volunteers 
are contributing fully 20 percent of the workload on our 
National Wildlife Refuges. I am humbled by the commitment and 
the support, but I am appalled that we are relying so heavily 
on volunteers to do the work that many professionals should be 
tasked to do.
    And one other comment just related to the issue of reaching 
out to children and families. It is interesting, you look at 
the Refuge System compared to other Federal land entities. And 
while they may be, in the words of I think Secretary Babbitt, 
postage stamps on the landscape, at least in the lower 48, 
obviously not Alaska, these places provide the best 
opportunity, in our view, of any Federal entity to engage the 
public, particularly diverse communities, because so many of 
these refuges are located in coastal areas, they are near urban 
areas, and we have an opportunity to engage diverse communities 
of all kinds to get them excited about conservation. And I feel 
like that is an opportunity that we are missing, and we need to 
put real resources into it.
    Mr. Kildee. Thank you.
    Mr. Hall, what is the status of the annual agreement for 
the Salishan-Kutenai tribes? We have been told by the tribes 
that Deputy Secretary Scarlett has ordered an agreement to be 
developed, but to date this has not occurred. Can you tell us 
why that has not occurred?
    Mr. Hall. We made a proposal for a funding agreement or for 
an agreement to the tribes a couple of months ago, and have not 
really had them reengage into the discussion negotiation 
process.
    Mr. Kildee. I would encourage both sides, including 
yourselves especially, to reengage. I think this is a very 
important step, and I would encourage you to do that.
    Mr. Hall. I would like to follow up on something that Evan 
Hirsche said a moment ago. This really has nothing to do with 
whether or not we are working with tribes or with anyone else. 
That is not the issue. We think the tribes could be very 
valuable working with us on the refuge. But the previous 
funding agreement was, in my opinion, structured to fail. There 
were two complete pillars of authority. No one was totally in 
charge of the refuge. And you can't run a refuge that way. 
Someone has to be in charge if they are accountable and there 
has to be one team that works together, not two that are just 
out there kind of working. So I have been suggesting very 
strongly that we have one team working together that is 
composed of tribal members and Fish and Wildlife Service 
members, but the refuge manager has to be in charge of the 
refuge. Somebody has to be accountable.
    Mr. Kildee. Thank you very much. I yield back the balance 
of my time.
    Mr. Kind. Thank you, Mr. Kildee.
    It is now my pleasure to be able to recognize Ranking 
Member Brown for any comments or questions that he may have.
    Mr. Brown. Thank you, Mr. Kind.
    And thank you, gentlemen, for coming. I am particularly 
pleased to see my friend John Frampton from South Carolina who 
has DNR there. And not only does he have that responsibility, 
but he has been very active in setting aside lots of different 
lands for future enjoyment and prevent future development. 
John, I am glad to have you, and thank you for your service 
there.
    Mr. Hall, my question I guess is, I represent the coastal 
area of South Carolina which is the 21st largest congressional 
district now in the Nation because of all the growth, and I 
have 1,500 acres that join the Francis Marina National Forest. 
So we are grateful for the national forest and for the other 
reserves that we have set aside. But my concern is, and I think 
it was addressed earlier about what kind of use would the 
public be able to enjoy, whether it be used for fishing or 
hunting or hiking or some of the other areas? It seems like to 
me, when we propose a reserve, it almost becomes a wilderness 
area. We don't want much activity.
    In fact, my major concern is along the strip in the 
Waccamaw Reserve, about 20 or 30 miles, John you can attest to 
this, with that growth in that area, they don't want us to 
build highways, they don't want us to build any kind of an 
infrastructure or utilities in these set-aside reserves. Could 
you give me some insight on that? It seems, though, the 
taxpayers, that all the taxpayers actually paid for that 
particular property, and they ought to have some enjoyment, 
particularly ought to have some community interest of use.
    Mr. Hall. Thank you, Mr. Brown. It is good to see you 
again. That is one of the dilemmas that we deal with. And you 
can say it is a good thing, you can say it is a bad thing. But 
when a refuge is established, there is a primary purpose for 
which it is established. It may be water fowl, it could be 
endangered species, a myriad of different reasons for 
establishing a National Wildlife Refuge. And then, after that, 
anything that happens on refuge lands must be found to be 
compatible with that primary purpose.
    And then, in addition to that, the Improvement Act 
identified priority uses, or priority appropriate uses, the 
hunting, the fishing, the photography and education and 
information, et cetera, those six. We call them the big six. I 
refer to them as the big seven, because it always starts with 
wildlife first. No matter, even if it is an appropriate and 
compatible use, you have to make sure it fits with the purposes 
of the refuge and for wildlife first.
    These lands are unique in being set aside for wildlife and 
for public's use of wildlife. They are the only lands like them 
in the world, that I am aware of, from a Federal standpoint. 
And the law basically was negotiated through to say, we need to 
hold on to that.
    So roads going through a refuge typically causes a problem, 
because it is not one of those things that contributes to the 
purposes of the refuge. If there are emergency situations, I am 
sure that things can be discussed on an emergency basis. But we 
do face this. And the law is pretty clear, in my mind, as to 
what we are allowed to do and not allowed to do 
administratively.
    Mr. Brown. I guess that brings, my major concern is that 
maybe we ought to be concerned then of where we actually 
establish these reserves. This particular one I am talking 
about, the Waccamaw, John is familiar with it, we have about a 
30-mile stretch of land that you can't get from the ocean to 
the mainland unless you cross part of that reserve. And I don't 
think there was ever intent for the taxpayers to buy a piece of 
property that was going to fence the rest of the population 
from having a natural way to evacuate in case there is a 
national disaster, particularly a hurricane or some other, 
maybe tsunami or some other reason to move quickly across that 
area rather than having to circumvent some 30 miles of travel. 
I don't think that was the intent when they established that 
particular parcel of land to make it so unique that only 
wildlife could survive and not the population.
    Mr. Hall. I can only tell you what we believe that the law 
directs us to do; and we believe that the law tells us that 
once the refuge is established, and maybe your point is well 
taken. If that is a consideration that needs to be looked at as 
we establish refuges, what might be the future needs out there, 
then that can be debated and talked about as we move forward. 
We have a very long process that we go through to establish a 
refuge. But once we do, in my opinion, the law guides us in how 
we are supposed to handle that refuge and what we are allowed 
to permit and what we are not. And roads have historically been 
a significant issue, especially since the passage of the 
Improvement Act.
    Mr. Brown. Then maybe we ought to take and look at some 
special legislation to at least, maybe in case the population 
is endangered, we ought to be able to have some way to exclude 
that. Not on a regular type basis, but on special instances, we 
ought to have some kind of an easy way to move through it, 
rather than upset the whole population that we are doing 
something to, I guess, damage a special piece of property that 
has been set aside. I don't know, if the taxpayers involved, 
that all the taxpayers ought to have some benefit from it and 
maybe we ought to look in particular at that. Thank you, Mr. 
Hall.
    Mr. Kind. Mr. Frampton, did you have anything you wanted to 
add?
    Mr. Frampton. Yes. Thank you, Mr. Chairman, and to respond 
to Congressman Brown.
    In that area, the State recently acquired some 32,000 acres 
of land under a deal with International Paper Company and some 
of our conservation partners, and we actually made some 
concessions on that prior to the time we acquired that 
property. There has been a tremendous amount of 
miscommunication in that Myrtle Beach area relative to some of 
these land acquisitions.
    I think, Congressman, most of the issues that you 
referencing, we have had an opportunity to sit down with the 
delegation in Horry County and I believe work through most of 
those issues.
    Mr. Brown. Thank you, John. I appreciate your saying that. 
Because if there is some reason maybe we need to at least 
address it in legislation, and this may be something we need to 
address while we are looking at expanding the potential of 
creating what is 12 million more acres of this wildlife. I know 
you have been actively involved in the community for a long, 
long, time, and I am grateful that something has been worked 
out, because it is a major concern for the safety of those 
people living along the coast there.
    Mr. Frampton. A lot of that was addressed on the I-73 
corridor issue, and a lot of that debate was relative to the 
heritage preserve that is owned by DNR, not U.S. Fish and 
Wildlife Service. And we recently came to agreement with the 
Department of Transportation. So I think that situation is 
corrected.
    Mr. Brown. Sandy Island was concluded?
    Mr. Frampton. Sandy Island is currently held by the Nature 
Conservancy. We were involved in that deal. I think ultimately 
you may see some of Sandy Island go under the Refuge System. As 
you know, some of our lands are actually in the Refuge System 
on an agreement with the Fish and Wildlife Service where we 
actually allocated those lands for their management, where it 
is more compatible with the refuge than in our individual 
lands. But I don't know of any issue associated with road 
construction that is an issue right now with Sandy Island.
    Mr. Brown. It is not. I only mentioned Sandy Island because 
I knew it was part of the ongoing preservation there, to maybe 
include it into the reserve system. Thank you.
    Mr. Kind. Thank you, Mr. Brown, Mr. Frampton.
    Eni, thank you for joining us.
    Mr. Faleomavaega. Mr. Chairman, thank you for your 
leadership, and certainly for the contributions that you have 
made not only for the conservation of our National Wildlife 
System. And I certainly appreciate having this hearing this 
afternoon. Also, our distinguished Ranking Member, the 
gentleman from South Carolina Mr. Brown for his leadership as 
well.
    I was listening, and certainly want to express my 
appreciation to the statements that have been made before our 
Subcommittee. I am sorry, I did miss earlier the former 
Secretary of the Interior, Mr. Babbitt's presence at these 
presentations. It is an unfortunate situation that we find 
ourselves as a country that it always seems that if you are a 
conservationist, you are a Democrat, and if you are a pro 
developer, you are a Republican. It is really unfortunate. I 
wish my good friend from Alaska was here, because I don't think 
there is one member here that does not want to conserve the 
richness of our Nation's wildlife system. And, ironically, too, 
it was a Republican president that initiated whole movement 
toward conservation of our wildlife system.
    So I don't think it should ever be a Republican or a 
Democratic issue. It should be a national issue that should 
have the same common interests and intent on the part of the 
Members of Congress and as well as the administration and the 
public as well to do the conservation.
    And I wanted to ask you, Mr. Hall, you said there was 
something wrong with the current provisions of the Improvement 
Act, that they seem to be not working together. I was trying to 
catch what you meant by that.
    Mr. Hall. You mean, in my response to Mr. Brown?
    Mr. Faleomavaega. No, it was earlier. I think it was to 
either to Mr. Young's or Mr. Kind's question. You said 
something that there was something, two systems that seemed not 
to be working together.
    Mr. Hall. That was in relation to the Bison Range 
discussion on just an agreement.
    Mr. Faleomavaega. You mentioned something that was not 
working together? Or was it because of the weakness of the 
current provisions of the Act?
    Mr. Hall. No. This has nothing to do with the Act. That 
didn't. This had to do with an agreement with tribes to work 
with us on the refuge. So it really had nothing to do with the 
Act itself.
    Mr. Faleomavaega. But you are satisfied with the way tribes 
are handling it, as opposed to the rest of us, as opposed to 
how the Federal Government is dealing with other issues, 
dealing with--you are saying, however the tribes are handling 
the situation.
    Mr. Hall. We are working with the tribes now to come up 
with an agreement that we think makes one team work on the 
refuge with the Fish and Wildlife Service who is responsible 
for the refuge in charge.
    Mr. Faleomavaega. There seems to be consensus that 
obviously the funding seems to be the most troubling aspect of, 
however you call it. We can talk about all the good things that 
have been done. And I must say that I was very impressed. We 
are talking about some 95 million acres of lands that affects 
the wildlife system, the Refuge System, and some 547 refuges, 
3,000 water fowl areas and the home of some 700 bird species 
and 220 mammals and 250 types of reptiles, and over 200 types 
of fish now. Fish is very important where I come from, 
obviously.
    But I just wanted to ask you, supposed within this 95 
million acres of refuge land, whatever you want to call it, 
that we have a sufficient supply of oil and natural gas in 
there to make us independent of any more oil from the Middle 
East or Saudi Arabia. What would be your recommendation for how 
we might strike a balance, as my good friend from Alaska has 
very well, and I must say, I, for one, am for development. 
There has got to be a balanced approach. Do you prefer that we 
disregard the Nation's rich resources that we have that 
provides for our energy needs?
    Mr. Hall. Thank you for putting me in this spot, Mr. 
Faleomavaega.
    In reality, we have literally hundreds, if not thousands, 
of oil and gas wells today on National wildlife refuges 
throughout the country. And I think that if you go to those 
areas, and Louisiana is a good test case because they have been 
there for a long time. You have the very old ones from the old 
operators, the very new ones from the new operators. The 
footprint is significantly different today, and you can just 
compare the wells.
    So I believe that if it is the will of the people to get 
the resource out, that it would be the responsibility of the 
Fish and Wildlife Service to figure out how to do that in a way 
that did not destroy the values of the refuge, or undermine 
them to a point that was not acceptable.
    Mr. Faleomavaega. I am planning to hold a hearing in the 
next 2 weeks about global climate change as part of my 
committee jurisdiction. And I have always wondered, I know this 
had nothing to do with climate global warming, but I think it 
does have very serious implications in terms of how far and to 
what extent are we willing to conserve our Nation's wildlife 
system as opposed to development. But I do want to raise the 
issue with you gentlemen, and Mr. Hirsche, I think you might 
have some comments on that.
    Mr. Hirsche. Yes, Mr. Faleomavaega. You know, it is an 
interesting question. I think as you are holding hearings and 
looking at climate change and energy development----
    Mr. Faleomavaega. By the way, my friend says it is not 
global warming, it is global pollution. But there would 
probably be a better word that we could use to be realistic 
about climate change and why we need to address the issues of 
emissions and the pollution that we are producing in the air 
and our resources. I am sorry, I didn't mean to interrupt.
    Mr. Hirsche. Absolutely. You know, in examining the 
challenge of energy production and conservation, I think an apt 
test case right now is North Dakota. As I think many Members 
here and people in this room know, North Dakota is what's often 
termed a duck factory for America. You have something like 60 
refuges up there, Prairie Potholes. It is tremendously 
important to nesting waterfowl and a whole range of other 
birds, grassland species, shore birds and others.
    Right now, because the price of oil, suddenly it has become 
a tremendous opportunity to drill for oil, certainly in 
Northwest North Dakota where you have several refuges including 
Lostwood and a couple others. But mostly easement lands, about 
1-1/2 million acres of easement lands up there. And we have now 
have the technology, if you read the paper, the New York Times, 
this morning, they are drilling for oil and gas in the most 
remote places.
    The question is, do we now have the technology and the 
willpower to be able to place extraction facilities in places 
that are not going to require filling potholes and other 
things. Because we have refuge managers right now that are 
going out on easement lands and asking, nicely, oil companies 
to please move their pads 100 yards to the left because you are 
going to fill a prairie pothole.
    Now, it is not just oil and gas, it is also wind energy. We 
are looking at the prospect for somewhere in the area of 5,000 
wind turbines in North Dakota, and these wind turbines are also 
being placed among potholes. And what are the ramifications for 
birds and other wildlife? And thus far, wind power has, in our 
view, gotten a pass on meeting the same standards of analysis 
and evaluation as oil and gas extraction. And we are facing a 
train wreck up there if we don't approach both oil and gas and 
wind turbine development in a way that carefully assesses the 
impacts to wildlife while also addressing our energy needs in 
this country.
    Mr. Faleomavaega. Thank you, gentlemen.
    Mr. Kind. It is my understanding that Ranking Member Brown 
would like consent to have a written statement submitted for 
the record. Without objection, it will be included.
    Mr. Brown. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    I want to thank you, Mr. Chairman, for holding this important 
oversight hearing. It is appropriate that we honor and celebrate the 
tenth anniversary of the enactment of the historic National Wildlife 
Refuge System Improvement Act of 1997.
    Ten years ago, the distinguished former Chairman of this Committee, 
The Honorable Don Young of Alaska, had a vision on how our refuge 
system should operate in the future. For nearly 100 years, this unique 
collection of federal lands had existed without any Organic Act, a 
definition of what was a ``compatible'' activity or even a ``Mission 
Statement''.
    As a result, you had confusion, inconsistent decisions and a 
growing frustration in the hunting, fishing and wildlife conservation 
community. Refuges are not federal parks, wilderness areas or national 
marine sanctuaries. Hunting and fishing has always occurred within the 
system and it is not an exaggeration to say that without the excise 
taxes and duck stamp fees paid by sportsmen, you would not have a 
refuge system.
    Today, we will examine the effectiveness of P. L. 105-97 and 
whether this law has met the expectations of providing a sound 
foundation for the refuge system. I find it interesting that in the 
decade since its enactment, Congress has not altered a single provision 
and there has been very little criticism of this law. In fact, the only 
voices of concern have come from individuals who believe the Fish and 
Wildlife Service is unfairly stopping or limiting other legitimate non 
wildlife-dependent recreational uses.
    In my own Congressional District, I am honored to represent three 
vibrant national wildlife refuges which provide recreational and 
educational opportunities to thousands of South Carolinians each year. 
There is no question that the Refuge Improvement Act has been largely 
responsible for the success of these refuges. In fact, the Waccamaw 
National Wildlife Refuge, which is located in Georgetown, South 
Carolina, was the first refuge established after the enactment of this 
law. It will celebrate its tenth anniversary on December 1st.
    During the course of this hearing, I look forward to hearing 
whether the Fish and Wildlife Service has fully implemented the 
``Mission of the System'', if recent funding shortfalls are denying 
visitors opportunities to enjoy wildlife dependent recreation, how 
existing activities are being evaluated prior to the acquisition of 
refuge lands, whether refuge managers are prohibiting legitimate 
recreational activities, a status update on the completion of 
Comprehensive Conservation Plans and whether there is a need to modify 
certain provisions within this landmark law.
    Mr. Chairman, I thank you for this hearing and I would again 
compliment the gentleman from Alaska for his leadership, lifelong 
dedication and vision in sponsoring this remarkable wildlife 
conservation law which passed both the House of Representatives and the 
U.S. Senate with only one dissenting vote. It is truly a law that will 
withstand the test of time.
    Finally, I want to welcome Mr. John Frampton, who is the Director 
of the South Carolina Department of Natural Resources. John, we look 
forward to your testimony.
                                 ______
                                 
    Mr. Kind. Thank you.
    Mr. Frampton, while I have you here, I just want to get 
your feedback on your perception on how the CCP process has 
been working in South Carolina with the multitude of refuges 
that you have in that State. Let me just preface it by saying 
that we face a unique situation in Wisconsin, given a right of 
access clause that actually exists in our State constitution, 
which created a very contentious issue now in the development 
of the CCP for the Upper Miss. The Service, based on scientific 
studies, wanted to establish a ladder approach to give 
migratory waterfowl a chance to rest without harassment, 
hunting, being bothered. But they were going to limit during 
certain times of the year certain right of access with certain 
things in order to prevent that disturbance.
    Air boats is one of the issues that is very contentious. 
And I am at a listening session one day and I have a bunch of 
duck hunters coming out screaming that, why is the Service 
prohibiting my use of the air boat in my favorite hunting 
grounds? The next day I am in another county, and I have a 
group of hunters coming out screaming at me saying, why are you 
allowing air boats to be blasting through my favorite hunting 
spot? So there is an inherent conflict there even within the 
same group of duck hunters. But it has created a very 
controversial and contentious issue, and I am wondering if you 
are experiencing anything at your State.
    Mr. Frampton. We haven't experienced those type of issues. 
We have a very unique partnership I think with the U.S. Fish 
and Wildlife Service in South Carolina. It is longstanding, it 
is very close. Our staff work very close together, sometimes on 
a day-to-day basis. We have a situation with air boats, too, 
but we have prohibited the use of air boats in a good bit of 
our coast because of the disturbance on ducks. And that is our 
biggest issue in South Carolina. As you can imagine, duck 
getting to South Carolina, it has probably been harassed a 
little bit along the route from Canada. Our mallards will 
circle for 30 minutes before they land.
    But we have been able to bring consensus to, I think, our 
public. We have been able to do that by working hand in hand 
with the Fish and Wildlife Service. We sit at the table with 
the Service. We have staff assigned to the CCPs. We have 
biologists, in some cases a number of biologists, assigned to 
work on those teams through one of our staff. So I think it is 
just a matter of communicating with the public and, as Dale 
referenced, creating a team approach where we have a common 
agenda and we try to put a common vision out there for the 
public to understand.
    Mr. Kind. Thank you, Mr. Frampton.
    Mr. Horn, let me first thank you for your very thoughtful 
comments and testimony here today. And you note in your 
statement that the Improvement Act codified in the statute a 
policy of public use. And, as you said, that, ``refuge units 
are not sanctuaries'' to be set aside and left alone.
    By that statement, is it safe to assume that you and your 
organization support increases in the Refuge System budget to 
facilitate public use?
    Mr. Horn. Absolutely, Mr. Chairman. As I said, I think we 
noted the problems that are now afflicting the system because 
of the funding reductions. Fortunately, dollars going in peak 
coincident with the centennial and there has been a pretty 
severe backslide. And I would just offer one sort of gratuitous 
comment here, and that is I note we focused heavily on the 
refuge centennial and I had the good fortune of chairing that 
commission, and we spent 2 years kind of congratulating 
ourselves and looking to the future. I note with some envy as a 
refuge advocate that the Park Service is beginning its 
centennial celebration 9 years early with hundreds of millions 
of dollars being proposed. And I was thinking, maybe we should 
go back and do this again and we should be a little more greedy 
than we were. No. But I think clearly the funding issue needs 
to be addressed.
    I would say at one point, just another note. The Refuge 
System has had user fee entrance fee authority since 1987. This 
was passed, we negotiated when I was assistant secretary. It 
has not been used very extensively because there is not a lot 
of units where it works. Like Sanibel Island, it works 
beautifully down there. But I think it is safe to say that the 
user community, whether it is hunters, anglers, or bird 
watchers, there is not enough blood in that stone to really 
make that the source of the solution. I think that, as Mr. 
Young talked about earlier, we are going to have to be a lot 
more creative in coming up with a high dollar source to get at 
fixing this problem over time.
    Mr. Kind. I think we are certainly interested, and this 
goes to everyone here in attendance. If you have some ideas, 
some creative solutions as far as a dedicated funding stream, 
let's talk. We should. We see the ramp-up at the centennial for 
the National Park Service right now and what is being done 
there, but I think part of the problem is, at least with the 
Park Service, is you have some pretty clear boundaries and 
ranger stations and gates that you pass through. And you don't 
have that with refuge, and that is what makes it so unique and 
special. A lot of people are visiting our refuges and they are 
not even aware that they are in a refuge from time to time. So 
that presents some unique challenges as well.
    But I thank you again for being here.
    Mr. Brown, do you have anything further.
    Mr. Brown. Nothing further. This has been a great exchange, 
and I appreciate you all being part of it. I am sorry I was 
late, but you know how those airlines run. Thank you so much.
    Mr. Kind. Anything? Again, I want to thank you all. And as 
I stated in the past, that these refuges that we have and the 
National Park Service, too, are really monuments to 
civilization. They are our great walls, our pyramids, our Taj 
Mahals, and we have a great charge facing us here today and 
especially the obligation for future generations. And hopefully 
with more concentration, with the work the committee does, with 
the refuge caucus that has been created, we are going to be 
able to figure this out as we move forward. So, again, I want 
to thank you all for being here and for your participation.
    Members of the Subcommittee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. The hearing record will be held open for 10 
days for these responses.
    If there is no further business before the Subcommittee, 
the Chairman again thanks everyone for your attendance and your 
testimony, and thanks the members for participating. Thank you.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Paul Bishop, Founder, 
Friends of the National Bison Range, follows:]

October 18, 2007

Honorable Madeleine Bordallo, Chair
House Subcommittee on Fisheries Wildlife and Oceans
U.S. House of Representatives
187 Ford House Office Building
Washington DC

Re: National Bison Range, Confederated Salish & Kootenai Tribes

Dear Representative Bordallo,

    It was gratifying to learn of your committee's recent hearing which 
touched on the current status of the National Bison Range and the 
controversial role there of the Confederated Salish & Kootenai Tribes. 
The ongoing discussion about what has happened in the past, and what 
might happen in the future, regarding the Tribes involvement at the 
range is of great importance to our 70 member organization. As a group, 
we support maintaining the National Bison Range as a premier wildlife 
refuge and we also support a full and meaningful role for the Tribes.
    I founded this organization last fall, immediately after Tribal 
employees were escorted from the Range by armed federal law enforcement 
officers. As a ten-year range volunteer, with a family history at the 
range spanning 10 years before that, I speak from a unique base of 
knowledge. I have been involved in a key role at the Bison Range annual 
roundup under both U.S. Fish & Wildlife Service and Tribal systems. My 
mother was an eleven-year Federal employee at the Range prior to her 
retirement. As a non-member, I can personally attest to the quality and 
depth of the Tribe's work, in spite of the one-sided reports and press 
releases put forth by the Service. Due to the relatively closed nature 
of the refuge system, I am one of the only people not directly related 
to either the Tribes or the Service who can accurately speak out about 
what has really happened, and also about how that can help shape any 
future relationship.
    Dale Hall, the Director of the U.S. Fish & Wildlife Service, 
recently told your committee that the original Bison Range AFA was 
``structured to fail'' and I couldn't agree more. However, I believe 
that it was the Service who engineered a one-sided and pre-determined 
assessment of the Tribe's capabilities in a heavy-handed effort to 
prevent their success. My personal experience shows that the Tribes are 
fully capable of managing not only those aspects of the range 
operations granted to them in the original AFA, but that they are more 
than well qualified to take over the entire operation. Many reasonable 
people in this region, with close links to the Bison Range, agree.
    The crux of the current discussion appears to be the level at which 
the Tribes would participate. The Service has made their position well 
known, that they value Tribal involvement at the Range. However, when 
examined more closely, the offers are actually just for low level 
employment positions under direct control of the Service. The Tribes, 
with their skilled natural resources capabilities, proven business 
management history, and undeniable sovereignty, are naturally 
disinterested.
    And, unfortunately, this discussion cannot be complete without 
looking at the sad truth of institutional racism. For example, under 
the original AFA, the Service intentionally placed a Federal employee 
with a known background of many years of anti-tribal agitation in a 
direct working relationship with the Tribal staff. The Service also 
intentionally played up old racial stereotypes at every opportunity. 
When the smoke cleared a bit this winter, it became obvious that the 
Service had purposefully submarined the original AFA, gutted their own 
refuge of staff and resources, and attempted to cut the bison herd size 
by two thirds in what many independent observers, including the 
editorial board of the largest newspaper in the region, called a ``burn 
the village'' mentality.
    What is needed, clearly, is a true government-to-government 
relationship, not a few positions held open for Tribal members in a 
make-work program which the Service can point to as evidence of 
progress. Congress opened the self-determination door which the Tribes 
are walking through. We owe them a fair and balanced chance to prove 
their abilities, on a level playing field and working under a 
legitimate agreement. Our group requests that you use your powerful 
committee to direct the Service to negotiate a new and well crafted 
AFA, on that essential government-to-government basis, with the 
Confederated Salish & Kootenai Tribes.
    Some in the Service have attempted to discredit our organization 
because we refuse to be a rubber stamp for their goals. In truth, we 
represent a balanced middle ground and we welcome the opportunity to 
bring forth a perspective that you perhaps have not yet heard.
    Please feel free to contact me at any time regarding this issue.

Sincerely,

/s/ Paul Bishop, Founder, Friends of the National Bison Range
                                 ______
                                 
    [A statement submitted for the record by James Steele, Jr., 
Chairman, Tribal Council, The Confederated Salish and Kootenai 
Tribes of the Flathead Nation, Pablo, Montana, follows:]

            Statement of James Steele, Jr., Chairman of the 
   Confederated Salish & Kootenai Tribes of the Flathead Reservation

    During the October 9, 2007 oversight hearing held by the House 
Natural Resources Subcommittee on Fisheries, Wildlife and Oceans, there 
was some discussion about the status of a pending Tribal Self-
Governance Annual Funding Agreement at the National Bison Range (NBR), 
which is located entirely within the Flathead Indian Reservation in 
western Montana. In response to a question from Mr. Kildee on the 
status of that Annual Funding Agreement (AFA), the Director of the U.S. 
Fish & Wildlife Service (FWS), Dale Hall replied to the effect that the 
FWS had made a proposal for an ``agreement'' (rather than a Self-
Governance Annual Funding Agreement) to the Confederated Salish & 
Kootenai Tribes (CSKT or Tribes) a couple of months ago and further 
indicated that the Tribes had not really reengaged in the discussions 
and negotiation process.
    Nothing could be further from the truth and on behalf of CSKT, I 
would like the record to clearly reflect that FWS has repeatedly 
refused to even discuss a Tribal Self-Governance agreement since it 
abruptly terminated the FY 2005-06 AFA for the NBR (which had been 
extended into FY 2007) on the basis of allegations which had not been 
shared with CSKT and for which CSKT was not provided any opportunity to 
respond. CSKT would also like the record to reflect exactly what sort 
of new ``cooperative agreement'' FWS has recently proposed due to its 
refusal to discuss a Tribal Self-Governance agreement.
    By way of background, in 1994, the House Natural Resources 
Committee reported H.R. 3508 and H.R. 4842. After negotiations with the 
Senate, H.R. 4842 was signed into law on October 25, 1994 as PL 103-
413. This is the legislation that permanently authorized the Tribal 
Self-Governance Act. Under Self-Governance an Indian Tribe can 
administer and manage programs, activities, functions and services 
previously managed by the federal agency in question. For Interior 
Department programs outside of the Bureau of Indian Affairs, the Tribal 
Self-Governance Act included language authorizing Self Governance 
Annual Funding Agreements (AFA) for programs, services, function and 
activities that are of special geographic, historical or cultural 
significance to a tribe requesting an agreement. Committee report 
language (see page 10 of H. Rept. 103-653) specifically references 
programs operated by the U.S. Fish & Wildlife Service and goes on to 
state that any Interior program ``[c]arried out by the Secretary within 
the exterior boundaries of a reservation shall be presumptively 
eligible for inclusion in the Self-governance funding agreement.'' 
[emphasis added]
    Immediately after President Clinton signed the Tribal Self-
Governance Act into law, CSKT made known its interest in negotiating an 
AFA under that Act for contracting local management activities of the 
NBR. CSKT encountered resistance and years of dilatory tactics from FWS 
and was unable to negotiate a mutually acceptable agreement until 
December 2004, when an FY 2005-06 Self-Governance AFA was signed 
involving limited contracting of biology, visitor service, maintenance 
and fire activities at the NBR.
    While working alongside FWS staff under that AFA, CSKT continued to 
experience on-the-ground resistance from FWS staff and officials, 
mostly in the form of repeated lack of communication and cooperation. 
CSKT repeatedly raised these problems to FWS regional officials but the 
problems continued until December 11, 2006, when FWS abruptly 
terminated the AFA, as well as negotiations for a successor AFA, on the 
basis of allegations which FWS had never shared with CSKT and to which 
CSKT was never provided an opportunity to respond.
    The same week this AFA was terminated by FWS, the Confederated 
Salish and Kootenai Tribes were told by an Interior official that FWS 
Director Dale Hall had met with Deputy Secretary Lynn Scarlett and 
Acting Assistant Secretary for Indian Affairs Jim Cason and they all 
had agreed to ``immediately'' enter into a new Self-Governance AFA with 
CSKT. That very week, at the Department's request, CSKT submitted 
proposed changes for the new AFA. This agreement by the FWS Director 
and Interior officials was later memorialized in a memo from Deputy 
Secretary Scarlett dated December 29, 2006 [see Attachment #1 for copy 
of memo].
    Following January 2007 meetings with Director Hall and other 
federal officials on the Flathead Indian Reservation in Montana, CSKT 
contacted FWS to initiate negotiations for the new Self-Governance AFA. 
FWS refused to talk to CSKT about a new AFA and referred Tribal 
representatives instead to the Department of the Interior (DOI). CSKT 
was told to submit its proposed Self-Governance AFA directly to 
Interior officials, which it did on February 6, 2007.
    In the following weeks, CSKT Tribal Chairman James Steele, Jr. sent 
two letters to FWS Regional Director Mitch King, offering assistance at 
the NBR pending the effective date of a new Self-Governance agreement. 
The first letter was dated February 16, 2007 and, in addition to an 
offer of general assistance, it: 1) inquired about filling a vacant NBR 
biologist position through an Intergovernmental Personnel Act (IPA) 
assignment; and 2) requested to start work, jointly with FWS staff, on 
drafting a five year operations plan for the NBR per the direction laid 
out in Deputy Secretary Scarlett's December 29, 2006 memo memorializing 
her agreement with FWS Director Dale Hall.
    The only response to the February 16, 2007 letter which CSKT 
received from FWS was a three-sentence letter dated March 14, 2007 in 
which FWS Regional Director Mitch King stated that FWS had decided to 
handle NBR biologist duties by using a biologist stationed in Bozeman, 
Montana (which is located four hours away from the NBR). The Regional 
Director's letter did not respond to CSKT's general offer of assistance 
pending a new Self-Governance AFA, nor did it respond to CSKT's request 
to initiate the joint FWS-CSKT development of the five year operations 
plan for the NBR, per direction of Deputy Secretary Scarlett and FWS 
Director Hall.
    At this point, the Tribal Chairman sent a letter to Deputy 
Secretary Scarlett, dated March 19, 2007 which expressed concern over 
FWS resistance to: 1) a Self-Governance AFA for the NBR; and 2) the 
policy of Tribal Self-Governance in general. The letter also requested 
a meeting with the Deputy Secretary.
    The Tribal Chairman's second letter to the FWS Regional Director, 
dated March 26, 2007, expressed concern about FWS not stationing any 
biologist at the NBR itself. The Chairman reiterated CSKT's prior 
offers to: 1) assist in any work needing to be done at the NBR pending 
a new Self-Governance AFA becoming effective; and 2) start the process 
of developing the joint five year NBR operations plan. Lastly, the 
March 26th letter expressed CSKT's concern about the lack of response 
from FWS with respect to the FWS Director and Deputy Secretary's 
agreement to enter into a new Tribal Self-Governance AFA at the NBR. 
CSKT received no response to this letter.
    The lack of response from FWS to these offers of assistance, 
combined with CSKT's concerns for fire protection at the NBR, compelled 
CSKT to write an April 2, 2007 letter to Deputy Secretary Scarlett, 
copied to FWS and NBR officials. This letter expressed CSKT's concern 
for fire preparedness and fire suppression at the NBR in 2007, and 
offered CSKT's assistance on those specific issues. As a result of the 
letter, CSKT and FWS entered into a mutual aid assistance agreement for 
fire suppression at the NBR which went into effect prior to the start 
of the 2007 fire season.
    In addition to the above-referenced letters, CSKT continued to 
communicate with various DOI officials as the Department considered the 
proposed Self-Governance AFA submitted by CSKT pursuant to Deputy 
Secretary Scarlett's December 29th memo. On April 11, 2007, CSKT Tribal 
Chairman James Steele, Jr., met with Deputy Secretary Scarlett and 
other Interior officials in Washington, D.C. to discuss the pending 
AFA. At this meeting, Deputy Secretary Scarlett referenced the Tribal 
Self-Governance Act and reiterated her commitment to completing a new 
Self-Governance AFA, as she and Dale Hall had agreed to do in December. 
She also stated that she firmly believed that, if any non-BIA program 
was intended for tribal contracting by the Tribal Self-Governance 
process, it was the National Bison Range.
    Two days prior to that meeting (April 9th), while most of the CSKT 
delegation was in transit to Washington, D.C., a regional FWS official 
met with CSKT officials on the Flathead Indian Reservation and: 1) 
announced that FWS was reducing the NBR staff from approximately twenty 
(20) permanent positions down to seven (7) permanent positions 
(providing CSKT with a new, signed organizational chart); 2) announced 
that FWS would be reducing the NBR bison herd; and 3) offered CSKT an 
undefined ``cooperative agreement'' for work at the NBR and a very few 
positions. FWS presented a letter to this effect dated April 6, 2007. 
This letter did not respond to CSKT Tribal Chairman James Steele Jr.'s 
letters to FWS Regional Director Mitch King dated February 16, 2007 and 
March 26, 2007, in which CSKT had offered assistance at the NBR pending 
a new Self-Governance AFA and had requested to start some of the 
activities which Deputy Secretary Scarlett and FWS Director Dale Hall 
had agreed upon as a course of action towards a new Tribal Self-
Governance agreement. When CSKT told Deputy Secretary Scarlett and the 
other Interior officials at the April 11th meeting about FWS' April 9th 
offer of a cooperative agreement, none of them knew anything about it--
including the acting Assistant Secretary for Fish, Wildlife and Parks.
    CSKT was perplexed at FWS' offer for a lesser, competing, agreement 
to the Self-Governance AFA which its parent department was in the 
process of evaluating due to FWS' refusal to even discuss it. During 
the April 9th meeting, the CSKT Natural Resources Department Head asked 
the FWS regional official for a written description of the proposed 
cooperative agreement. By letter dated April 27, 2007, FWS responded. 
In that letter, FWS specifically acknowledged that CSKT continued to 
seek an Annual Funding Agreement to operate/manage the NBR as part of 
the National Wildlife Refuge System. However, FWS said it was offering 
an ``alternative partnership'' in the form of a ``cooperative 
agreement.'' The letter ambiguously said that a cooperative agreement 
could provide ``a role for CSKT'' and went on to describe an 
arrangement wherein CSKT could provide a few staff to fill FWS 
positions at the NBR, but no contracting opportunities were identified. 
The FWS letter did not explain why FWS was offering a cooperative 
agreement instead of a Tribal Self-Governance AFA, nor did it explain 
why FWS would offer CSKT a loosely-defined cooperative agreement which 
involved no contracting of programs while the Interior Department was 
simultaneously considering, and committed to, a more substantial Self-
Governance AFA for contracting of NBR programs, as agreed upon by the 
Deputy Secretary and the FWS Director.
    CSKT Natural Resource Department Head Clayton Matt sent FWS 
Regional Refuge Supervisor Dean Rundle a letter dated May 8, 2007 
asking for an explanation of how FWS' offer of a loosely-defined 
``cooperative agreement'' related to the Self-Governance AFA which FWS 
Director Dale Hall had agreed to re-establish pursuant to his 
discussion with Deputy Secretary Lynn Scarlett. This May 8th letter 
also asked how FWS' cooperative agreement proposal related to FWS' 
stated objective to enter into more Tribal Self-Governance agreements, 
as published in the March 23, 2007 Federal Register, pp.13820-22 [see 
Attachment #2 for copy of Federal Register notice]. In that Federal 
Register notice, FWS continues to list National Bison Range programs as 
being eligible for Tribal Self-Governance contracting and, under the 
heading ``Programmatic Targets'', FWS states unconditionally that 
``upon request of a self-governance tribe, the Fish and Wildlife 
Service will negotiate funding agreements for its eligible programs 
beyond those already negotiated.'' Despite this, FWS again did not 
respond to CSKT's letter and has never explained the conflict between 
what it published in the Federal Register and its ongoing refusal to 
discuss a Self-Governance agreement for the NBR. The Interior 
Department's Tribal Self-Governance Policies are also noteworthy and 
should be juxtaposed with the positions taken by the FWS [see 
Attachment #3].
    In July, FWS faxed CSKT a new two page description of its proposal 
for a cooperative agreement, this one accompanied by an unapproved, 
organizational chart for NBR staff which was different than what had 
been provided to CSKT during the April 9th meeting. On July 30, 2007, 
CSKT representatives met with FWS representatives to discuss the FWS 
proposal, and CSKT attempted to flesh out exactly what type of 
contracting the cooperative agreement proposal would involve.
    After this July 30th meeting, CSKT sent FWS an August 15, 2007 
letter expressing concerns about the cooperative agreement proposal, 
pointing out that many boilerplate issues necessary to a successful 
agreement were already addressed in CSKT's proposed Self-Governance 
AFA, as well as the parties' FY 2005-06 Self-Governance AFA, and 
recommended the parties use that document as a basis for further 
negotiations. CSKT requested FWS to: 1) notify CSKT in writing of any 
reasons it may have for not considering a Tribal Self-Governance AFA; 
and 2) identify the legal authorities which would govern FWS' proposal 
for a cooperative agreement. CSKT also indicated its support for the 
DOI suggestion of facilitated negotiations for a new AFA, given the 
difficult history CSKT has had with FWS over the past 13 years to 
secure a fair Tribal Self-Governance contracting agreement at the NBR.
    By letter dated August 21, 2007, FWS responded. Amongst other 
things, the FWS response:
    1)  rejected the idea of facilitated negotiations for a new 
agreement;
    2)  confirmed it would not contract any activities to CSKT, as 
authorized by the Tribal Self-Governance Act, but would only entertain 
IPA assignments for individuals to take direction from the FWS Refuge 
Manager;
    3)  responded to CSKT's questions about how FWS' cooperative 
agreement proposal comports with the outstanding commitment by FWS and 
DOI to enter into a new Tribal Self-Governance AFA with CSKT for NBR 
programs. FWS responded by simply stating that ``[r]egardless of any 
prior communication between various officials of our governments, the 
United States is not offering to use the CSKT's proposed 2007 AFA as a 
basis for negotiation''; and
    4)  responded to CSKT's request for any reasons FWS may have for 
not considering a Tribal Self-Governance agreement. FWS explicitly 
disparaged federal Tribal Self-Governance policies with the following 
blanket statements:
            [W]e believe that an AFA is the antithesis of partnership. 
        The reason we will not consider a Tribal Self-Governance 
        agreement is that we are absolutely convinced such an agreement 
        is unworkable. The poorly written regulations for implementing 
        an AFA, in themselves, create an adversarial condition that 
        prevents partnership from occurring. The regulations do not 
        provide an intelligent method to achieve land management 
        objectives.
    Those statements attacking the concept of Tribal Self-Governance 
(and its own Department's regulations) are ironic given the Interior 
Department's successful history of implementing Tribal Self-Governance 
agreements. Hundreds of agreements have been signed and/or renewed over 
the last thirteen years since the program was made permanent. The 
above-referenced FWS views on Self-Governance are representative of the 
attitudes which CSKT has consistently encountered from local and 
regional FWS officials and staff since CSKT initiated efforts to secure 
a Self-Governance agreement in 1994.
    It bears mentioning that, after CSKT staff had been ejected from 
the NBR (by armed FWS law enforcement agents) on December 12, 2006, the 
CSKT Tribal Council temporarily reassigned those workers and, at 
considerable expense, kept them on the tribal payroll pending the 
effective date of the new Self-Governance AFA to which the Department 
had committed. The salaries/wages for these employees were paid for by 
tribal, not federal, dollars. In August, when it became clear that FWS 
did not intend to honor its commitment to a new Self-Governance AFA, 
the Tribal Council informed these staffers that, after the end of FY 
2007, it could no longer keep paying for their temporary duty stations 
out of tribal dollars, and urged that they look for permanent 
employment, either through directed reassignments within the Tribal 
government or elsewhere.
    CSKT remains willing to negotiate a new Tribal Self-Governance 
agreement for the National Bison Range, as the FWS Director and 
Interior Deputy Secretary had agreed to do last December. Under any 
Self-Governance AFA, the National Bison Range would remain a federally-
owned National Wildlife Refuge subject to applicable federal laws and 
regulations. It would remain part of the National Wildlife Refuge 
System and would remain under the administration and oversight of the 
U.S. Fish & Wildlife Service, with only local operations contracted by 
CSKT under the authority of the Tribal Self-Governance Act. It would 
very much be a partnership between FWS and CSKT, with CSKT being 
responsible for local activities, while FWS would still provide 
direction and overall administration of the NBR as part of the National 
Wildlife Refuge System.
    This is a highly unique matter. CSKT is unaware of any other 
situation where a National Wildlife Refuge:
    1)  is located wholly within an Indian reservation;
    2)  includes ancillary National Wildlife Refuges which are located 
on tribally-owned land (Ninepipe and Pablo National Wildlife Refuges); 
and
    3)  includes animals which descend from herds that were originally 
maintained by tribal members at a time when those animals were faced 
with the threat of extinction.
    These characteristics all distinguish the National Bison Range 
situation from that of any other Refuge situation and are the primary 
reasons many people believe that NBR activities are precisely what was 
intended for tribal contracting under Section 204 of the Tribal Self-
Governance Act of 1994 (25 U.S.C. Sec. 458cc(c)). As Montana's former 
Congressman, Pat Williams, stated in a May 20, 2007 editorial: ``the 
Bison Range remains a prime candidate for collaborative operations 
between [FWS] and the Salish and Kootenai Tribes under the Tribal Self-
Governance Act. That is precisely what we in the Congress intended.''
    On September 3, 2003, the New York Times published an editorial 
strongly endorsing tribal management of the NBR. Below are excerpted 
sections of that editorial.
The National Bison Range
    [N]o one disputes the excellent management and conservation record 
of the Salish and Kootenai.
    The Salish and Kootenai have a deep historical connection with the 
particular bison herd on this refuge--quite apart from the conventional 
associations of Indians and buffalo--and a strong cultural or 
historical link is one of the legal conditions for enacting an 
agreement of this kind, which would basically employ the tribes to 
manage the federal program. The National Bison Range is wholly enclosed 
by the reservation the Salish and Kootenai live on, and the tribes 
would be obliged to manage the refuge according to plans established by 
the Fish and Wildlife Service.
    The National Bison Range is an unusual case. It offers a rare 
convergence of public and tribal interests. If the Salish and Kootenai 
can reach an agreement with the Fish and Wildlife Service, something 
will not have been taken from the public. Something will have been 
added to it.
    CSKT appreciates the support of the House Natural Resources 
Committee leadership, as evidenced by the May 15, 2007 letter from 
Chairman Nick Rahall and Ranking Minority Member Don Young to Interior 
Secretary Dirk Kempthorne [see Attachment #4 for copy of letter]. In 
that letter, the Committee leadership made clear that a Self-Governance 
AFA at the National Bison Range is ``a logical partnership under both 
the [National Wildlife Refuge] Administration Act and the Tribal Self-
Governance Act.''
    CSKT further appreciates the Subcommittee on Fisheries, Wildlife 
and Oceans' interest in the National Wildlife Refuge Improvement Act, 
and the support its members have indicated for Tribal Self-Governance 
partnerships. CSKT hopes that this statement helps to clarify the 
status of a Tribal Self-Governance AFA at the National Bison Range in 
response to questions that were raised about the AFA at the hearing.
    A final thought we wish to share with the Committee is that we 
remain committed to working with the FWS to enter into a Self 
Governance AFA at the Bison Range. We believe such an agreement will 
benefit not only our Tribes but the Bison Range itself and public's 
enjoyment and use of it. It is ironic that in the FWS' zealous 
protection of their turf that they have lost sight of the benefits such 
a partnership could create. As the NY Times editorial so aptly points 
out, partnering with CSKT would not take something away from the NBR it 
would add something. Beyond bringing in the culture, history and 
innovation that CSKT would add is the fact that the Bison Range is 
underfunded and partnering with the CSKT would in fact open up avenues 
of supplemental funding. That the FWS would turn down that opportunity 
is perhaps the most classic example we have seen of cutting off one's 
nose to spite one's face. We hope a Self Governance AFA can still be 
reached.
    Attachments (4)
    [NOTE: Attachments have been retained in the Committee's official 
files.]

                                 <all>

</pre></body></html>
